NO. __________
IN THE

Supreme Court of the United States
NIKKI BRUNI; JULIE COSENTINO; CYNTHIA RINALDI;
KATHLEEN LASLOW; and PATRICK MALLEY,
Petitioners,
v.
CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL;
MAYOR OF PITTSBURGH,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
PETITION FOR A WRIT OF CERTIORARI
KEVIN H. THERIOT
ELISSA M. GRAVES
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
LAWRENCE G. PALADIN
PALADIN LAW OFFICES, PC Washington, DC 20001
(616) 450-4235
15 Duff Road, Suite 6C
Pittsburgh, PA 15235
jbursch@ADFlegal.org
(412) 244-0826

Counsel for Petitioners

i
QUESTIONS PRESENTED
Petitioners are sidewalk counselors who engage in
quiet, one-on-one conversations with women visiting
an abortion clinic in Pittsburgh, Pennsylvania. A
painted semi-circle extends 15 feet from the clinic’s
door. Under the City’s buffer-zone law, the counselors
may not speak—or even pray—in this zone because
the City views Petitioners’ message of hope, personal
concern, and assistance as advocacy or demonstration. Yet the City allows others to speak face-to-face
in the zone for nearly any other reason.
Because the buffer zone burdens and disfavors the
counselors’ speech, they sued. Confronting the City’s
unmistakably invalid ordinance, the Third Circuit
unilaterally construed the law to prohibit prayer or
generic advocacy but to allow counseling. This
exacerbated a 7-3 circuit split over whether federal
courts have authority to limit state laws to avoid
constitutional flaws. It then held the rewritten law—
which Pittsburgh neither wanted nor requested—
content neutral; rejected McCullen’s narrow-tailoring
standard, in conflict with three circuits; and held the
burden on speech insignificant or de minimis. After
litigating five years, the result is an advisory opinion
that neither binds state courts nor prohibits City
officials from prosecuting Petitioners in the future,
even for counseling. The questions presented are:
1. Whether federal courts have authority to save
a state or local law from unconstitutionality by
positing a limiting construction that has no state-law
basis and contradicts governing authorities’ understanding of their own law.
2. Whether Pittsburgh’s buffer-zone ordinance
violates the Free Speech Clause.

ii
PARTIES TO THE PROCEEDING
Petitioners are Nikki Bruni, Julie Cosentino,
Cynthia Rinaldi, Kathleen Laslow, and Patrick
Malley, individuals and citizens of Pennsylvania.
Respondents are the City of Pittsburgh, the
Pittsburgh City Council, and the Mayor of Pittsburgh,
local government entities and officials.
LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Third Circuit, No. 181084, Bruni v. City of Pittsburgh, judgment entered
October 18, 2019.
U.S. Court of Appeals for the Third Circuit, No. 151755, Bruni v. City of Pittsburgh, judgment entered
June 1, 2016.
U.S. District Court for the Western District of
Pennsylvania, No. 2:14-cv-1197-CB, Bruni v. City of
Pittsburgh, final judgment entered November 16,
2017.
U.S. District Court for the Western District of
Pennsylvania, No. 2:14-cv-1197-CB, final judgment
entered March 6, 2015.


iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING ........................... ii
LIST OF ALL PROCEEDINGS ................................. ii
TABLE OF AUTHORITIES ..................................... vi
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 2
PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISIONS ................................ 2
INTRODUCTION ...................................................... 3
STATEMENT OF THE CASE ................................... 4
A. The sidewalk counselors’ ministry and
participation in 40 Days for Life ..................... 4
B. Pittsburgh’s ordinance .................................... 5
C. The buffer zone’s impact on Petitioners’
speech ............................................................... 8
D. Lower-court proceedings ............................... 10
REASONS FOR GRANTING THE WRIT............... 14
I. The Third Circuit’s effort to save a ban on prolife speech via a limiting construction conflicts
with this Court’s precedent and that of most
courts of appeals. ................................................ 15
A. States are independent sovereigns with
full power to make and construe their own
laws without federal intrusion...................... 15
B. Contrary to the Third Circuit’s ruling,
federal courts have no independent
authority to narrow state laws. .................... 17

iv
C. The Third Circuit’s ruling exacerbated a 7to-3 circuit conflict that shows the
federalism issue is entrenched and
recurring and needs prompt resolution. ....... 22
II. The Third Circuit’s ruling that the ordinance
is content neutral and narrowly tailored
conflicts with this Court’s precedent and other
circuits’ reading of McCullen. ............................. 24
A. This Court’s precedent establishes that
Pittsburgh’s ordinance is content- and
viewpoint-based, not content neutral. .......... 25
B. To hold the ordinance narrowly tailored,
the Third Circuit shifted the burden of
proof to the sidewalk counselors, distorting
McCullen and creating a conflict with three
other circuits. ................................................. 28
III.This Court’s precedent establishes that
Pittsburgh’s ordinance is overbroad and
constitutionally invalid. ...................................... 31
IV.This case is an ideal vehicle to resolve
conflicts on questions of vital importance that
impact free speech nationwide. .......................... 33
CONCLUSION ......................................................... 35

v
APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Third Circuit,
Opinion in 18-1084
Issued October 18, 2019 ........................................... 1a
United States District Court
for the Western District of Pennsylvania,
Memorandum and Order
Re: Motion for Summary Judgment
Issued November 16, 2017 ..................................... 42a
United States Court of Appeals
for the Third Circuit,
Opinion in 15-1755
Issued June 1, 2016................................................ 74a
United States District Court
for the Western District of Pennsylvania,
Memorandum and Order
Re: Preliminary Injunction and Dismissal
Issued March 6, 2015 ........................................... 141a
United States Court of Appeals
for the Third Circuit,
Order Denying Petition for Rehearing En Banc
Issued November 27, 2019 ................................... 189a
U.S. Constitutional Provisions ............................ 191a
Pittsburgh Code of Ordinances,
Chapter 623 .......................................................... 192a
United States District Court
for the Western District of Pennsylvania,
Order Granting Permanent Injunction in
Brown v. City of Pittsburgh
Issued December 17, 2009 ................................... 196a


vi
TABLE OF AUTHORITIES
Cases
Arizona v. United States,
567 U.S. 387 (2012) .............................................. 15
Arizonans for Official English v. Arizona,
520 U.S. 43 (1997) ................................................ 19
Bates v. State Bar of Arizona,
433 U.S. 350 (1977) .............................................. 32
Beckerman v. City of Tupelo,
664 F.2d 502 (5th Cir. 1981) ................................ 23
Board of Airport Commissioners of City of Los
Angeles v. Jews for Jesus, Inc.,
482 U.S. 569 (1987) ........................................ 31, 32
Board of Education of Rogers v. McCluskey,
458 U.S. 966 (1982) .............................................. 19
Bond v. United States,
564 U.S. 211 (2011) .............................................. 15
Boos v. Barry,
485 U.S. 312 (1988) .............................................. 22
Broadrick v. Oklahoma,
413 U.S. 601 (1973) ........................................ 16, 18
Brown v. City of Pittsburgh,
586 F.3d 263 (3d Cir. 2009) ................................... 7
Bush v. Gore,
531 U.S. 98 (2000) ................................................ 16

vii
City of Houston v. Hill,
482 U.S. 451 (1987) .................................. 21, 22, 24
City of Lakewood v. Plain Dealer Publishing Co.,
486 U.S. 750 (1988) ........................................ 20, 22
Cutting v. City of Portland,
802 F.3d 79 (1st Cir. 2015) .................................. 22
Danforth v. Minnesota,
552 U.S. 264 (2008) .............................................. 16
Dimmitt v. City of Clearwater,
985 F.2d 1565 (11th Cir. 1993) ............................ 23
Erznoznik v. City of Jacksonville,
422 U.S. 205 (1975) ........................................ 21, 27
Eubanks v. Wilkinson,
937 F.2d 1118 (6th Cir. 1991) .............................. 23
Fair Assessment in Real Estate Association, Inc. v.
McNary,
454 U.S. 100 (1981) .............................................. 17
Forsyth County v. Nationalist Movement,
505 U.S. 123 (1992) .............................................. 18
Freedman v. Maryland,
380 U.S. 51 (1965) ................................................ 20
Frisby v. Schultz,
487 U.S. 474 (1988) .............................................. 18
Gooding v. Wilson,
405 U.S. 518 (1972) .............................................. 19

viii
Grayned v. City of Rockford,
408 U.S. 104 (1972) ........................................ 19, 21
Hill v. City of Houston,
789 F.2d 1103 (5th Cir. 1986) .............................. 24
Hill v. Colorado,
530 U.S. 703 (2000) .................................3, 7, 27, 33
Hoy v. Angelone,
720 A.2d 745 (Pa. 1998) ....................................... 20
Hoye v. City of Oakland,
653 F.3d 835 (9th Cir. 2011) ................................ 22
Hynes v. Mayor & Council of Borough of Oradell,
425 U.S. 610 (1976) .............................................. 20
Iancu v. Brunetti,
139 S. Ct. 2294 (2019) .......................................... 27
Kucharek v. Hanaway,
902 F.2d 513 (7th Cir. 1990) .......................... 23, 24
Law Students Civil Rights Research Council, Inc.
v. Wadmond,
401 U.S. 154 (1971) .............................................. 18
Lorillard Tobacco Co. v. Reilly,
533 U.S. 525 (2001) .............................................. 29
McCullen v. Coakley,
573 U.S. 464 (2014) ....................................... passim
Metromedia, Inc. v. City of San Diego,
453 U.S. 490 (1981) .............................................. 17

ix
Moore v. Sims,
442 U.S. 415 (1979) ........................................ 19, 20
Mullaney v. Wilbur,
421 U.S. 684 (1975) .............................................. 16
Murphy v. National Collegiate Athletic
Association,
138 S. Ct. 1461 (2018) .......................................... 16
New York v. Ferber,
458 U.S. 747 (1982) .............................................. 17
Printz v. United States,
521 U.S. 898 (1997) ........................................ 15, 16
Railroad Commission of Texas v. Pullman Co.,
312 U.S. 496 (1941) .................................. 16, 18, 21
Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) .............................. 10, 25, 26
Reynolds v. Middleton,
779 F.3d 222 (4th Cir. 2015) ................................ 30
Rideout v. Gardner,
838 F.3d 65 (1st Cir. 2016) .................................. 30
Rizzo v. Goode,
423 U.S. 362 (1976) .............................................. 16
Rosenberger v. Rector & Visitors of University of
Virginia,
515 U.S. 819 (1995) .............................................. 26
Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999) ........................................ 15, 16

x
Secretary of State of Maryland v. Joseph H.
Munson Co., Inc.,
467 U.S. 947 (1984) ........................................ 31, 32
Shuttlesworth v. City of Birmingham,
394 U.S. 147 (1969) .............................................. 21
Smith v. Goguen,
415 U.S. 566 (1974) .............................................. 20
Steffel v. Thompson,
415 U.S. 452 (1974) ........................................ 16, 22
Terminiello v. City of Chicago,
337 U.S. 1 (1949) .................................................. 18
Trainor v. Hernandez,
431 U.S. 434 (1977) ........................................ 15, 16
United Food & Commercial Workers International
Union v. IBP, Inc.,
857 F.2d 422 (8th Cir. 1988) ................................ 23
United States v. 12,200-Foot Reels of Super 8mm.
Film,
413 U.S. 123 (1973) .............................................. 19
United States v. Ackell,
907 F.3d 67 (1st Cir. 2018) .................................. 29
United States v. Stevens,
559 U.S. 460 (2010) ........................................ 31, 33
United States v. Thirty-Seven (37) Photographs,
402 U.S. 363 (1971) .............................................. 17

xi
Verlo v. Martinez,
820 F.3d 1113 (10th Cir. 2016) ............................ 30
Virginia Society for Human Life, Inc. v. Caldwell,
152 F.3d 268 (4th Cir. 1998) .......................... 23, 24
Virginia v. American Booksellers Association, Inc.,
484 U.S. 383 (1988) .............................................. 21
Ward v. Rock Against Racism,
491 U.S. 781 (1989) .............................................. 21
Wood v. Strickland,
420 U.S. 308 (1975) .............................................. 19
Z.J. Gifts D-4, LLC v. City of Littleton,
311 F.3d 1220 (10th Cir. 2002)............................ 23
Statutes
28 U.S.C. 1254 ............................................................ 2
28 U.S.C. 1291 ............................................................ 2
28 U.S.C. 1331 ............................................................ 2
Pittsburgh Municipal Code 623.01–623.07 ............... 5

1
DECISIONS BELOW
The district court’s decision denying the sidewalk
counselors’ motion for preliminary injunction and
granting in part and denying in part the City’s motion
to dismiss is reported at 91 F. Supp. 3d 658 (W.D. Pa.
2015) and reprinted at App.141a–188a.
The Third Circuit’s ruling affirming in part and
vacating in part is reported at 824 F.3d 353 (3d Cir.
2016) and reprinted at App.74a–140a.
The district court’s decision denying the sidewalk
counselors’ motion for summary judgment and
granting the City’s motion for summary judgment is
reported at 283 F. Supp. 3d 357 (W.D. Pa. 2017) and
reprinted at App.42a–73a.
The Third Circuit’s ruling affirming the grant of
summary judgment in the City’s favor is reported at
941 F.3d 73 (3d Cir. 2019) and reprinted at App.1a–
41a.



2
STATEMENT OF JURISDICTION
On October 18, 2019, the Third Circuit issued its
opinion affirming the district court’s grant of
summary judgment in the City’s favor, and on
November 27, 2019, the Third Circuit denied
rehearing en banc. Lower courts had jurisdiction
under 28 U.S.C. 1331 and 28 U.S.C. 1291. On January
27, 2020, Justice Alito extended the time to file a
petition for a writ of certiorari to March 26, 2020. This
Court has jurisdiction under 28 U.S.C. 1254(1).
PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISIONS
Pertinent constitutional and statutory provisions
appear at App.191a–195a.


3
INTRODUCTION
Ever since Pittsburgh enacted a 2005 buffer-zone
ordinance to punish pro-life sidewalk counselors and
supporters, federal courts have bent over backwards
to save it, culminating in the Third Circuit disclaiming the ordinance’s undisputed meaning. Because the
ordinance did not withstand First Amendment scrutiny, the court “fixed” it by imposing a narrowing construction with no state-law basis that the City never
advocated nor accepted. The court then jettisoned the
narrow-tailoring requirement that McCullen v. Coakley, 573 U.S. 464 (2014), requires because even the
rewritten ordinance did not satisfy it.
The Third Circuit did all this—exacerbating one
circuit conflict and creating a new one—to save a
buffer-zone law that is unabashedly content- and
viewpoint-based and far from narrowly tailored. The
decision continued a tradition associated with Hill v.
Colorado, 530 U.S. 703 (2000), of excusing burdens on
pro-life speech. Unless this Court intervenes, lower
courts will continue applying different rules to pro-life
sidewalk counselors and advocates.
The same constitutional principles that govern
elsewhere apply here. To begin, federal courts cannot
rewrite state laws. Under “our federalism,” the Third
Circuit had to accept Pittsburgh’s interpretation of an
ordinance the City wrote and administers. The Third
Circuit’s narrowing construction is ineffective
because city officials and state courts are not bound
by it, and they can still hold sidewalk counselors
criminally liable in spite of it. A non-binding, advisory
opinion is no basis for rejecting the sidewalk
counselors’ free-speech challenge.

4
What’s more, Pittsburgh’s ordinance targets
expression and is not calculated to deal with an actual
problem. It is a prophylactic and overbroad restriction
on protected speech in traditional public fora that,
“time out of mind, have been used for purposes of
assembly, communicating thoughts between citizens,
and discussing public questions.” McCullen, 573 U.S.
at 476 (cleaned up). The ordinance violates the Free
Speech Clause.
That the City’s law primarily impacts pro-life
expression is no reason to ignore these realities; it is
a reason to address them. And unless this Court
intervenes, lower courts will continue to sweep
blatant First Amendment violations under the rug.
This Court’s review is urgently needed to clarify that
buffer and bubble zones are not exempt from
federalism and free-speech principles.
STATEMENT OF THE CASE
A. The sidewalk counselors’ ministry and
participation in 40 Days for Life
Petitioners Nikki Bruni, Julie Cosentino, Cynthia
Rinaldi, Kathleen Laslow, and Patrick Malley are
sidewalk counselors who hold the sincere religious
belief that abortion takes the life of a child. They put
that conviction into practice outside a Planned
Parenthood clinic located at 933 Liberty Avenue in
Pittsburgh, Pennsylvania. The sidewalk counselors
are not protestors; they offer women entering and
leaving the clinic information about abortion alternatives, post-abortion resources, prayer, and personal
support. Their message is one of “kindness, love, hope,
gentleness, and help.” Joint Appendix, Bruni v. City
of Pittsburgh (3d Cir. Apr. 13, 2018) (“JA”) at 574a.

5
The sidewalk counselors assist women in two
primary ways. First, they have quiet conversations
with and offer help and information to abortionminded women. They provide receptive women with
pamphlets about local pregnancy-center resources,
pray with women, and peacefully express a message
of caring support. And they take interested women to
Catholic Charities to connect them with adoption
assistance, financial resources, food, education, and
daycare. Second, certain counselors take part in 40
Days for Life, a twice-annual vigil where participants
pray outside abortion clinics and sometimes hold
signs or wear shirts supporting life.
All of Petitioners’ activities are peaceful and
respectful. Their message may only be expressed
through close, caring, and personal conversations or
prayer vigils—not protests. They have never done
anything unlawful, nor have they been accused of
obstruction or harassment. They engage in lawful
speech on public ways and sidewalks where it matters
most—the place and time abortions are performed.
B. Pittsburgh’s ordinance
The City enacted a buffer-zone ordinance in 2005,
years after it ended permanent police details outside
abortion clinics. Pittsburgh, Pa., Municipal Code
623.01–623.07; App.6a–7a, 192a–95a. It did so
despite no record of arrests or prosecutions, App.32a–
33a, 48a, and, on average, less than four police visits
per month to Planned Parenthood, App.8a, 48a. City
Council hearing testimony chiefly cited a need for
police to mediate occasional disputes between pro-life
speakers and clinic visitors or abortion escorts, plus
unproven claims that pro-life speakers had impeded
access to the clinic entrance. App.8a, 48a.

6
Pittsburgh’s laws already barred obstructing
traffic, passageways, and entrances. App.48a. Even
though the record showed no arrests, targeted injunctions, or other enforcement of existing laws, a City
Police Department commander testified that a buffer
zone would make it easier to deter pro-life speakers
from obstructing patients trying to reach the clinic’s
door. App.8a, 48a–49a. The City Council passed the
ordinance and the Mayor signed it into law with the
“intent” to (1) avoid “disputes between those seeking
[abortions] and those who would counsel against their
actions,” (2) secure “unimpeded access to [abortion]
services,” and (3) promote “a more efficient . . . deployment of [police] services.” App.44a. But as the City
Council’s chair and sponsor of the ordinance
explained at the official hearing, the real goal was
“protecting the listen[er] from unwanted communication.” JA402a.
As written, the ordinance restricts speech in two
ways. First, it prohibits knowingly approaching within an 8-foot bubble zone of another person—without
consent—for purposes of leafletting, displaying a
sign, or engaging in oral protest, education, or
counseling within a radius of 100 feet from any
entrance to a hospital, medical office, or clinic.
App.194a. Second, the ordinance forbids knowingly
congregating, patrolling, picketing, or demonstrating
within a 15-foot buffer zone extending from any
entrance to a hospital or health care facility.
App.194a. The ordinance exempts public responders
and authorized personnel. App.194a. And it penalizes
violators with costly fines and even imprisonment.
App.194a–95a.

7
Because the ordinance bars lawful speech on
public ways and sidewalks, an earlier First Amendment challenge followed. The Third Circuit ruled in
2009 that Pittsburgh’s combination of a bubble zone
and buffer zone was insufficiently tailored and
facially invalid under the First Amendment. Brown v.
City of Pittsburgh, 586 F.3d 263, 283 (3d Cir. 2009).
On the record presented, the court ruled that “either
zone individually is [facially] lawful.” Id. at 288. The
court based that decision largely on Hill v. Colorado,
530 U.S. 703 (2000). Brown, 586 F.3d at 270–77.
Because “the decision of which zone to employ belongs
. . . to the City,” id. at 288, the Third Circuit told the
City to “inform the District Court of its preference,
and the court should enjoin enforcement of the other
zone.” Id. at 288–89.
After inviting the City’s views, the Brown district
court issued a final order (1) enjoining enforcement of
the bubble zone; (2) ordering the City to construe and
enforce the ordinance so that no one (including
Planned Parenthood’s employees and volunteers) may
picket or demonstrate via “any action, activity or
signage” in the buffer zone; and (3) requiring the City
to clearly mark the boundaries of any buffer zone it
establishes under the ordinance. App.196a–97a.
In response, the City marked buffer zones outside
only two health facilities in all metropolitan Pittsburgh. Coincidentally, they were the City’s two
abortion clinics. App.72a, 81a, 142a, 165a–66a.
Elsewhere, the City chooses not to implement the
ordinance’s speech restrictions. App.72a–73a.

8
C. The buffer zone’s impact on Petitioners’
speech
A yellow semi-circle marks the buffer zone
Pittsburgh established outside the Planned Parenthood on Liberty Avenue, extending onto the public
sidewalk and street. The City intends and understands its ordinance to forbid leafletting and sidewalk
counseling inside the yellow line. App.5a, 19a & n.12,
46a, 82a. It views these activities as demonstrating,
and possibly congregating, patrolling, and picketing
as well. App.11a, 26a n.18. For over a decade,
Pittsburgh has barred pro-life sidewalk counselors
from speaking within a 36-foot-long section of public
sidewalk and street (at its widest point) outside an
abortion clinic—the location where counselors’
expression matters most. App.142a–43a.
The City always intended to enforce the ordinance
against the counselors, and they avoided the buffer
zone for fear of fines and imprisonment. App.19a n.12,
146a. But Pittsburgh allows others to speak freely in
the zone because the City does not view their
expression as “advocacy or demonstration.” Br. for
Appellees 37, No. 18-1084 (3d Cir. June 13, 2018)
(“Appellees Br.”). For instance, “talking about the
weather,” JA334a, or sports, JA692a–93a, in the zone
is allowed. So too is any form of “purely social or
random conversations,” whatever that means.
App.45a. In fact, sidewalk counseling is apparently
the only type of one-on-one conversation the City
bans. App.20a. Planned Parenthood escorts can enter
the zone, surround women, talk over the counselors,
and deflect women from conversing or accepting
literature. JA59a–60a, 195a.

9
This disadvantages the counselors’ speech. While
others may speak to women about mundane issues
until they walk through the clinic’s door—even to
speak over the counselors—the counselors must
abruptly stop speaking about faith, nonprofit
services, and life and death. Such disparate treatment
deems the sidewalk counselors—and their message—
illegitimate and untrustworthy. And it compresses
the very short time counselors have to identify women
approaching the clinic and engage in compassionate,
personal conversations with them.
The buffer zone also undercuts the counselors’
ability to leaflet. Once a woman enters the zone, the
counselor must stop short. JA108a; Appellees Br. 22.
It also makes quiet, one-one-one conversations difficult. Trying to speak 15-plus feet away, street noise
would force counselors to raise their voice. JA114a–
15a, 135a–36a. But using a loud voice is contrary to
the sidewalk counselors’ compassionate message and
one-on-one ministry. JA574a.
Though sidewalk counselors may walk through
the buffer zone to reach women, counselors may not
speak or hold literature until they are back outside
the yellow line. JA575a–76a, 587a, 596–97a. Initiating conversations before women enter the zone is hard
at best. And if a woman is dropped off by car at the
facility’s front or uses the crosswalk, she is instantly
in the buffer zone. JA588a, 597a.
In short, the buffer zone makes the counselors’
conversations and leafletting less frequent and effective. JA574a, 579a, 586a, 591a, 596a. Sometimes a
woman stops in the zone and stretches out her hand
to receive literature. Yet the City bans counselors
from reaching out to meet her at that critical moment.

10
JA108a; Appellees Br. 22. Some unborn children are
saved even with the ordinance in place; there would
likely be far more without it. JA576a.
D. Lower-court proceedings
The sidewalk counselors filed suit in 2014 in the
U.S. District Court for the Western District of
Pennsylvania, alleging that Pittsburgh’s buffer zone
violated their free speech rights. They requested a
declaratory judgment holding the ordinance unconstitutional facially and as applied, plus an injunction
barring the City from applying its speech ban to them
or similarly situated persons. But the district court
denied the counselors’ injunctive request and granted
the City’s motion to dismiss in part. App.141a. It
declared the ordinance facially content neutral,
distinguished this Court’s ruling in McCullen v.
Coakley, 573 U.S. 464 (2014), held that Pittsburgh’s
ordinance is narrowly tailored, and dismissed the
counselors’ overbreadth claim. App.152a–78a.
On appeal, the Third Circuit did not decide
whether McCullen and Reed v. Town of Gilbert, 135
S. Ct. 2218 (2015), altered its previous contentneutrality analysis in Brown. App.92a–93a. Instead,
it assumed that the ordinance was facially content
neutral because the sidewalk counselors still
“present[ed] a viable free speech challenge.” App.93a.
“Because of the significant burden on speech that the
Ordinance allegedly imposes, the City has the same
obligation to use less restrictive alternatives to its
buffer zone as the Commonwealth of Massachusetts
had with respect to the buffer zone at issue in
McCullen.” App.103a.

11
The court reversed and remanded for Pittsburgh
“to show either that substantially less-restrictive
alternatives were tried and failed, or that the
alternatives were closely examined and ruled out for
good reason.” App.104a. And on remand, the district
court again granted summary judgment to the City.
App.42a. First, it distinguished Reed and deemed the
City’s ordinance content neutral under Hill. App.58a–
62a. Second, the court distinguished McCullen,
holding that Pittsburgh’s buffer zone imposed “only a
minimal burden” on the sidewalk counselors’ speech.
App.64a. “Accordingly, the City has no obligation to
demonstrate that it tried—or considered and
rejected—any [substantially less-restrictive] alternatives.” App.69a. But even if McCullen’s narrowtailoring requirement applied, the court believed that
Pittsburgh “implicitly rejected” two alternatives:
(1) stationing police at Planned Parenthood and
(2) anti-obstruction laws. App.70a. Third, the district
court held that, as limited by Brown (i.e., allowing
enforcement of the buffer but not the bubble zone), the
ordinance was not overbroad. App.71a–72a.
Back on appeal, the Third Circuit recognized
Pittsburgh’s “position that . . . sidewalk counseling
falls within the prohibition on ‘demonstrating’” within
the buffer zone. App.11a. This was “highly
problematic” because “the City interprets the word
‘demonstrating’ to apply to sidewalk counseling but
not to peaceful one-on-one communication about
other subjects, like sports teams.” App.19a–20a. But
rather than strike down the ordinance, the Third
Circuit evaded the First Amendment violation by
ignoring the City’s reading of its own law and
unilaterally rewriting it instead. App.19a–26a.

12
Citing constitutional avoidance, the Third Circuit
believed it could facially uphold the ordinance by
applying “a narrowing construction.” App.20a, 22a,
25a. The City did not ask for that; it fully defended its
law banning sidewalk counseling in the zone, the ordinance’s clear purpose. App.23a–24a & nn.15–16. But
referencing dictionary definitions, the court declared
that sidewalk counseling is not congregating, patrolling, picketing, or demonstrating—no matter how
Pittsburgh interprets its own law. App.22a–24a.
The Third Circuit thus rejected Pittsburgh’s
understanding of an ordinance the City drafted and
had sole authority to enforce, substituting its own
“reinterpretation.” App.21a n.14 (cleaned up). Reviewing its own rewrite, the court held the ordinance
facially content neutral. App.25a–26a. A pure ban on
congregating, patrolling, picketing, or demonstrating
regulated “the manner in which expressive activity
occurs, not its content.” App.25a. So the court applied
intermediate scrutiny and “easily conclude[d]” that
its amended ordinance met that standard. App.26a.
When it came to narrow tailoring, the Third
Circuit faulted the sidewalk counselors for not
anticipating that the court would rewrite the law. In
the court’s words, the counselors failed to “distinguish
between the [o]rdinance as read to include sidewalk
counseling [by Pittsburgh] and the [o]rdinance as
read to exclude it [by the court].” App.28a. The Third
Circuit did not view its revision as placing “a significant burden on speech,” App.5a, 29a; instead, the
burden was “de minimis,” App.92a. On that basis, the
court distinguished McCullen and held that the City
had no burden to prove that it tried or considered less
speech-burdening alternatives. App.32a–33a.

13
Even though the court acknowledged Pittsburgh
failed to prove that it “tried or seriously considered
arrests, prosecutions, or targeted injunctions” before
resorting to a speech ban, such proof was unnecessary. App.32a. The court’s redraft was itself “narrowly
tailored to serve a significant governmental interest.”
App.33a (cleaned up). The Third Circuit also rejected
the counselors’ overbreadth claim, deferring (based on
Hill) to the city council’s judgment. App.33a–35a.
The result was affirmance of the summaryjudgment grant. App.35a. This left the sidewalk
counselors with no order enjoining Pittsburgh’s
expansive view of the ordinance—just the Third
Circuit’s unenforceable view of how the law should be
read. The advisory opinion does not bind state courts,
and it does not prohibit the City from prosecuting
Petitioners in the future.
Judge Hardiman concurred, explaining that “Reed
weakened precedents cited in the Court’s content
neutrality analysis,” App.36a, especially Hill,
App.37a–39a. He viewed the panel’s decision as
“constrain[ing] the City’s enforcement discretion” and
ensuring the law was construed in an “evenhanded”
way. App.40a.

14
REASONS FOR GRANTING THE WRIT
Casting federalism aside, the Third Circuit joined
the First and Ninth Circuits in holding that federal
courts may unilaterally declare what a state or local
law means to save it from unconstitutionality. But as
this Court and the Fourth, Fifth, Sixth, Seventh,
Eighth, Tenth, and Eleventh Circuits have held,
federal courts lack authority to limit state and local
laws. Because the Third Circuit’s construction is
advisory and nonbinding, it does not justify rejecting
the sidewalk counselors’ free-speech challenge.
Pittsburgh’s buffer-zone ordinance is decidedly
content- and viewpoint-based. The law’s definition of
demonstration or advocacy turns on speech’s content,
the law’s predictable and intended operation is
shielding women from pro-life messages, and in realworld effect the ordinance squelches speech on one
topic—abortion. The law deserves and utterly fails
strict scrutiny.
The ordinance also fails McCullen’s intermediatescrutiny test. Because the City failed to enforce its
existing laws or consider any less-speech-restrictive
alternatives, it is not narrowly tailored. So the Third
Circuit cast McCullen’s rule aside based on the novel
and unjustifiable reason that the ordinance’s impact
on sidewalk counselors’ speech is de minimis, in
conflict with rulings by the First, Fourth, and Tenth
Circuits. Moreover, Pittsburgh’s ordinance is hopelessly overbroad because it bans all public displays of
opinion on all subjects on public sidewalks in front of
abortion clinics, regardless of whether this speech
interferes with clinic access or safety, occurs when the
clinic is open or closed, or involves law-abiders or lawbreakers. Certiorari is warranted.

15
I. The Third Circuit’s effort to save a ban on
pro-life speech via a limiting construction
conflicts with this Court’s precedent and
that of most courts of appeals.
The Third Circuit’s rewriting of the City’s
ordinance flies in the face of “Our Federalism.”
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 587
(1999) (cleaned up). Federal courts have no authority
to limit state or local laws to save them. The court of
appeals’ attempt to do so here conflicts with this
Court’s precedent and exacerbates a lopsided circuit
split between the First, Third, and Ninth Circuits on
one hand, and the Fourth, Fifth, Sixth, Seventh,
Eighth, Tenth, and Eleventh Circuits on the other.
A. States are independent sovereigns with
full power to make and construe their
own laws without federal intrusion.
The national government and States are both
sovereign. Trainor v. Hernandez, 431 U.S. 434, 441
(1977). This federalism is a central feature of the
Constitution’s design. Arizona v. United States, 567
U.S. 387, 398 (2012). It entrenches separate spheres
of authority that the national and state governments
are mutually “bound to respect.” Ibid. One of
federalism’s main roles is safeguarding “the integrity,
dignity, and residual sovereignty of the States.” Bond
v. United States, 564 U.S. 211, 221 (2011). The States
are fully functional political entities. Ibid.; Printz v.
United States, 521 U.S. 898, 919 (1997). And structural limits in the Constitution ensure that each state is
“‘controlled by itself,’” Id. at 922 (quoting Federalist
No. 51, at 323), and “independent and autonomous
within [its] proper sphere,” id. at 928.

16
Unrestricted authority to make their own laws is
one of the States’ sovereign powers. Danforth v.
Minnesota, 552 U.S. 264, 280 (2008). No federalgovernment branch may force a state to pass, alter, or
rescind a law. Steffel v. Thompson, 415 U.S. 452, 469–
70 (1974). The Constitution does not allow federal
officials to “commandeer[] the state legislative process,” Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S.
Ct. 1461, 1479 (2018), or that of a state’s “political
subdivisions,” Printz, 521 U.S. at 935. Such interference offends the “independence of state governments.” Trainor, 431 U.S. at 441 (cleaned up).
Federalism thus plays a key role “in governing the
relationship between federal courts and state”
officials. Rizzo v. Goode, 423 U.S. 362, 380 (1976).
State courts are the “ultimate expositors of state law,”
and federal courts are generally bound by their
constructions, Mullaney v. Wilbur, 421 U.S. 684, 691
(1975), because “the decisions of state courts are
definitive pronouncements of the will of the States as
sovereigns,” Bush v. Gore, 531 U.S. 98, 112 (2000)
(Rehnquist, C.J., concurring). In contrast, federal
courts’ reading of state laws are “obviously not
binding on state authorities.” Broadrick v. Oklahoma,
413 U.S. 601, 617 n.16 (1973).
When construing state or local laws, federal courts
must proceed with humility and caution because their
readings “set no precedent.” Ruhrgas AG, 526 U.S. at
586. Their orders provide only “a forecast rather than
a determination” of what state law is, a “tentative
answer” that “may be displaced tomorrow” by state
courts—or local officials—absent a binding federal
court order that prohibits a broader interpretation of
the law. Railroad Comm’n of Tex. v. Pullman Co., 312
U.S. 496, 499, 500 (1941).

17
But the Third Circuit cast federalism aside and
rewrote Pittsburgh’s ordinance in a way that had no
basis in state law and directly contradicted the City’s
construction and the law’s purpose. The Third
Circuit’s “reinterpretation” of the ordinance, App.21a
n.14 (cleaned up), upended the “delicate balance” the
Constitution requires, Fair Assessment in Real Estate
Ass’n, Inc. v. McNary, 454 U.S. 100, 108 (1981).
Equally troubling, the Third Circuit took this drastic
step to avoid a proper constitutional challenge, cf.
New York v. Ferber, 458 U.S. 747, 767 (1982), giving
the sidewalk counselors nothing but an advisory
ruling against them stating how state officials could
(but need not) limit the buffer zone’s reach.
B. Contrary to the Third Circuit’s ruling,
federal courts have no independent
authority to narrow state laws.
When analyzing free-speech claims, this Court
views federal and state laws differently. Metromedia,
Inc. v. City of San Diego, 453 U.S. 490, 521 n.26 (1981)
(plurality opinion). In a proper case, the Court will
consider whether to impose a narrowing construction
to save federal laws from unconstitutionality. United
States v. Thirty-Seven (37) Photographs, 402 U.S. 363,
369 (1971). But federal courts lack the “jurisdiction
authoritatively to construe state legislation.” Ibid.
The Third Circuit erased this distinction. It
rejected the counselors’ challenge by rewriting the
City’s ordinance with no basis in state law. App.19a–
26a. That may advance the Third Circuit’s goal of
seeing the counselors “win by losing.” Oral Argument
at 23:02–04, Bruni v. City of Pittsburgh (3rd Cir. Feb.
7, 2019), https://bit.ly/2WkdH1M. But it runs headlong into this Court’s precedent in at least four ways.

18
First, in assessing a free-speech challenge, this
Court accepts authoritative state officials’ construction of state law. Broadrick, 413 U.S. at 617. This is
true regardless of whether the reading comes from a
(1) state court, Terminiello v. City of Chicago, 337
U.S. 1, 5 (1949); (2) state agency or official, Broadrick,
413 U.S. at 617–18; Law Students Civil Rights
Research Council, Inc. v. Wadmond, 401 U.S. 154, 165
(1971); or (3) local government body or representative, Forsyth Cty. v. Nationalist Movement, 505 U.S.
123, 131 & n.9 (1992); Frisby v. Schultz, 487 U.S. 474,
483 (1988). To do otherwise allows the federal
government to ignore state officials’ view of state law,
emasculating “the rightful independence of . . . state
governments.” Pullman, 312 U.S. at 501 (cleaned up).
Here, the Third Circuit admitted that Pittsburgh
interpreted its ordinance to ban pro-life sidewalk
counseling. App.5a, 19a & n.12, 23a–24a & nn.15–16.
(After all, that’s the very reason the City enacted the
law.) But the court refused to accept that reading even
though the City drafted the ordinance and is
“entrusted with its administration.” Wadmond, 401
U.S. at 165. Instead, the Third Circuit decided how
best to “properly interpret[ ]” the City’s own law,
App.26a, based on its own reading, App.22a–26a.
Federalism forbids this. This Court defers to state
authorities’ construction of state law even if another
reading seems more textually valid. Forsyth, 505 U.S.
at 131 n.9 (what matters is not the text but how it has
been “understood . . . by the county”); Wadmond, 401
U.S. at 162 (deferring to state authorities “entrusted
with the definitive interpretation of the language of
the Rule”). Because the City’s “interpretation of its
[ordinance] controls,” the Third Circuit “erred in
replacing [the City’s] construction . . . with [its] own

19
notions.” Bd. of Educ. of Rogers v. McCluskey, 458
U.S. 966, 971 (1982) (per curiam). Federal courts
cannot “supplant the interpretation of [a local law
given by officials] who adopted it and are entrusted
with its enforcement.” Wood v. Strickland, 420 U.S.
308, 325 (1975).
Second, this Court has long held that it lacks
authority to unilaterally narrow state laws because
state courts and officials “are the principal expositors
of state law.” Moore v. Sims, 442 U.S. 415, 429 (1979).
While state courts may impose limiting constructions
to keep state laws within constitutional bounds,
Arizonans for Official English v. Arizona, 520 U.S. 43,
78 (1997), “it is not within [federal courts’] power to
construe and narrow” a local law without reference to
state-law authority. Grayned v. City of Rockford, 408
U.S. 104, 110 (1972); accord Gooding v. Wilson, 405
U.S. 518, 520 (1972). This Court generally “leave[s] to
state courts the construction of state [and local]
legislation.” United States v. 12,200-Foot Reels of
Super 8mm. Film, 413 U.S. 123, 130 n.7 (1973).
The Third Circuit assumed it had freewheeling
power to narrow Pittsburgh’s ordinance. App.20a–
26a. Without relying on a single state authority, it
held the City’s ordinance does not apply to “the
sidewalk counseling in which Plaintiffs engage.”
App.20a. This was plain error worthy of summary
reversal because, as this Court has repeatedly
recognized, federal courts “lack jurisdiction authoritatively to construe state legislation.” Gooding, 405
U.S. at 520; cf. Bd. of Educ. of Rogers, 458 U.S. at 971
(summarily reversing a court of appeals’ replacing of
local officials’ reading of their own law with its own).

20
In many free-speech cases, a narrowing construction of state law might solve a constitutional problem.
Moore, 442 U.S. at 429–30. But the Third Circuit
lacked “power to remedy the defects” of a local law.
Hynes v. Mayor & Council of Borough of Oradell, 425
U.S. 610, 622 (1976); accord Smith v. Goguen, 415
U.S. 566, 575 (1974) (federal courts “are without
authority to cure” the lack “of a narrowing state court
interpretation”). Whether or how to draft a constitutional ordinance is for state officials alone to decide.
Freedman v. Maryland, 380 U.S. 51, 60 (1965). The
Third Circuit could not remedy Pittsburgh’s freespeech violation by inventing “nonbinding limits” on
the buffer zone that have no state-law basis and
which the City never proposed or accepted. City of
Lakewood v. Plain Dealer Publ’g Co., 486 U.S. 750,
770 (1988).
The Third Circuit’s resuscitation is also worthless.
Absent an injunction or other binding federal-court
order, neither the City nor state courts are bound by
the Third Circuit’s rewriting. E.g., Hoy v. Angelone,
720 A.2d 745, 750 (Pa. 1998) (the Supreme Court of
Pennsylvania will consider federal interpretation of
unsettled state law but “it is axiomatic that these
decisions are not binding and that [it] is the final
arbiter of state law”). Because the Third Circuit’s
interpretation is unenforceable and “may be
discredited [by state officials] at any time,” the court
rendered five years of litigation meaningless based on
an “advisory” opinion. Moore, 442 U.S. at 428; accord
Hynes, 425 U.S. at 622 n.6 (rejecting even limits a city
official suggested that did “not purport to be binding
on the enforcement authorities”).

21
Third, when a state law’s meaning is disputed and
a narrowing construction might solve a free-speech
problem, this Court does one of three things: (1) forecasts whether the state’s highest court would impose
a narrowing construction, Grayned, 408 U.S. at 110–
12; (2) certifies state-law questions to a state’s highest
court, Virginia v. Am. Booksellers Ass’n, Inc., 484 U.S.
383, 395–96 (1988); or (3) abstains, Pullman, 312 U.S.
at 499. None of these pathways is available here
because the ordinance’s scope is not disputed. In this
Court’s words, Pittsburgh defended “the ordinance in
its broadest terms,” Erznoznik v. City of Jacksonville,
422 U.S. 205, 217 (1975), and proclaimed that “under
no circumstances” could sidewalk counselors engage
in pro-life speech in the buffer zone, Shuttlesworth v.
City of Birmingham, 394 U.S. 147, 158 (1969).
Yet the Third Circuit refused to accept the
ordinance’s undisputed meaning because that meant
the law was unconstitutional. App.20a. That
approach is backwards. This Court will not even “ask
a state court if it would care in effect to rewrite a
statute.” City of Houston v. Hill, 482 U.S. 451, 471
(1987) (emphasis added). But the Third Circuit
purported to redraft the ordinance itself. If federal
courts could do that, they would have no reason to
forecast, certify, or abstain, as this Court has
consistently done.
Fourth, this Court considers only narrowing
constructions that state officials have “suggested.”
Erznoznik, 422 U.S. at 216 n.15. “[A] federal court
must consider any limiting construction that a state
court or enforcement agency has proffered,” Ward v.
Rock Against Racism, 491 U.S. 781, 795–96 (1989)
(cleaned up), at least insofar as state officials’
“proposed constructions are []sufficient” to alter the

22
constitutional analysis, City of Houston, 482 U.S. at
469. Then a federal court will accept a state-initiated
narrowing construction that is “reasonable and
readily apparent,” Boos v. Barry, 485 U.S. 312, 330
(1988); in other words, the state or local law must be
“fairly susceptible” to the proffered limitation, City of
Lakewood, 486 U.S. at 770 n.11.
Yet the Third Circuit created its own narrowing
construction. The City did not ask for or want a
limited buffer-zone law. But the Third Circuit
purported to impose uninvited limits to sidestep clear
First Amendment problems. The court lacked power
to rewrite the City’s law to make “an unconstitutional
[ordinance] disappear.” Steffel, 415 U.S. at 469.
C. The Third Circuit’s ruling exacerbated a
7-to-3 circuit conflict that shows the
federalism issue is entrenched and recurring and needs prompt resolution.
The Third Circuit admitted that rewriting the
ordinance exacerbated a circuit split. App.21a n.14.
While recognizing that “other Courts of Appeals take
a contrary approach,” the Third Circuit believed its
own precedent “clear.” App.21a–22a n.14. That
precedent aligns with the First and Ninth Circuits,
which also hold that federal courts can preempt local
officials and declare independently what an ordinance
means to save it from invalidity. Cutting v. City of
Portland, 802 F.3d 79, 84–85 & n.8 (1st Cir. 2015)
(“set[ting] to one side” a city’s understanding of its
own law if the city’s reading would “make [the] law
more vulnerable to constitutional challenge”); Hoye v.
City of Oakland, 653 F.3d 835, 848 (9th Cir. 2011)
(honoring a city’s reading of its own ordinance only to

23
“save” it from First Amendment challenge, “not to
condemn” it).
On the opposite side are the Fourth, Fifth, Sixth,
Seventh, Eighth, Tenth, and Eleventh Circuits, which
do not use their own interpretations but instead rely
exclusively on state authorities to say what state law
means, even if state construction renders a law
unconstitutional. Va. Soc’y for Human Life, Inc. v.
Caldwell, 152 F.3d 268, 270 (4th Cir. 1998) (rejecting
a federal narrowing construction that would not
“prevent the state from prosecuting” the plaintiff
because federal narrowing constructions are “not
binding upon state courts”); Beckerman v. City of
Tupelo, 664 F.2d 502, 509 (5th Cir. 1981) (refusing to
“sit as a ‘super’ state legislature” and “impose [its]
own narrowing construction onto [an] ordinance” that
was not “offered by the Tupelo city council or the
Mississippi courts”); Eubanks v. Wilkinson, 937 F.2d
1118, 1127–28 (6th Cir. 1991) (refusing to “draft a
new limiting condition, thus reframing the [state]
statute”); Kucharek v. Hanaway, 902 F.2d 513, 517
(7th Cir. 1990) (federal narrowing constructions
cannot prevent “the state [from] prosecut[ing] people
for violating the statute as broadly construed”);
United Food & Commercial Workers Int’l Union v.
IBP, Inc., 857 F.2d 422, 431 (8th Cir. 1988) (federal
courts “may not impose their own narrowing
construction” on state law) (cleaned up); Z.J. Gifts D4, LLC v. City of Littleton, 311 F.3d 1220, 1233–34
(10th Cir. 2002) (“Federal courts lack jurisdiction
authoritatively to construe state legislation.”)
(cleaned up); Dimmitt v. City of Clearwater, 985 F.2d
1565, 1572 (11th Cir. 1993) (refusing to “interfere[]
with the state legislative process” by rewriting a state
statute “in the guise” of a narrowing construction).

24
In other words, seven circuits agree that “[t]he
principles of federalism forbid a federal appellate
court to arrogate the power to rewrite a municipal
ordinance,” Hill v. City of Houston, 789 F.2d 1103,
1112 (5th Cir. 1986), affirmed by City of Houston v.
Hill, 482 U.S. 451 (1987), and that nonbinding federal
narrowing constructions are incapable of protecting
First Amendment rights against state-law enforcement, Va. Soc’y for Human Life, 152 F.3d at 270;
Kucharek, 902 F.2d at 517.
The only reason the sidewalk counselors lost their
challenge is because they were unfortunate enough to
reside in the Third Circuit, one of three circuits that
erroneously applies its own version of “constitutional
avoidance” to uphold invalid state laws. It cannot be
that fundamental rights turn on such geographic bad
luck. Only this Court may resolve the entrenched
circuit conflict, ensure that federalism is respected,
and stop lower courts from offering plaintiffs empty
words and no real protection.
II. The Third Circuit’s ruling that the
ordinance is content neutral and narrowly
tailored
conflicts
with
this
Court’s
precedent and other circuits’ reading of
McCullen.
To save Pittsburgh’s anti-speech ordinance, the
Third Circuit not only had to rewrite it, the court also
had to reject McCullen’s narrow-tailoring standard
and adopt instead a new, intermediate-scrutiny test
that conflicts with three circuits and aligns with none.
This split also warrants review.

25
A. This Court’s precedent establishes that
Pittsburgh’s ordinance is content- and
viewpoint-based, not content neutral.
Under the First and Fourteenth Amendments,
states cannot restrict expression based on message,
ideas, subject matter, or content. Reed, 135 S. Ct. at
2226. Laws that apply “to particular speech because
of the topic discussed or the idea or message
expressed” are content based, id. at 2227,
presumptively unconstitutional, and must withstand
strict scrutiny to survive, id. at 2226. Only an
exceptional law that is “narrowly tailored to serve
compelling state interests” hits that high mark. Ibid.
Pittsburgh’s buffer-zone ordinance is blatantly
content- and viewpoint-based. The City allows others
to speak at the same time (whenever), in the same
place (the buffer zone), and in the same manner
(quietly face-to-face) as the sidewalk counselors wish
to express themselves. Only one difference exists: the
topic of the sidewalk counselors’ speech. The City
allows peaceful one-on-one conversations in the zone
about the weather, directions, sports, or any
discussion it deems—in its discretion—purely social
or random. JA334, 692a–93a; App45a. But Pittsburgh
bans peaceful one-on-one conversations in the zone it
views as “advocacy or demonstration,” Appellees Br.
37, including speech about whether an unborn baby is
alive or a human being, id. at 11, 13, 18–19.
What one says, not how one says it, determines
whether Pittsburgh labels speech “demonstrating” or
not. The City cannot rely on the visible manifestations
conventionally associated with demonstrations or
picketing to render the ordinance content neutral:
sidewalk counseling involves no outward protest or

26
display of opinion, yet the City bans it anyway. No
further evidence is needed that Pittsburgh’s buffer
zone prohibits speech “based on the message” the
sidewalk counselors convey. Reed, 135 S. Ct. at 2227.
It makes no difference that (at least on its face) the
ordinance bars all face-to-face conversations about
abortion in the buffer zone. The “exclusion of several
views on [the same subject] is just as offensive to the
First Amendment as exclusion of only one. . . . The
[notion] that debate is not skewed so long as multiple
voices are silenced is simply wrong; the debate is
skewed in multiple ways.” Rosenberger v. Rector &
Visitors of Univ. of Va., 515 U.S. 819, 831–32 (1995).
Disfavoring “[i]deological messages,” as Pittsburgh’s ordinance does, is “a paradigmatic example of
content-based discrimination.” Reed, 135 S. Ct. at
2230. The law requires city officials to examine
identical, face-to-face conversations and judge which
contain advocacy. That “obvious content-based
inquiry does not evade strict scrutiny review simply
because” a buffer zone is involved. Id. at 2231. Rather,
the City’s prophylactic ban on advocacy on public
ways and sidewalks makes its content-based discrimination worse. McCullen, 573 U.S. at 492–93.
On top of that, the ordinance’s intended operation shows the law is content- and viewpoint-based.
Pittsburgh enacted it to “provide unobstructed access”
to abortion clinics, App.192a, even though its laws
already barred obstructing traffic, passageways, and
entrances. The ordinance’s only added value is
suppressing ideological messages that may dissuade
women from clinics’ doors. In fact, the City Council’s
hearing provided no grounds for an advocacy ban
other than the deterrent effect of pro-life speech. The

27
City Council Chair who sponsored the ordinance
bragged it was to prevent “verbal assault.” JA402a.
But protecting women from pro-life messages is
not content neutral. “[D]isfavoring ideas that offend
discriminates based on viewpoint, in violation of the
First Amendment.” Iancu v. Brunetti, 139 S. Ct. 2294,
2301 (2019) (cleaned up). To the extent this rule is
inconsistent with Hill, 530 U.S. at 716–18, Hill
should be distinguished, narrowed, or overruled,
McCullen, 573 U.S. at 477. Prohibiting speech based
on the offense or discomfort of hearers is content
based, id. at 481; Erznoznik, 422 U.S. at 209–12, and
it is the City Council’s express purpose here, JA402a.
How the City fleshed out the ordinance also shows
it is content based. Pittsburgh’s painted buffer zones
are on public sidewalks and streets located only in
front of the City’s two abortion clinics. App.72a, 81a,
142a, 165a–66a. Pittsburgh’s ordinance has no
speech-suppressing impact anywhere else. In its real
operation and effect, the City’s buffer-zone law
targets speech on one subject: abortion. Veiled
content-based restrictions on speech such as this are
just as unlawful as their more blatant counterparts.
Hill, 530 U.S. at 767 (Kennedy, J., dissenting).
Because Pittsburgh’s buffer-zone ordinance is
content- and viewpoint-based, whether one examines
its conditions, purpose, or real-world effect, the Third
Circuit erred in refusing to apply strict scrutiny, as
this Court’s precedents demand. The City never made
a serious effort to meet that standard because it
cannot; as explained below, the ordinance fails even
intermediate-scrutiny review.

28
B. To hold the ordinance narrowly tailored,
the Third Circuit shifted the burden of
proof to the sidewalk counselors, distorting McCullen and creating a conflict with
three other circuits.
Concerned by lower courts “downplay[ing]” the
“serious burdens” that buffer zones “impose” on
protected speech, McCullen explained why that
burden is, in fact, “especially significant.” 573 U.S. at
487–89. But the rule McCullen applied is the usual
intermediate-scrutiny standard for content-neutral
time, place, or manner restrictions: they “must be
narrowly tailored to serve a significant governmental
interest.” Id. at 486 (cleaned up).
Where McCullen broke new ground is clarifying
what it means to be narrowly tailored and not “burden
substantially more speech than is necessary to
further the government’s legitimate interests.” Ibid.
(cleaned up). To meet that benchmark, Pittsburgh
must show it did not “too readily forego[] options that
could serve its interests just as well, without substantially burdening the kind of speech in which petitioners wish to engage.” Id. at 490. The narrow-tailoring
comparison McCullen requires is thus between the
burden the City’s buffer zone imposes on the sidewalk
counselors’ speech, and the burden on their speech
imposed by “less intrusive means of addressing” the
same concerns. Id. at 492.
While McCullen thus requires “the government
[i.e., the City to] demonstrate that alternative
measures that burden substantially less speech
would fail to achieve the government’s interests,” id.
at 495 (emphasis added), the Third Circuit switched
the burden of proof by inventing a novel precondition:

29
the sidewalk counselors must first prove that the
ordinance imposed a “significant,” App.5a, 29a, 32a,
as opposed to “de minimis,” App.29a, burden on their
speech.
This burden-shifting rule finds no basis in
McCullen, which does not distinguish between socalled “de minimis” and “significant” burdens on
speech. And rightly so, for this Court recognizes “no
de minimis exception for a speech restriction that
lacks sufficient tailoring.” Lorillard Tobacco Co. v.
Reilly, 533 U.S. 525, 567 (2001).
The Third Circuit held that Pittsburgh’s noadvocacy zone imposed a trivial burden on sidewalk
counselors’ speech. App.32a–33a. But McCullen held
that any fixed buffer zone around abortion clinics
(1) compromises sidewalk counselors’ ability to
initiate face-to-face conversations, (2) brands them as
untrustworthy or suspicious, (3) compels them to stop
speaking or raise their voices and betray their
compassionate message, and (4) makes leafletting
more difficult. 573 U.S. at 487–90. Each one of these
speech burdens is significant; together, the squelching of pro-life counselors’ speech is severe.
No other circuit reads McCullen this way. To the
contrary, the First, Fourth, and Tenth Circuits all
hold that once a plaintiff shows that a time, place, or
manner restriction impacts protected speech
(especially in a public forum), the state must prove
that less-restrictive measures would fail to achieve its
interests. They employ no burden shifting or
significant-burden-on-speech analysis. United States
v. Ackell, 907 F.3d 67, 77 (1st Cir. 2018) (“First
Amendment scrutiny” applies under McCullen once a
“law restricts access to traditional public fora”)

30
(cleaned up); Rideout v. Gardner, 838 F.3d 65, 74 (1st
Cir. 2016) (applying McCullen’s narrow-tailoring
analysis to “ballot selfies” that burdened political
speech outside of a traditional public forum without
analyzing the speech-burden’s significance); Reynolds
v. Middleton, 779 F.3d 222, 226, 231–32 (4th Cir.
2015) (if “speech [is] restricted,” under McCullen the
government must “prove that it actually tried other
methods to address the problem”); Verlo v. Martinez,
820 F.3d 1113, 1135–37 (10th Cir. 2016) (McCullen’s
narrow-tailoring analysis applies to speech restrictions meant to protect access and safety in “public
fora,” including the plaza outside a state courthouse).
If the sidewalk counselors here were litigating
under the law of the First, Fourth, or Tenth Circuits,
the outcome would be exactly the opposite. The Third
Circuit admitted that Pittsburgh failed to “tr[y] or
seriously consider[ ] arrests, prosecutions, or targeted
injunctions” under existing laws, App.32a—all
significantly less restrictive means of serving the
City’s ends that have the benefit of targeting wrongdoers specifically, rather than speakers generally. In
fact, the record shows no arrests or prosecutions
under existing laws at all. App.32a–33a, 48a. And if
added protections were needed, McCullen describes
numerous options that would suppress much less
speech than Pittsburgh’s buffer zone. 573 U.S. at 491–
93. Because the City’s ordinance is not narrowly
tailored under McCullen, it fails even intermediate
scrutiny. 573 U.S. at 490–92.
Such divergence in outcome by circuit cannot
stand. This Court’s review is essential to restoring
McCullen’s legal framework and bringing the Third
Circuit into line with other courts of appeals.

31
III.This Court’s precedent establishes that
Pittsburgh’s ordinance is overbroad and
constitutionally invalid.
Pittsburgh’s ordinance violates the First Amendment for the added reason that “a substantial number
of its applications are unconstitutional, judged in
relation to the [law’s] plainly legitimate sweep.”
United States v. Stevens, 559 U.S. 460, 473 (2010)
(cleaned up). The City’s ability to restrict speech on
public sidewalks and streets is extremely limited.
McCullen, 573 U.S. at 477. Yet Pittsburgh
prophylactically bans “passing out literature or . . .
[any form of] advocacy,” Appellees Br. 22, including
displaying signs, id. at 44–45, on traditional public
fora outside abortion clinics. And the City does this
whether protected expression (1) interferes with
access or safety, (2) occurs while the clinic is open or
closed, or (3) involves proven law-abiders or lawbreakers. In other words, the ordinance punishes prolife and other speech without regard to whether doing
so advances any City interests at all.
Fundamentally, the ordinance is based on the
“mistaken premise” that all speakers outside abortion
clinics pose serious dangers to access and safety. Sec’y
of State of Md. v. Joseph H. Munson Co., Inc., 467 U.S.
947, 966 (1984). But the majority of sidewalk counselors, 40-Days-for-Life participants, and others who
speak outside abortion clinics engage only in peaceful
expression in public places. Prohibiting an entire
“universe of expressive activity,” like advocacy or
demonstration, Bd. of Airport Comm’rs of City of L.A.
v. Jews for Jesus, Inc., 482 U.S. 569, 574 (1987), on
public sidewalks is simply “too imprecise,” Joseph H.
Munson Co., 467 U.S. at 968. Pittsburgh’s law
forecloses swathes of lawful protests or other displays

32
of opinion on countless subjects. Any harm caused by
individually prosecuting the (hypothetical) rare block
or outburst is greatly outweighed by the ordinance’s
(real-world) serial muting of protected speech. Bates
v. State Bar of Ariz., 433 U.S. 350, 380 (1977).
The overbreadth of Pittsburgh’s law is even more
apparent when considering the “constitutional difficulty” of policing the “murky” line between advocacy
and non-advocacy speech. Jews for Jesus, 482 U.S. at
576. One person’s activism is another person’s
mundane remark, and as explained at length above,
the City bars only face-to-face conversations that
involve the expression of pro-life views. Giving police
such “virtually unrestrained power to arrest and
charge persons with a violation of the [ordinance] is
unconstitutional because the opportunity for abuse
. . . is self-evident.” Ibid. (cleaned up). Because the
law “in all its applications falls short of constitutional
demands,” it is overbroad and invalid. Joseph H.
Munson Co., 467 U.S. at 965 n.13.
Nor would the Third Circuit’s proposed narrowing
of the ordinance change this result. Even if the City
allowed sidewalk counseling and literature distribution in the zone, it would still ban all conventional
forms of advocacy—including praying, holding signs,
sporting buttons, or wearing symbolic clothing. Cf.
Jews for Jesus, 482 U.S. at 575. None of these speech
activities inherently harms abortion clinic safety and
access. If Pittsburgh is concerned with obstruction or
battery, it has ample means of deterring those illegal
activities without targeting speech. “A painted line on
the sidewalk [may be] easy to enforce, but the prime
objective of the First Amendment is not efficiency.”
McCullen, 573 U.S. at 495. To the extent Hill
indicated a buffer zone might somehow “assist”

33
speakers in communicating their message, 530 U.S.
at 727, it should be distinguished, narrowed, or
overruled, id. at 791 (Kennedy, J., dissenting).
Relying on Hill, the Third Circuit deferred to the
City’s determination of what restriction on speech is
overbroad and rejected the sidewalk counselors’
overbreadth claim. App.35a (citing a Third Circuit
decision that quotes Hill, 530 U.S. at 727, for the
proposition that courts must defer to a city council’s
judgment in the overbreadth context). “But the First
Amendment protects against the [g]overnment; it
does not leave us at the mercy of noblesse oblige.”
Stevens, 559 U.S. at 480. Impartial courts must decide
whether a law is “substantially overbroad, and
therefore invalid.” Id. at 482. They cannot allow the
States to construe the Free Speech Clause for them.
IV.This case is an ideal vehicle to resolve
conflicts on questions of vital importance
that impact free speech nationwide.
This case is an ideal vehicle to address the
questions presented for four reasons. First, the circuit
conflict on the federalism issue is entrenched.
Because the Court has not addressed this issue in
quite some time, a minority of courts of appeals have
veered off course. Only this Court can restore respect
for state sovereignty and ensure that all federal
courts defer to states’ and cities’ authoritative
construction of their own laws.
Second, McCullen corrected lower courts’ misconception that buffer zones impose no meaningful
burdens on protected speech. But the Third Circuit
construed McCullen’s narrow-tailoring rule out of
existence and created a conflict with three other

34
courts of appeals in the process. Unless this Court
steps in, McCullen’s rule will be a nullity.
Third, under the correct legal standard, this case’s
outcome is not close. The Third Circuit acknowledged
that Pittsburgh’s reading of its law was content-based
and not narrowly tailored under McCullen. App.18a–
20a; Oral Argument at 27:50–58, Bruni v. City of
Pittsburgh (3rd Cir. Feb. 7, 2019), https://bit.ly/
2WkdH1M (noting the “record here [is] full of contentbased interpretations” of the ordinance). That is why
it had to change not only what the ordinance forbids
but also the intermediate-scrutiny standard so that
the City could prevail. App.19a–33a.
Fourth, Pittsburgh’s buffer-zone law is an overbroad, prophylactic, and gratuitous ban on protected
speech in a traditional public forum that obstructs
sidewalk counselors’ ministry to women. This Court
should so hold and end lower courts’ attempts to save
the City’s unconstitutional law, thwarting sidewalk
counselors’ First Amendment claims. Given the law’s
obvious invalidity, Petitioners are entitled to a
meaningful ruling that will actually protect their
speech and expression.


35
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
KEVIN H. THERIOT
ELISSA M. GRAVES
ALLIANCE DEFENDING
FREEDOM
15100 N. 90th Street
Scottsdale, AZ 85260
(480) 444-0020
LAWRENCE G. PALADIN
PALADIN LAW OFFICES, PC
15 Duff Road, Suite 6C
Pittsburgh, PA 15235
(412) 244-0826

MARCH 2020

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
DAVID A. CORTMAN
RORY T. GRAY
ALLIANCE DEFENDING
FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
United States Court of Appeals
for the Third Circuit,
Opinion in 18-1084
Issued October 18, 2019 ........................................... 1a
United States District Court
for the Western District of Pennsylvania,
Memorandum and Order
Re: Motion for Summary Judgment
Issued November 16, 2017 ..................................... 42a
United States Court of Appeals
for the Third Circuit,
Opinion in 15-1755
Issued June 1, 2016................................................ 74a
United States District Court
for the Western District of Pennsylvania,
Memorandum and Order
Re: Preliminary Injunction and Dismissal
Issued March 6, 2015 ........................................... 141a
United States Court of Appeals
for the Third Circuit,
Order Denying Petition for Rehearing En Banc
Issued November 27, 2019 ................................... 189a
U.S. Constitutional Provisions ............................ 191a
Pittsburgh Code of Ordinances,
Chapter 623 .......................................................... 192a
United States District Court
for the Western District of Pennsylvania,
Order Granting Permanent Injunction in
Brown v. City of Pittsburgh
Issued December 17, 2009 ................................... 196a

1a
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1084
NIKKI BRUNI; JULIE COSENTINO:
CYNTHIA RINALDI: KATHLEEN LASLOW:
PATRICK MALLEY,
Appellants
v.
CITY OF PITTSBURGH; PITTSBURGH CITY
COUNCIL; MAYOR PITTSBURGH
On appeal from the United States District Court for
the Western District of Pennsylvania
(W.D. Pa. No. 2-14-cv-01197)
Honorable Cathy Bissoon, U.S. District Judge
Argued: February 6, 2019
Before: HARDIMAN, KRAUSE, and GREENBERG,
Circuit Judges
(Opinion Filed: October 18, 2019)


2a
Kenneth J. Connelly
Elissa M. Graves
Kevin H. Theriot
[ARGUED]
Kristen K. Waggoner
David A. Cortman
Alliance Defending Freedom
15100 North 90th Street
Scottsdale, AZ 85260
Lawrence G. Paladin, Jr.
Suite 6C
15 Duff Road
Pittsburgh, PA 15235
Counsel for Plaintiff-Appellants Nikki Bruni,
Julie Cosentino, Cynthia Rinaldi, Kathleen
Laslow, and Patrick Malley
Julie E. Koren
Matthew S. McHale* [ARGUED]
Yvonne S. Hilton
City of Pittsburgh
Department of Law
414 Grant Street
313 City County Building
Pittsburgh, PA 15219
Counsel for Defendant-Appellees City of
Pittsburgh, Pittsburgh City Council, Mayor
Pittsburgh
William A. Bonner, I
12 Veterans Square
P.O. Box 259
Matthew S. McHale withdrew as counsel on July 3, 2019,
prior to the issuance of this opinion.
*

3a
Media, PA 19063
Counsel for Amicus Curiae Life Legal Defense
Foundation
Jamie Cohn
Stephen M. Juris
Janice Mac Avoy
Fried Frank Harris Shriver & Jacobson
One New York Plaza
New York, NY 10004
Susan J. Frietsche
Women’s Law Project
Western Pennsylvania Office
428 Forbes Avenue
Suite 1710
Pittsburgh, PA 15219
Counsel for Amici Curiae Women Law Project,
National Abortion Federation
Stephen M. Crampton
P.O. Box 4506
Tupelo, MS 38803
Counsel for Amici Curiae Pro Life Action League,
Sidewalk Advocates for Life
Steven W. Fitschen
The National Legal Foundation
524 Chesapeake
Chesapeake, VA 23322
Counsel for Amici Curiae Pacific Justice Institute,
Concerned Women for America, National Legal
Foundation

4a
Matthew D. Staver
Horatio G Mihet
Roger K. Gannam
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
Counsel for Amici Curiae Colleen Reilly and Becky
Biter
Erek L. Barron
Whiteford Taylor & Preston
111 Rockville Pike
Suite 800
Rockville, MD 20850
Counsel for Amicus
Municipal Lawyers

Curiae

International

5a
_______________
OPINION OF THE COURT
_______________
KRAUSE, Circuit Judge.
This case requires us to determine the
constitutionality of a Pittsburgh ordinance that
creates a fifteen-foot “buffer zone” outside the
entrance of any hospital or healthcare facility.
Pittsburgh, Pa., Code § 623.04 (2005) [hereinafter
“the Ordinance” or “Pitts. Code”]. In relevant part, the
Ordinance states that “[n]o person or persons shall
knowingly congregate, patrol, picket or demonstrate”
in the prescribed zone. Id. Outside of a Planned
Parenthood in downtown Pittsburgh, Plaintiffs
engage in leafletting and “peaceful . . . one-on-one
conversations” conducted “at a normal conversational
level and distance” intended to dissuade listeners
from obtaining an abortion. Appellants’ Br. 9, 17–18.
As the City has asserted that the Ordinance applies
to this speech, known as “sidewalk counseling,”
Plaintiffs argue that the Ordinance is facially
unconstitutional under the First Amendment and the
District Court erred in granting summary judgment
in the City’s favor. Because we conclude that the
Ordinance does not cover sidewalk counseling and
thus does not impose a significant burden on speech,
we will affirm.

6a
I.

Background
A. Factual Background1
1. History of the Ordinance

In the mid- and late 1990s, Planned Parenthood
was the site of numerous clashes between opponents
and advocates of abortion rights as well as individuals
seeking the facility’s services.2 In addition to seeing
“hundreds” of people at the facility on a Saturday—
“pro and anti”—the clinic was plagued by bomb
threats, vandalism, and blockades of its entrance. JA
322a. To address these incidents, the Bureau of Police
deployed an overtime detail of “up to ten officers and
a sergeant” to maintain order and security, often
using crowd-control barriers to separate demonstrators from each other and from patients trying to
enter the clinic. JA 1024a.
In 2002, Planned Parenthood moved to its current
location at 933 Liberty Avenue. Although the incidents lessened in severity, contemporaneous police
logs and testimony from Sergeant William Hohos
indicate that “the pushing,” “the shoving,” and “the
blocking of the doors” continued, and the overtime
The background summarized here is drawn from the
record and our prior opinion in this case, Bruni v. City of
Pittsburgh (Bruni I), 824 F.3d 353, 357–59 (3d Cir. 2016).
Because we are reviewing a district court’s grant of summary
judgment, we consider the facts in the light most favorable to the
non-movants and draw all reasonable inferences in their favor.
See Hugh v. Butler Cty. Family YMCA, 418 F.3d 265, 266–67 (3d
Cir. 2005).
1

The same was true of Allegheny Reproductive Health
Center, another clinic that provides abortions, which, in addition
to seeing hundreds of protestors, was fire bombed, intentionally
flooded, and had its windows shot out.
2

7a
detail, reduced in size, continued to provide a police
presence. JA 323a, JA 834a, JA 837a. After
Pittsburgh was declared a financially distressed
municipality in late 2003, however, fiscal constraints
and the need for redeployment of limited police
resources required the detail to be discontinued, and
police were called to address the continuing incidents
at the site on an as-needed basis. In the wake of the
detail’s discontinuation, the clinic reported an
“obvious escalation in the efforts of the protestors,” JA
357a, including an increase in “aggressive pushing,
shoving and . . . harassing behavior that included
shoving literature into people’s pockets, hitting them
with signs and blocking their entrance into the
building,” JA 352a.
In November 2005, the City Council held hearings
on proposed legislation that eventually resulted in the
Ordinance. Among those who testified were sidewalk
counselors, clinic escorts, patients, and other concerned members of the community. Several witnesses
insisted the Ordinance was unnecessary either
because they had never observed violent incidents or
were unaware of “significant violence” outside the
clinic. JA 348a. But other witnesses reported being
personally harassed and prevented from entering the
clinic, being yelled at through the glass doors of the
clinic, and seeing patients being surrounded on the
sidewalk. A Planned Parenthood counselor described
patients entering the clinic in a “psychological state
[of] situational crisis,” threatening their health. JA
355a. And “without [police] supervision,” the
President and CEO of Planned Parenthood of
Western Pennsylvania said, “there ha[d] been an
increase in unlawful behavior that . . . put[] . . .
patients, their families, pedestrians and . . . protestors

8a
at risk.” JA 352a.
The City Council also heard from Commander
Donaldson of the Pittsburgh Police Department. He
reported that police had been summoned to Planned
Parenthood twenty-two times in the past six months
alone to “mediate confrontations” and respond to
incidents ranging from signs “obstructing the front of
the building” to protestors “follow[ing] . . . people to
the doorway.” JA 404a. They had not made any
arrests, however. According to Commander
Donaldson, the City had on its books “laws . . . that
would address obstructing traffic or passageways or
. . . the [clinic’s] doorway,” but those laws would not
address the precise problem that was occurring,
namely attempts to block people from entering the
facility before they reached its front door.3 JA 398a.
The debate on the Ordinance was extensive.
Many witnesses, both for and against the legislation,
expounded on the competing interests at stake and
expressed a desire to protect both free speech and
access to healthcare, including abortions.
2. The Ordinance
Shortly after these hearings, the City Council
adopted the Ordinance, and the mayor signed it into
law. See Bruni v. City of Pittsburgh (Bruni I), 824 F.3d
353, 357 (3d Cir. 2016). Codified as Chapter 623 of the
Pittsburgh Code of Ordinances, the Ordinance states,
The City’s designated representative, who had been a
member of the overtime detail before it was disbanded, likewise
attested that the criminal laws were not adequate to deal with
protestors and demonstrators outside the clinic because the
obstructive conduct “[wasn’t] rising to those levels. It was all the
underlying stuff in between.” JA 1057a.
3

9a
in relevant part:
No person or persons shall knowingly
congregate, patrol, picket or demonstrate in a
zone extending 15 feet from any entrance to
the hospital and or health care facility. This
section shall not apply to police and public
safety officers . . . in the course of their official
business, or to authorized security personnel
employees or agents of the hospital, medical
office or clinic engaged in assisting patients
and other persons to enter or exit the hospital,
medical office, or clinic.4
Pitts. Code § 623.04. The Council also ratified a
preamble that set forth the City’s goals in adopting
the Ordinance, including “provid[ing] unobstructed
access to health care facilities” and “medical services,”
“avoid[ing] violent confrontations,” “provid[ing] a
more efficient and wider deployment” of City services,
and “ensuring that the First Amendment rights of
demonstrators to communicate their message . . . [are]
not impaired.” Id. § 623.01.
As originally passed, the Ordinance also included
an “[e]ight-foot personal bubble zone,” extending one
hundred feet around clinics, in which people could not
be approached without their consent “for the purpose
Although the Chapter does not define “health care
facility,” a “[m]edical [o]ffice/[c]linic” is defined as “an establishment providing therapeutic, preventative, corrective, healing
and health-building treatment services on an out-patient basis
by physicians, dentists and other practitioners.” Pitts. Code §
623.02. Penalties for violating the Ordinance range from a $50
fine for a first offense to a thirty-day maximum (and three-day
minimum) jail sentence for a fourth violation within five years.
Id. § 623.05.
4

10a
of passing a leaflet or handbill to, displaying a sign to,
or engaging in oral protest, education or counseling.”
Id. § 623.03. Following a facial challenge to the
Ordinance, we concluded that the Ordinance was
content neutral and each zone was constitutionally
permissible but the combination of the two zones was
not. See Brown v. City of Pittsburgh, 586 F.3d 263,
273, 276–81 (3d Cir. 2009). On remand, the City chose
to abandon the floating bubble zone and retain only
the fixed buffer zone that prohibited “congregat[ing],
patrol[ling], picket[ing] or demonstrat[ing].” Pitts.
Code § 623.04. That choice was effectuated by the
District Court, which permanently enjoined the
bubble zone and required the City to demarcate any
fixed buffer zone prior to enforcement.5
3. Application of the Ordinance and
Plaintiffs’ Activities
Today, the City has demarcated buffer zones at
two locations, both of which provide reproductive
health services including abortions. Bruni I, 824 F.3d
at 358. Plaintiffs Nikki Bruni, Cynthia Rinaldi,
Kathleen Laslow, Julie Cosentino, and Patrick Malley
engage in the bulk of their anti-abortion activities
outside the buffer zone at Planned Parenthood. See id.
at 359. In contrast to the conduct that gave rise to the
Ordinance, Plaintiffs do not physically block patients’
ingress or egress or engage in violent tactics. Instead,
they engage in what they call “sidewalk counseling,”
meaning “calm” and “quiet conversations” in which
The injunction also required that the buffer zone be
construed to prohibit “any person” from “picket[ing] or demonstrat[ing]” within the zone, including those allowed to enter the
zone pursuant to their official duties. See Brown, 586 F.3d at
275.
5

11a
they “offer assistance and information to” women they
believe are considering having an abortion “by
providing them pamphlets describing local pregnancy
resources, praying, and . . . peacefully express[ing] [a]
message of caring support.”6 JA 59a; see Appellants’
Br. 9. That message, Plaintiffs explain, “can only be
communicated through close, caring, and personal
conversations, and cannot be conveyed through
protests.” JA 62a. Nonetheless, the City takes the
position that Plaintiffs’ sidewalk counseling falls
within the prohibition on “demonstrating”—if not
“congregating,” “patrolling,” and “picketing” too, see
JA 334a–37a—so while they can engage in sidewalk
counseling outside the zone, they cannot once within
its bounds. See Bruni I, 824 F.3d at 359.
Plaintiffs describe various ways that the buffer
zone has hindered their ability to effectively communicate their message. The street noise makes it
difficult for people to hear them, forcing them to raise
their voices in a way inconsistent with sidewalk
counseling. And at the distance at which they are
forced to stand, they are unable to differentiate
between passersby and individuals who intend to
enter the facility, causing them to miss opportunities
to engage with their desired audience through either
We will use the term “sidewalk counseling” in this opinion
with the meaning given to it by Plaintiffs. By contrast, the title
“sidewalk counselor” has sometimes been claimed by those who
engage in “‘in your face’ yelling . . . pushing, shoving, and
grabbing” consistent with aggressive demonstration. Schenck v.
Pro-Choice Network of W. N.Y., 519 U.S. 357, 363 (1997). As
Plaintiffs here have explained, however, such conduct does not
constitute sidewalk counseling as they use the term and is
“counter-productive to [their] message of kindness, love, hope,
gentleness, and help.” JA 574a.
6

12a
speech or leafleting.
In addition to “sidewalk counseling,” Plaintiff
Nikki Bruni is the local leader of a group participating
in the “Forty Days for Life” movement, a global antiabortion campaign.7 Twice a year, campaign participants, including Plaintiffs, pray outside of abortion
clinics from 7 AM to 7 PM continuously for forty days.
They do so in shifts, and many participants wear or
carry signs. As the leader of the group, Bruni
organizes local churches to ensure people are always
outside of the clinic so “there’s always groups on the
sidewalk present during the 40 Days all day every
day.” JA 141a. Although the exact number of participants is disputed, the record reflects a daily presence
of somewhere between ten and forty people.
B. Procedural Background
About five years after we upheld the buffer-zone
component of the Ordinance in Brown as a contentneutral time, place, and manner regulation, the
Supreme Court decided McCullen v. Coakley, striking
down as insufficiently narrowly tailored a
Massachusetts law that created a thirty-five-foot
buffer zone in front of health facilities where
abortions were performed. 573 U.S. 464, 493–97
(2014). The Court found the law “extreme,” id. at 497,
and “truly exceptional,” id. at 490: although
congestion occurred at one clinic in one city once a
The movement describes its mission as “to bring together
the body of Christ in a spirit of unity during a focused 40 day
campaign of prayer, fasting, and peaceful activism, with the
purpose of repentance, to seek God’s favor to turn hearts and
minds from a culture of death to a culture of life, thus bringing
an end to abortion.” Bruni v. City of Pittsburgh, 283 F. Supp. 3d
357, 363 (W.D. Pa. 2017).
7

13a
week, the law applied statewide to all reproductive
health facilities and, with few exceptions, prohibited
any person from even “standing” in the zone, id. at
480, 493. To justify this “significant . . . burden” on
speech, id. at 489, the Court held, the government
must “show[] that it seriously undertook to address
the problem with less intrusive tools readily available
to it,” such as arrests, prosecutions, or targeted
injunctions, or “that it considered different methods
that other jurisdictions . . . found effective,” id. at 494.
In light of McCullen, Plaintiffs filed a complaint,
challenging the Ordinance, pursuant to 42 U.S.C. §
1983, under the First and Fourteenth Amendments.
Bruni I, 824 F.3d at 359. The District Court granted
the City’s motion to dismiss Plaintiffs’ First Amendment claims, and Plaintiffs appealed.8 Id. at 360.
We vacated the District Court’s dismissal. Id. at
357, 373–74. Taking as true the complaint’s allegations that the Ordinance had been enforced against
Plaintiffs and had significantly hindered their speech,
id. at 369, we concluded that the Ordinance
“impose[d] a similar burden as that in McCullen,” id.
at 368 n.15, so that the City had the same obligation
Plaintiffs also filed a motion for a preliminary injunction
to prevent the City from enforcing the Ordinance against them,
which the District Court denied and Plaintiffs did not appeal.
Bruni I, 824 F.3d at 359–60. In addition to dismissing Plaintiffs’
First Amendment claims, the District Court granted the City’s
motion to dismiss Plaintiffs’ Fourteenth Amendment Due
Process Clause challenge, a decision we affirmed in Bruni I and
that therefore is not on appeal here. See id. at 360, 374–75.
Earlier in this litigation, Plaintiffs voluntarily dismissed their
as-applied challenges to the Ordinance, their claim under the
Equal Protection Clause, and their claim of selective
enforcement against the mayor. Id. at 359 n.5.
8

14a
as in McCullen to demonstrate “either that
substantially less-restrictive alternatives were tried
and failed, or that the alternatives were closely
examined and ruled out for good reason,” id. at 370.
We thus remanded for factfinding on these issues, as
well as a determination about “the proper scope of the
Ordinance.” Id. at 357, 374. Notwithstanding our
earlier holding as to content neutrality in Brown, 586
F.3d at 273, 275, 277, we also directed the District
Court to consider whether the Ordinance should still
be considered content neutral in light of Reed v. Town
of Gilbert, 135 S. Ct. 2218 (2015), the Supreme Court’s
most recent pronouncement on the dividing line
between content-neutral and content-based restrictions. Bruni I, 824 F.3d at 365 n.14.
On remand, the District Court accepted the City’s
contention that the Ordinance covered Plaintiffs’
sidewalk counseling as a form of demonstrating and
held that the Ordinance was content neutral, even
under Reed. Bruni v. City of Pittsburgh, 283 F. Supp.
3d 357, 361, 367–68 (W.D. Pa. 2017). It also
distinguished the Ordinance from the statute in
McCullen as creating a smaller buffer zone and
allowing Plaintiffs to reach their audience through
sidewalk counseling despite the buffer zone and
therefore concluded that the Ordinance imposed “only
a minimal burden on Plaintiffs’ speech.” Id. at 369–
71. Accordingly, it held that the City “ha[d] no
obligation to demonstrate that it tried—or considered
and rejected”—the alternatives identified in
McCullen, such as arrests or targeted injunctions,
and even if the City did have such an obligation, it
had been satisfied. Id. at 371–72. The Court therefore
granted the City’s motion for summary judgment. Id.
at 373. This appeal followed.

15a
II. Jurisdiction and Standard of Review
The District Court had jurisdiction under 28
U.S.C. § 1331, and we have jurisdiction under 28
U.S.C. § 1291. We review a district court’s grant or
denial of summary judgment de novo, see EEOC v.
Allstate Ins. Co., 778 F.3d 444, 448 (3d Cir. 2015), and
may affirm on any basis supported by the record,
Gorum v. Sessoms, 561 F.3d 179, 184 (3d Cir. 2009).
Summary judgment is appropriate only where “there
is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). In the context of a First Amendment claim, we “examine independently the facts in
the record and ‘draw our own inferences’ from them.”
Tenafly Eruv Ass’n v. Borough of Tenafly, 309 F.3d
144, 157 (3d Cir. 2002) (quoting Christ’s Bride
Ministries, Inc. v. Se. Pa. Transp. Auth., 148 F.3d 242,
247 (3d Cir. 1998)). Like the District Court, however,
we review the facts in the light most favorable to the
nonmoving party. See Hugh, 418 F.3d at 267.
III. Discussion
On appeal, Plaintiffs argue that the Ordinance
violates the Free Speech and Free Press Clauses9 of
the First Amendment for three reasons: first, the
Ordinance is content based and therefore subject to
strict scrutiny; second, even if it is content neutral,
the Ordinance is not narrowly tailored and thus does
not survive intermediate scrutiny; and third, the
For the reasons articulated in Bruni I, we treat Plaintiffs’
free speech and free press claims together. See 824 F.3d at 373
(“Plaintiffs’ free press claim is . . . properly considered a subset
of their broader free speech claim, given that the Freedom of the
Press Clause and the Free Speech Clause both protect leafleting
from government interference.”).
9

16a
Ordinance is overbroad. After providing an overview
of the general framework that guides our analysis, we
address each of these arguments.
A. General Framework
Plaintiffs allege that the Ordinance is unconstitutional on its face. See Bruni I, 824 F.3d at 362. A
facial challenge “seeks to vindicate not only [a
plaintiff’s] own rights,” as in an as-applied challenge,
but also “those of others who may . . . be adversely
impacted by the statute in question.” Id. (quoting
CMR D.N. Corp. v. City of Philadelphia, 703 F.3d 612,
623 (3d Cir. 2013)). Although facial challenges in the
First Amendment context are more forgiving than
those in other contexts, see United States v. Salerno,
481 U.S. 739, 745 (1987), “all agree that a facial
challenge [under the First Amendment] must fail
where the statute has a plainly legitimate sweep,”
Wash. State Grange v. Wash. State Republican Party,
552 U.S. 442, 449 (2008) (citation omitted).
As we explained in Bruni I, however, “the
distinction between facial and as-applied challenges
is not so well defined that it has some automatic effect
or that it must always control the . . . disposition in
every case involving a constitutional challenge.” 824
F.3d at 363 (quoting Citizens United v. FEC, 558 U.S.
310, 331 (2010)). Courts therefore look to “[t]he
relevant constitutional test” to resolve the inquiry, id.
(citation omitted), bearing in mind that a party
seeking to invalidate a law in its entirety bears a
heavy burden, see Wash. State Grange, 552 U.S. at
450–51; Brown, 586 F.3d at 269.
Here, the relevant test is that governing free
speech claims. The government’s ability to restrict
speech in a traditional public forum, such as a

17a
sidewalk, is “very limited.” McCullen, 573 U.S. at 477
(citation omitted). That is because traditional public
fora “are areas that have historically been open to the
public for speech activities.” Id. at 476. In such fora,
the government may not restrict speech based on its
“communicative content,” Bruni I, 824 F.3d at 364
(quoting Reed, 135 S. Ct. at 2226)—that is, the
government “has no power to restrict expression
because of its message, its ideas, its subject matter, or
its content,” id. at 363 (quoting Ashcroft v. ACLU, 535
U.S. 564, 573 (2002)).
By contrast, the government has greater leeway
to regulate “features of speech unrelated to its
content.” McCullen, 573 U.S. at 477. Thus, “[e]ven in
a public forum the government may impose reasonable restrictions on the time, place, or manner of
protected speech, provided the restrictions ‘are justified without reference to the content of the regulated
speech, that they are narrowly tailored to serve a
significant governmental interest, and that they leave
open ample alternative channels for communication
of the information.’” Id. (quoting Ward v. Rock
Against Racism, 491 U.S. 781, 791 (1989)).
The level of scrutiny a court applies to a
restriction on speech depends on whether it is content
based or content neutral. If the restriction is content
based, it is subject to strict scrutiny and is therefore
“presumptively unconstitutional and may be justified
only if the government proves that [it is] narrowly
tailored to serve compelling state interests.” Reed,
135 S. Ct. at 2226; see McCullen, 573 U.S. at 478. If a
restriction is content neutral, “we apply intermediate
scrutiny and ask whether it is ‘narrowly tailored to
serve a significant governmental interest.’” Bruni I,
824 F.3d at 363–64 (quoting Madsen v. Women’s

18a
Health Ctr., Inc., 512 U.S. 753, 764 (1994)). The
threshold question, therefore, is whether the
restriction here is content based or content neutral.10
B. Content Neutrality
Plaintiffs contend that the Ordinance is content
based and thus subject to strict scrutiny because it
regulates speech “based on subject matter, function,
or purpose,” rendering it content based under Reed.11
Appellants’ Br. 34. For the reasons that follow, we
10 Although the parties begin their briefing with an application of intermediate scrutiny, we follow the Supreme Court’s
lead in McCullen by addressing first whether the Ordinance is
content based because the answer to that question determines
the correct level of scrutiny to apply. See 573 U.S. at 478–79.

Plaintiffs make additional arguments in passing, but they
are not persuasive. First, Plaintiffs contend that the City’s purpose in adopting the Ordinance was to “target anti-abortion
content” because the City Council’s discussion about the
Ordinance “centered entirely on abortion and the speech outside
of abortion facilities in Pittsburgh.” Appellants’ Br. 40–41. But
the Supreme Court explicitly rejected this argument in
McCullen. See 573 U.S. at 481–82 (“States adopt laws to address
the problems that confront them. The First Amendment does not
require States to regulate for problems that do not exist.”
(quoting Burson v. Freeman, 504 U.S. 191, 207 (1992) (plurality
opinion))). Second, Plaintiffs argue that the Ordinance is content
based as applied because it is enforced only outside of
reproductive health facilities and therefore affects only abortionrelated speech. Plaintiffs did not make this argument at
summary judgment below, and it is therefore forfeited. See
Keenan v. City of Philadelphia, 983 F.2d 459, 471 (3d Cir. 1992).
In any event, “a facially neutral law does not become content
based simply because it may disproportionally affect speech on
certain topics.” McCullen, 573 U.S. at 480. Reed, decided one
year after McCullen, does not speak to these aspects of
McCullen’s analysis.
11

19a
disagree.
In Reed, the Supreme Court considered the
constitutionality of an ordinance that regulated the
manner of display of outdoor signs depending on their
subject matter. 134 S. Ct. at 2224–25. For example,
the ordinance allowed “Political Signs” to be bigger in
size and remain posted longer than those it defined as
“Temporary Directional Signs.” Id. at 2224–25, 2227.
The Court held that the regulation was content based
because the restrictions applied differently
“depend[ing] entirely on the communicative content
of the sign[s].” Id. at 2227. As relevant here, the Court
noted that whereas “[s]ome facial distinctions . . . are
obvious,” such as “defining regulated speech by
particular subject matter,” others are more “subtle,”
such as “defining regulated speech by its function or
purpose.” Id.
The thrust of Plaintiffs’ argument is that the
Ordinance is content based because the City interprets the word “demonstrating” to apply to sidewalk
counseling but not to peaceful one-on-one communication about other subjects, like sports teams, and, as
a result, law enforcement must examine the content
of any speech to determine if it is prohibited.
However, despite the assumptions of both parties,12
Although Plaintiffs contend that the City “enforces” the
Ordinance “to suppress [their] leafletting and sidewalk
conversations” within the buffer zone, Appellants’ Br. 17, the
record does not reflect any prosecution, arrest, or even citation.
Instead, it reflects that, except for isolated instances in which
police were called to Planned Parenthood but took no action,
Plaintiffs avoided the buffer zone based on an assumption,
shared by the City, about the scope of the Ordinance. The
realistic threat of the City’s enforcement is sufficient for
purposes of Plaintiffs’ standing. See Susan B. Anthony List v.
12

20a
nothing in the plain language of the Ordinance
supports a construction that prohibits peaceful oneon-one conversations on any topic or conducted for
any purpose at a normal conversational volume or
distance. In short, the Ordinance as written does not
prohibit the sidewalk counseling in which Plaintiffs
seek to engage within the zone.
No doubt, if the Ordinance by its terms did
prohibit one-on-one conversations about abortion but
not about other subjects within the zone, it would be
highly problematic, see Reed, 135 S. Ct. at 2230,
particularly where, as here, the speech alleged to be
prohibited occurs on a public sidewalk and constitutes
one-on-one “normal conversation and leafletting,”
McCullen, 573 U.S. at 488—“core political speech
entitled to the maximum protection afforded by the
First Amendment,” Bruni I, 824 F.3d at 357. But
under the doctrine of constitutional avoidance, “[i]t
has long been a tenet of First Amendment law that in
determining a facial challenge to a statute, if it be
‘readily susceptible’ to a narrowing construction that
would make it constitutional, it will be upheld.”13
Driehaus, 573 U.S. 149, 158 (2014). As we explain below,
however, it does not preclude us under the doctrine of
constitutional avoidance from adopting a narrowing construction of the Ordinance.
As we said in Brown, “[t]his principle of interpretation is
consistent with Pennsylvania law.” 586 F.3d at 274 n.13 (citing
Commonwealth v. Monumental Props., Inc., 329 A.2d 812, 827
(Pa. 1974); and Dole v. City of Philadelphia, 11 A.2d 163, 168–69
(Pa. 1940)). And this is a particularly compelling case in which
to apply the doctrine given the constitutional concerns inherent
in restricting this kind of speech. As the Court explained in
McCullen, “‘one-on-one communication’ is ‘the most effective,
fundamental, and perhaps economical avenue of political
discourse.’” 573 U.S. at 488 (quoting Meyer v. Grant, 486 U.S.
13

21a
Virginia v. Am. Booksellers Ass’n, Inc., 484 U.S. 383,
397 (1988); see also Ayotte v. Planned Parenthood of
N. New England, 546 U.S. 320, 328–29 (2006)
(“Generally speaking, when confronting a constitutional flaw in a statute, we try to limit the solution to
the problem.”).
Of course, we may not “rewrite a . . . law to
conform it to constitutional requirements,” United
States v. Stevens, 559 U.S. 460, 481 (2010) (citation
omitted), but, as we have recognized on many
occasions, “[i]n the absence of a limiting construction
from a state authority, we must ‘presume any
narrowing construction or practice to which the law is
fairly susceptible.’”14 Brown, 586 F.3d at 274 (quoting
414, 424 (1988)). Indeed, “[l]eafletting and commenting on
matters of public concern are classic forms of speech that lie at
the heart of the First Amendment.” Id. at 489 (quoting Schenck,
519 U.S. at 377).
14 That is not to say that the City’s interpretation of the
Ordinance is irrelevant—it is a consideration in a court’s
determination of whether to adopt a limiting construction. See
Forsyth County v. Nationalist Movement, 505 U.S. 123, 131
(1992); see also Ward, 491 U.S. at 795–96. But the City’s
interpretation has not been adopted by any Pennsylvania court,
and where no state court has weighed in and the Ordinance is
readily susceptible to a “reinterpretation” consistent with the
Ordinance’s text, the City’s position is not dispositive. Free
Speech Coal., Inc. v. Attorney Gen. of the U.S., 677 F.3d 519, 539
(3d Cir. 2012); Saxe v. State Coll. Area Sch. Dist., 240 F.3d 200,
215–16, 215 n.10 (3d Cir. 2001); see also U.S. Nat’l Bank of Ore.
v. Indep. Ins. Agents of Am., Inc., 508 U.S. 439, 447 (1993)
(stating, outside of the constitutional avoidance context, that
litigants cannot “extract the opinion of a court on hypothetical
Acts of Congress or dubious constitutional principles” by
agreeing on the proper construction of the law); Comite de
Jornaleros de Redondo Beach v. City of Redondo Beach, 657 F.3d
936, 946 (9th Cir. 2011) (“[W]e are not required to . . . adopt an

22a
City of Lakewood v. Plain Dealer Publ’g Co., 486 U.S.
750, 770 n.11 (1988)); see Saxe v. State Coll. Area Sch.
Dist., 240 F.3d 200, 215 n.10 (3d Cir. 2001)
(explaining that where a state court has not authoritatively construed the terms of a stated policy, “we are
. . . required to give it a reasonable narrowing
construction if necessary to save it from unconstitutionality”); see also Frisby v. Schultz, 487 U.S. 474,
483 (1988) (“To the extent they endorsed a broad
reading of the ordinance, the lower courts ran afoul of
the well-established principle that statutes will be
interpreted to avoid constitutional difficulties.”).
Here, the Ordinance is readily susceptible to a
narrowing construction. The text of the Ordinance
says nothing about leafletting or peaceful one-on-one
conversations, let alone on a particular topic or for a
particular purpose. And, to put a fine point on it, the
floating bubble zone, which was enjoined years ago,
did prohibit “passing a leaflet,” “educating,” or
“counseling.” Pitts. Code § 623.03. Those are not the
activities that remain prohibited in the zone, and
“when the legislature uses certain language in one
part of the statute and different language in another,
the court assumes different meanings were intended.”
Sosa v. Alvarez-Machain, 542 U.S. 692, 711 n.9 (2004)
(quoting 2A N. Singer, Statutes and Statutory
Construction § 46:06, at 194 (6th rev. ed. 2000)).
The Ordinance prohibits four—and only four—
interpretation precluded by the plain language of the ordinance.”
(citation omitted)). While other Courts of Appeals take a
contrary approach, see United Food & Commercial Workers Int’l
Union v. IBP, Inc., 857 F.2d 422, 431 (8th Cir. 1988); Hill v. City
of Houston, 789 F.2d 1103, 1112 (5th Cir. 1986), our precedent is
clear, see Free Speech Coal., Inc., 677 F.3d at 539; Brown, 586
F.3d at 274; Saxe, 240 F.3d at 215–16, 215 n.10.

23a
activities within the zone: “congregat[ing],”
“patrol[ling],” “picket[ing],” and “demonstrat[ing].”
Pitts. Code § 623.04. And none of those terms, as
commonly understood, encompasses the sidewalk
counseling in which Plaintiffs engage.15
To “congregate” means “to collect into a group or
crowd.” Congregate, Merriam-Webster’s Collegiate
Dictionary 262 (11th ed. 2005) [hereinafter MerriamWebster’s]; see also Congregate, The American
Heritage Dictionary of the English Language 388 (4th
ed. 2006) [hereinafter American Heritage] (defining
“congregate” as “bring or come together in a group,
crowd, or assembly”). To “patrol” is “to carry out a
patrol,” defined in turn as “the action of traversing a
district or beat or of going the rounds along a chain of
guards for observation or the maintenance of
security,” Patrol, Merriam-Webster’s 909, and “[t]he
act of moving about an area especially by an
authorized and trained person . . . for purposes of
observation, inspection, or security,” Patrol,
American Heritage 1290. To “picket” is to “serve as a
picket,” defined as “a person posted for a
demonstration or protest.” Picket, Merriam-Webster’s
937; see also Picket, American Heritage 1327 (defining
“picket” as “to post as a picket” where “picket” is
defined as “[a] person or group of persons present
In its briefing and at oral argument, the City justified its
interpretation by noting that in Schenck, the injunction at issue
referred to “sidewalk counseling” as a “form of demonstrating,”
and the Supreme Court did not reject that characterization. See
Appellees’ Br. 48 (citation omitted). But the Court made clear
that the term as used by some protestors in that case was
misleading given their aggressive actions, see Schenck, 519 U.S.
at 363, 381–82, and, as discussed, see supra note 6, such conduct
falls far outside Plaintiffs’ definition of sidewalk counseling.
15

24a
outside a building to protest”). And to “demonstrate”
is defined as “to make a demonstration,” which is
defined in turn as “an outward expression or display”
and “a public display of group feelings toward a
person or cause.” Demonstrate, Merriam-Webster’s
332; see also Demonstrate, American Heritage 484
(defining “demonstrate” as “[t]o participate in a public
display of opinion”).
Plaintiffs’ sidewalk counseling does not meet any
of these definitions. While the Supreme Court has
noted that a grouping of three or more people may
constitute “congregat[ing],” see Boos v. Barry, 485
U.S. 312, 316–17 (1988), approaching someone
individually to engage in a one-on-one conversation
no more constitutes “congregat[ing]” than walking
alongside another person constitutes “patrol[ling].”
And while signs and raised voices may constitute
“picket[ing]” or “demonstrat[ing],” speaking to
someone at a normal conversational volume and
distance surely does not. Simply calling peaceful oneon-one conversations “demonstrating” or “picketing”
does not make it so when the plain meaning of those
terms does not encompass that speech.16
Moreover, the activities that the Ordinance does
prohibit render it content neutral under binding
Perhaps because of this disconnect between the
Ordinance’s text and the specific expressive activities to which
the parties have assumed the Ordinance applies, the City’s own
witness struggled during his deposition to explain which specific
prohibition was even applicable to Plaintiffs’ sidewalk counseling. For example, when asked “[w]hat part of the Ordinance”
would prohibit a sidewalk counselor from crossing into the buffer
zone while talking to a patient, the City’s designated witness
replied, “[c]all it congregating, patrolling, picketing, or
demonstrating, or any name you wish to give it.” JA 337a.
16

25a
Supreme Court precedent. No doubt due to the easily
identifiable nature and visibility of “congregat[ing],
patrol[ling], picket[ing] or demonstrat[ing],” Pitts.
Code § 623.04, the Court has repeatedly considered
regulation of those activities to be based on the
manner in which expressive activity occurs, not its
content, and held such regulation content neutral. See
Madsen, 512 U.S. at 759, 763–64 (addressing the
precise language at issue here, “congregating,
picketing, patrolling, [and] demonstrating,” and
concluding that the injunction prohibiting those
activities was content neutral); see also Snyder v.
Phelps, 562 U.S. 443, 456 (2011); Hill, 530 U.S. at 721;
Schenck, 519 U.S. at 383–85; United States v. Grace,
461 U.S. 171, 181–82 (1983).17 Nor does Reed alter
that conclusion. See Reed, 135 S. Ct. at 2228–29.
In short, the doctrine of constitutional avoidance
counsels that we impose a limiting construction
where, as here, a statute has not been construed by a
state court and is not only susceptible to a narrowing
construction but also demands that construction on
17 We have continued to rely on Hill since McCullen and
Reed were handed down, see, e.g., Turco v. City of Englewood,
935 F.3d 155, 165 (3d Cir. 2019) (declining to strike down eightfoot buffer zone as a matter of law because “such a conclusion
would be directly at odds with the Supreme Court’s decision in
Hill v. Colorado” (citation omitted)), as have some of our sister
circuits, e.g., March v. Mills, 867 F.3d 46, 64 (1st Cir. 2017); Act
Now to Stop War & End Racism Coal. & Muslim Am. Soc’y
Freedom Found., 846 F.3d 391, 403–04 (D.C. Cir. 2017). We note,
however, that other Courts of Appeals have observed that, even
if “neither McCullen nor Reed overruled Hill, so it remains
binding on us,” the content neutrality holding of Hill may be
“hard to reconcile with both McCullen and Reed,” Price v. City of
Chicago, 915 F.3d 1107, 1109 (7th Cir. 2019) (Sykes, J.), petition
for cert. filed, No. 18- 1516 (U.S. June 6, 2019).

26a
its face. See Am. Booksellers, 484 U.S. at 397; Brown,
586 F.3d at 274; Saxe, 240 F.3d at 215 n.10. Because
the Ordinance, as properly interpreted, does not
extend to sidewalk counseling—or any other calm and
peaceful one-on-one conversations—there is no need
for law enforcement “to examine the content of the
message . . . to determine whether a violation has
occurred.” McCullen, 573 U.S. at 479 (citation
omitted). The Ordinance so read is thus content
neutral and subject to intermediate scrutiny.
C. Application of Intermediate Scrutiny
Because we conclude the Ordinance does not
implicate Plaintiffs’ speech, we could end our analysis
here if this were an as-applied challenge. But because
Plaintiffs have brought a facial challenge, we briefly
consider whether the Ordinance as applied to the
remaining expressive activity of congregating,
patrolling, picketing, or demonstrating within fifteen
feet of the clinic entrance is “narrowly tailored to
serve a significant governmental interest.”18 Id. at
477 (quoting Ward, 491 U.S. at 791). We easily
conclude that it is.
As Plaintiffs acknowledge, the interests that the
To satisfy intermediate scrutiny, the government bears
the burden of demonstrating that a restriction on speech is
“narrowly tailored to serve a significant governmental interest”
and “leave[s] open ample alternative channels for communication of the information.” McCullen, 573 U.S. at 477 (quoting
Ward, 491 U.S. at 791). Plaintiffs do not dispute the “ample
alternatives” prong and, with its narrowing construction, “the
limited nature of the prohibition makes it virtually self-evident
that ample alternatives remain.” Frisby, 487 U.S. at 483. We
therefore focus our inquiry, as do the parties, on the issue of
narrow tailoring.
18

27a
City seeks to protect—unimpeded access to
pregnancy-related services, ensuring public safety,
and eliminating “neglect” of law enforcement needs—
are legitimate.19 Bruni I, 824 F.3d at 368 (quoting
Pitts. Code § 623.01); see McCullen, 573 U.S. at 487,
496–97 (describing these interests as “undeniably
significant” interests that are “clearly serve[d]” by
buffer zones); see also Turco v. City of Englewood, 935
F.3d 155, 166 (3d Cir. 2019) (recognizing the
government’s significant interest in “protecting the
health and safety of its citizens, which ‘may justify a
special focus on unimpeded access to health care
facilities and the avoidance of potential trauma to
patients associated with confrontational protests’”)
(citation omitted). Instead, Plaintiffs argue that the
Ordinance is not narrowly tailored to those interests.
To be narrowly tailored, a regulation must not
“burden substantially more speech than is necessary
to further the government’s legitimate interests.”
19 To the extent Plaintiffs argue that the City’s stated
interests were not substantiated on remand, the record—
including reports of violent incidents, obstruction of patients’
ingress and egress, and aggressive confrontations—establishes
otherwise. See supra Section I.A.1. Plaintiffs’ additional
argument that there has been no obstructive conduct preventing
access to the clinic’s entrance in recent years and, therefore, that
the Ordinance is no longer necessary is also belied by the record.
For starters, there is evidence in the record to the contrary. For
example, a clinic escort declared in 2014 that she was “aware of
incidents at [Planned Parenthood] in which escorts were pushed
by a protester and where protesters placed their hands on
patients and thrust their leaflets inside patients’ coat pockets or
handbags.” JA 709a–10a. More importantly, the fact that an
otherwise constitutional restriction on speech is successful in
serving the interests for which it was intended is hardly a reason
to strike it down.

28a
McCullen, 573 U.S. at 486 (quoting Ward, 491 U.S. at
799). At the same time, it “‘need not be the least
restrictive or least intrusive means of’ serving the
government’s interest,” id. (quoting Ward, 491 U.S. at
798), and we “afford[] some deference to a municipality’s judgment in adopting a content-neutral
restriction on speech,” Bruni I, 824 F.3d at 370.
In arguing that the restriction on speech here is
not narrowly tailored, Plaintiffs do not distinguish
between the Ordinance as read to include sidewalk
counseling and the Ordinance as read to exclude it.
Rather, quoting Bruni I, they contend we “already
made clear that ‘the City has the same obligation to
use less restrictive alternatives to its buffer zone as
. . . Massachusetts had with respect to the buffer zone
at issue in McCullen.’” Appellants’ Br. 25 (quoting
Bruni I, 824 F.3d at 369). So, say Plaintiffs, just as in
McCullen, the City had to demonstrate on remand
that “substantially less-restrictive alternatives,”
including arrests, prosecutions, and injunctions,
“were tried and failed, or . . . were closely examined
and ruled out for good reason.” Bruni I, 824 F.3d at
370. Because the City here concededly failed to make
a showing of that magnitude, Plaintiffs contend the
Ordinance necessarily fails intermediate scrutiny.
Plaintiffs mistake the import of Bruni I in two
respects. First, in reviewing the District Court’s
dismissal of Plaintiffs’ complaint, we did not
conclusively determine that the City “ha[d] the same
obligation to use less restrictive alternatives” as in
McCullen. Bruni I, 824 F.3d at 369. As appropriate at
the pleading stage, we “accept[ed] all [of Plaintiffs’]
factual allegations as true,” id. at 360 (citation
omitted), and held that “[b]ecause of the significant
burden on speech that the Ordinance allegedly

29a
imposes, the City ha[d] the same obligation to use,”
id. at 369 (emphasis added), or show that it “seriously
considered, substantially less restrictive alternatives,” id. at 357, as in McCullen. On that basis, we
remanded for a determination of the proper scope of
the Ordinance, the actual burden on Plaintiffs’
speech, and a means–ends analysis “by the standard
that McCullen now requires.” Id. at 375.
Second, to the extent Plaintiffs’ argument is that
McCullen imposes on a municipality “the same
obligation” as on Massachusetts—even in the absence
of a “significant burden on speech,” id. at 369—they
are mistaken. As we recognized in Bruni I, where the
burden on speech is de minimis, a regulation may “be
viewed as narrowly tailored, even at the pleading
stage,” id. at 372 n.20, and McCullen and Bruni I both
observed that where there is only “a slight burden on
speech, any challengers would struggle to show that
‘alternative measures [would] burden substantially
less speech,’” id. (alteration in original) (quoting
McCullen, 573 U.S. at 495). In short, while McCullen
and Bruni I made clear that a “rigorous and factintensive” inquiry will be required where a restriction
imposes a significant burden on speech, Bruni I, 824
F.3d at 372, they also made clear (and logic dictates)
that a less demanding inquiry is called for where the
burden on speech is not significant—whether due to a
restriction’s scope, the size of the speech-free zone, or
some combination of the two.20

In Bruni I, we explained that when dealing with core
speech, such as sidewalk counseling, whether a restriction is less
burdensome in “degree”—meaning size in the context we used
it—is not necessarily dispositive of whether the burden on
speech is significant. 824 F.3d at 368. A court must also consider
20

30a
In this case, now that we have before us both a
developed record and a narrow construction of the
Ordinance, it is apparent that the burden it imposes
is different from McCullen both in scope and size and
is instead akin to that imposed by the thirty-six-foot
and fifteen-foot buffer zones that the Supreme Court
upheld in Madsen v. Women’s Health Center, Inc., 512
U.S. at 757, 776, and Schenck v. Pro-Choice Network
of Western New York, 519 U.S. at 364, 380,
respectively.
As to scope, although the restrictions in those
cases were more targeted in that they were created by
way of injunction, not legislation, see Schenck, 519
U.S. at 361; Madsen, 512 U.S. at 757, the Ordinance
is narrower in scope because it limits only congregating, patrolling, picketing, and demonstrating
within a fifteen-foot buffer zone, and does not sweep
in the “one-on-one communication,” including
“normal conversation and leafletting,” that McCullen
emphasized “have historically been more closely
associated with the transmission of ideas,” 573 U.S.
at 488. Thus, so long as she is not “congregating” with
others in the buffer zone, an individual plaintiff is not
the burden as “a matter of . . . kind,” referring to the type of
speech a restriction prohibits. Id. Elsewhere in the opinion,
however, we also recognized that there may be cases where the
“degree” of burden is so minimal that it, alone, will determine
whether the burden on speech should be considered significant,
thus potentially negating any need for the government to show
that substantially less-restrictive alternatives were tried and
failed or seriously considered and reasonably rejected. See id. at
372 n.20 (quoting McCullen, 573 U.S. at 495). As “degree” could
refer to the size of the zone or significance of the burden,
depending on the context, and both subjects are mentioned in
today’s opinion, we will use the terms “scope” and “size,” rather
than “kind” and “degree,” for the sake of clarity.

31a
barred by the Ordinance from engaging in sidewalk
counseling inside its borders. Cf. Schenck, 519 U.S. at
367, 369–70, 383–84 (describing and upholding the
district court’s decision to allow only two sidewalk
counselors inside the fifteen-foot buffer zone);
Madsen, 512 U.S. at 759 (prohibiting not only
“congregating,
picketing,
patrolling,
[and]
demonstrating” within the zone but also “entering”).
And as to size, the relatively small buffer zone
imposed by the Ordinance, like those in Madsen and
Schenck, does not prevent groups like Forty Days for
Life from congregating within sight and earshot of the
clinic. Nor does it prevent protestors, demonstrators,
or picketers from being seen and heard, or any of
these persons from speaking outside the zone with
willing listeners who are entering or exiting. See
Schenck, 519 U.S. at 384–85; Madsen, 512 U.S. at
770. And size, while not necessarily in and of itself
dispositive, see Bruni I, 824 F.3d at 368, is still a
“substantial distinction” that must factor into a
court’s analysis of the relative burden on speech,
Turco, 935 F.3d at 163.
Also as in Madsen and Schenck, the record shows
that the City resorted to a fixed buffer zone not in the
first instance but after attempting or considering
some less burdensome alternatives and concluding
they were unsuccessful in meeting the legitimate
interests at issue. See Schenck, 519 U.S. at 380–82;
Madsen, 512 U.S. at 769–70. These included an
overtime police detail in front of Planned Parenthood
until the cost became prohibitive once the City was
declared a financially distressed municipality;21
In McCullen, Massachusetts did not assert such economic
hardships. While the Court noted that “the prime objective of the
21

32a
incident-based responses by the police that proved
unsuccessful in preventing or deterring aggressive
incidents and congestion; and consideration of
criminal laws that the police were finding inadequate
to address the problem of protestors following
patients and obstructing their way to the clinic.
True, as Plaintiffs point out, this record does not
reflect that the City tried or seriously considered
arrests, prosecutions, or targeted injunctions, which
Plaintiffs would have us treat as dispositive. But
where the burden imposed by a restriction on speech
is not significant, the government need demonstrate
neither that “it has tried or considered every less
burdensome alternative,” Bruni I, 824 F.3d at 370,
nor that it tried or considered every less burdensome
alternative discussed in McCullen. Instead, as we
reiterated in Turco, this is an “intensely factual . . .
inquiry,” 935 F.3d at 170, that must account for “the
‘broad principle of deference to legislative judgments’
and that a legislative body ‘need not meticulously vet
every less burdensome alternative,’” id. at 171
(quoting Bruni I, 824 F.3d at 370 n.18). And, as we
recognized there in remanding for further factfinding, a municipality can demonstrate that it
“attempted . . . [or] considered alternative means of
First Amendment is not efficiency,” McCullen, 573 U.S. at 495,
it did not have occasion to consider circumstances where “the
limitations of ‘manpower’ and the need to be able to deploy
officers in response to emergencies” made it “not feasible to
permanently provide a significantly increased police presence at
the clinic,” Turco, 935 F.3d at 167. As we recently recognized,
however, the facts “that the police department ha[s] finite
resources,” id. (citation omitted), and a city has “financial
restraints,” id. at 167–68, are relevant to the narrow tailoring
analysis.

33a
bringing order to the sidewalk” even if it “ha[s] not
‘prosecute[d] any protestors for activities taking place
on the sidewalk’ and ‘did not seek injunctive relief
against individuals whose conduct was the impetus
for the Ordinance.’” Id. at 167 (second alteration in
original) (quoting Turco v. City of Englewood, No.
2:15-cv-03008, 2017 WL 5479509, at *5 (D.N.J. Nov.
14, 2017)). The ultimate question remains whether a
restriction on speech “burden[s] substantially more
speech than is necessary to further the government’s
legitimate interests.” McCullen, 573 U.S. at 486
(emphasis added) (quoting Ward, 491 U.S. at 799).
Consistent with Madsen and Schenck, the
Ordinance, as we have construed it, does not do so.22
The Ordinance therefore is “narrowly tailored to serve
a significant governmental interest,” McCullen, 573
U.S. at 477 (quoting Ward, 491 U.S. at 791), and it
satisfies intermediate scrutiny.
D. Overbreadth
Finally, Plaintiffs argue that the Ordinance is
unconstitutionally overbroad because it authorizes
the City to create buffer zones at any health facility
in the City, regardless of whether the City has
identified a problem at the location in the past. A law
may be overbroad under the First Amendment where
“a substantial number of its applications are
We recognize that the City may have a legitimate concern
about access to healthcare facilities if it transpires that multiple
one-on-one conversations impair access to the facilities, see
McCullen, 573 U.S. at 486–87, and that the City may then have
occasion to revisit the terms of the Ordinance having developed
a record that would satisfy McCullen and Bruni I, as well as the
content-neutrality requirement of Reed. See Turco, 935 F.3d at
162–63. That, however, is not the Ordinance before us today.
22

34a
unconstitutional, judged in relation to the [law’s]
plainly legitimate sweep.” Bruni I, 824 F.3d at 374
(quoting Stevens, 559 U.S. at 473). The overbreadth
doctrine is “strong medicine,” Kreimer v. Bureau of
Police, 958 F.2d 1242, 1265 (3d Cir. 1992) (citation
omitted), should therefore be “used sparingly,” id.,
and will “not be[] invoked when a limiting
construction has been or could be placed on the
challenged” law, Broadrick v. Oklahoma, 413 U.S.
601, 613 (1973).
Plaintiffs’ overbreadth challenge is not wellfounded. As a general matter, “[t]he fact that the
coverage of a statute is broader than the specific
concern that led to its enactment is of no constitutional significance,” Hill, 530 U.S. at 730–31, and its
applicability more generally is one of the reasons that
we consider it to be a content-neutral restriction on
speech, see id. at 731. For that reason, “[w]hen a
buffer zone broadly applies to health care facilities” to
include “buffer zones at non-abortion related
locations,” we may then “conclude ‘the comprehensiveness of the statute is a virtue, not a vice, because
it is evidence against there being a discriminatory
governmental motive.’” Turco, 935 F.3d at 171
(quoting Hill, 530 U.S. at 730–31).
Nor is the Ordinance overbroad because it affords
the City discretion to select particular health facilities
at which it will demarcate a buffer zone. Since the
demarcation requirement was put in place approximately ten years ago, the City has exercised that
discretion as to only two facilities, both of which
suffered from violence and obstruction in the past. Yet
we may not, as Plaintiffs suggest, simply assume that
“the statute’s very existence may cause others not
before the court to refrain from constitutionally

35a
protected speech or expression.” Broadrick, 413 U.S.
at 612. Instead, we revert again to the “principle . . .
well-established in First Amendment jurisprudence”—“our duty to ‘accord a measure of
deference to the judgment’ of [the] city council,’”
Turco, 935 F.3d at 171 (quoting Hill, 530 U.S. at 727),
considering “[the] statute’s application to real-world
conduct, not fanciful hypotheticals,” id. at 172
(quoting Stevens, 559 U.S. at 485). Applying that
principle here, we conclude the Ordinance is not
substantially overbroad.
In sum, Plaintiffs have not carried their “burden
of demonstrating, ‘from the text of [the law] and from
actual fact,’ that substantial overbreadth exists.”
Virginia v. Hicks, 539 U.S. 113, 122 (2003) (alteration
in original) (citation omitted). We therefore affirm the
District Court’s grant of summary judgment to the
City on this claim.
IV. Conclusion
For the foregoing reasons, we will affirm the
District Court’s order granting summary judgment.

36a
Nikki Bruni et al. v. City of Pittsburgh et al. (Bruni
II), No. 18-1084
HARDIMAN, Circuit Judge, concurring.
I join the Court’s opinion because it rightly
construes the Pittsburgh Ordinance to allow conversation on a public sidewalk. I write separately to
highlight the impact of Reed v. Town of Gilbert, 135
S. Ct. 2218 (2015). In my view, Reed weakened precedents cited in the Court’s content neutrality analysis
and will constrain Pittsburgh’s enforcement of the
Ordinance going forward.
I
It is true that the Supreme Court has held that
restricting “congregating, picketing, patrolling, [and]
demonstrating” around abortion clinics is facially
content neutral. Madsen v. Women’s Health Ctr., Inc.,
512 U.S. 753, 759, 757–65 (1994); see Op. 26–27. The
Court has even extended this content neutrality to
“wildly expansive definitions” of “demonstrate” and
“picket.” Hill v. Colorado, 530 U.S. 703, 744 (2000)
(Scalia, J., dissenting); see id. at 721–22 (majority
opinion) (“defining ‘demonstrate’ as ‘to make a public
display of sentiment for or against a person or cause’
and ‘picket’ as an effort ‘to persuade or otherwise
influence’” (quoting Webster’s Third New International Dictionary 600, 1710 (1993))); see also Schenck
v. Pro-Choice Network of W. N.Y., 519 U.S. 357, 374
n.6, 381–82 (1997) (upholding injunction against
“demonstrating,” even though it would target some
“stationary, nonobstructive demonstrations”).
The continued vitality of this content neutrality
analysis is questionable after Reed. Before Reed, the
Court vacillated between two tests for content

37a
neutrality. See generally Genevieve Lakier, Reed v
Town of Gilbert, Arizona, and the Rise of the
Anticlassificatory First Amendment, 2016 Sup. Ct.
Rev. 233; Elena Kagan, Private Speech, Public
Purpose: The Role of Governmental Motive in First
Amendment Doctrine, 63 U. Chi. L. Rev. 413 (1996).
In cases like Hill, Schenck, and Madsen, the
“government’s purpose [w]as the
threshold
consideration.” Madsen, 512 U.S. at 763; see Hill, 530
U.S. at 719; Schenck, 519 U.S. at 371–74 & n.6
(relying solely on Madsen to hold injunction content
neutral). But in other cases, the Court’s first
consideration was whether a law “draw[s] contentbased distinctions on its face.” McCullen v. Coakley,
573 U.S. 464, 479 (2014). Any law that did so was
necessarily content based, no matter the
government’s purpose. See, e.g., Simon & Schuster,
Inc. v. Members of N.Y. State Crime Victims Bd., 502
U.S. 105, 116–17, 122 n.* (1991).
Reed adopted the latter test for content
neutrality. It held that “[a] law that is content based
on its face is subject to strict scrutiny regardless of the
government’s benign motive, content-neutral justification, or lack of ‘animus toward the ideas contained’
in the regulated speech.” 135 S. Ct. at 2228 (quoting
Cincinnati v. Discovery Network, Inc., 507 U.S. 410,
429 (1993)); see id. at 2237–39 (Kagan, J., concurring
in the judgment). By doing so, Reed “overturn[ed] the
standard that [the Court] had previously used to
resolve a particular class of cases”—a class that
includes cases like this one and Hill. Brian A. Garner
et al., The Law of Judicial Precedent 31 (2016) (citing
Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 66–67
(1996), and Planned Parenthood of Se. Pa. v. Casey,
947 F.2d 682, 691–93 (3d Cir. 1991), aff’d in part,

38a
rev’d in part, 505 U.S. 833 (1992)). In fact, Reed
rebuked Hill several times: by noting that the errant
Court of Appeals relied on it, 135 S. Ct. at 2226; and
by favorably citing dissents in Hill authored by
Justices Scalia and Kennedy, id. at 2229.
Reed also seems to have expanded the types of
laws that are facially content based. Facial distinctions, the Court explained, may not only be “obvious,
defining regulated speech by particular subject
matter.” Id. at 2227. They may also be “subtle,
defining regulated speech by its function or purpose.”
Id. Two cases discussed in Reed exemplify this subtle
content discrimination.
The first, Sorrell v. IMS Health Inc., involved a
law that restricted the sale, disclosure, and use of
information about drug prescriptions. See 564 U.S.
552, 563–64 (2011); Reed, 135 S. Ct. at 2227. The
Court held content based a provision that allowed the
sale of that information for “‘educational communications,’” but not for “marketing.” Sorrell, 564 U.S. at
564 (quoting Vt. Stat. Ann., tit. 18, § 4631(e)(4) (Supp.
2010)). “[E]ducation[ ]” and “marketing” are examples
of speech’s “function or purpose” under Reed. 135 S.
Ct. at 2227. They explain how or why a speaker
speaks, not what is said. Id.
The second case that underscores the protection
afforded to speech’s function or purpose is NAACP v.
Button, 371 U.S. 415 (1963). See Reed, 135 S. Ct. at
2229. In that case, Virginia “attempt[ed] to use a
statute prohibiting ‘improper solicitation’ by
attorneys to outlaw litigation-related speech of the
National Association for the Advancement of Colored
People.” Id. (quoting Button, 371 U.S. at 438). The
Button Court rejected that attempt, holding that

39a
“advocacy” and “‘the opportunity to persuade to
action’” are First Amendment rights. 371 U.S. at 437–
38 (quoting Thomas v. Collins, 323 U.S. 516, 537
(1945)). Describing the Virginia law over 50 years
later, the Reed Court called it “facially contentbased.” 135 S. Ct. at 2229.
So Reed demands that we construe the Ordinance
narrowly. And it steers us away from precedents that
focused on a law’s purpose rather than its facial effect.
For laws once held content neutral because of purpose
may well be facially content based after Reed.
Compare, e.g., Hill, 530 U.S. at 720–21 (holding
content neutral a ban on “picketing,” “demonstrating,” “protest, education, or counseling” even
though it may require the government “to review the
content of the statements made”), with McCullen, 573
U.S. at 479 (“The [buffer zone law] would be content
based if it required ‘enforcement authorities’ to
‘examine the content of the message that is conveyed
. . . .’” (quoting FCC v. League of Women Voters of Ca.,
468 U.S. 364, 383 (1984))), and Reed, 135 S. Ct. at
2227–29 (highlighting facially content based laws
that target solicitation and educational communications). Even some purposes previously held content
neutral may now be content based. Compare, e.g.,
Hill, 530 U.S. at 716 (citing “[t]he unwilling listener’s
interest in avoiding unwanted communication”), and
Turco v. City of Englewood, 935 F.3d 155, 162, 166-67
(3d Cir. 2019) (citing that interest to support narrow
tailoring of concededly content neutral law), with
McCullen, 573 U.S. at 481 (“To be clear, the Act would
not be content neutral if it were concerned with
undesirable effects that arise from ‘the direct impact
of speech on its audience’ or ‘[l]isteners’ reactions to
speech.’” (quoting Boos v. Barry, 485 U.S. 312, 321

40a
(1988))), and Reed, 135 S. Ct. at 2227 (protecting
speech’s “function or purpose”).
II
Today our Court does what Reed requires. We
hold that “[b]ecause the Ordinance, as properly
interpreted, does not extend to sidewalk counseling—
or any other calm and peaceful one-on-one conversations,” the City cannot examine the content of a
conversation to decide whether a violation has
occurred. Op. 27–28. It will instead examine, for
example, decibel level, the distance between persons,
the number of persons, the flow of traffic, and other
things usually unrelated to the content or intent of
speech. See, e.g., Reed, 135 S. Ct. at 2228 (confirming
that banning sound amplification is content neutral);
id. at 2232 (stating that “entirely forbidding the
posting of signs” is content neutral); McCullen, 573
U.S. at 491–92 (collecting laws that, by penalizing
conduct like obstruction or assault, may pass
intermediate scrutiny).
The Court’s decision constrains the City’s
enforcement discretion. Pittsburgh cannot target
quiet conversations even if they are not in a tone of
“kindness, love, hope, gentleness, and help.” Op. 11
n.6 (quoting JA 574a); see, e.g., id. at 25–26. It must
allow not only conversations that help and love, but
also those that serve any other “function or purpose”
within the bounds of protected speech. Reed, 135 S.
Ct. at 2227; see, e.g., id. at 2228–29 (discussing
Sorrell, 564 U.S. at 563–64 (“educati[ng]” and
“marketing”), and Button, 371 U.S. at 438–40
(“solicit[ing],” “advoca[ting],” and “urg[ing]”)).
And the City’s enforcement of the Ordinance must
be evenhanded. Consider clinic employees and agents

41a
who, under the injunction issued in Brown v. City of
Pittsburgh, can “congregate” or “patrol” when helping
persons enter or exit a clinic. See 586 F.3d 263, 273–
75 (3d Cir. 2009); Brown v. City of Pittsburgh, 2010
WL 2207935, at *2 n.2 (W.D. Pa. May 27, 2010); JA
1324a (permanent injunction order). Before today, the
City’s broad and amorphous interpretation of the
Ordinance risked allowing those employees to engage
in speech that others could not. That sort of disparate
treatment would now be content or viewpoint based.
See Reed, 135 S. Ct. at 2230 (citing Rosenberger v.
Rector and Visitors of Univ. of Va., 515 U.S. 819
(1995), and Citizens United v. FEC, 558 U.S. 310
(2010)). Our decision today clarifies that the words
“congregate” and “patrol” address conduct—the
assembly of people in one place or the action of pacing
back and forth. See Op. 25. So interpreted, the Brown
injunction’s narrow exception does not discriminate
between types of speech.
With these understandings, I join the Court’s
opinion.


42a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA

NIKKI BRUNI, et al.,
Plaintiffs,
v.
CITY OF PITTSBURGH, et al.,
Defendants.

)
)
)
)
)
)
)
)

Civil Action
No. 14-1197
Judge Cathy
Bissoon

MEMORANDUM AND ORDER
I. MEMORANDUM
Pending before the Court are Plaintiffs’ Motion
for Summary Judgment (Doc. 68) and Defendants’
Motion for Summary Judgment (Doc. 69). Upon full
consideration of the evidence presented, Plaintiffs’
Motion for Summary Judgment will be denied, and
Defendants’ Motion for Summary Judgment will be
granted.
A. Factual Background
1. The Ordinance
In December 2005, the Pittsburgh City Council
adopted Ordinance No. 49, Bill No. 2005-1944,
supplementing the Pittsburgh Code of Ordinances,
Title 6: Conduct, Article I: Regulated Rights and
Actions, by adding Chapter 623, entitled “Public
Safety at Health Care Facilities.” Pittsburgh Code of
Ordinances § 623.01 et seq., (the “Ordinance”).
Plaintiffs’ Concise Statement of Material Facts (Doc.

43a
74) ¶ 1; Defendants’ Response to Plaintiffs’ Concise
Statement of Material Facts (Doc. 82) ¶ 1. The
Ordinance became effective on December 30, 2005.
Doc. 74 ¶ 1; Doc. 82 ¶ 1.
In relevant part, the challenged Ordinance
provides as follows:
§ 623.04 FIFTEEN-FOOT BUFFER ZONE
No person or persons shall knowingly
congregate, patrol, picket, or demonstrate in
a zone extending 15 feet from any entrance to
the hospital and or health care facility. This
section shall not apply to police and public
safety officers, fire and rescue personnel, or
other emergency workers in the course of
their official business, or to authorized
security personnel employees or agents of the
hospital, medical office or clinic engaged in
assisting patients and other persons to enter
or exit the hospital, medical office, or clinic.
Doc. 74 ¶¶ 2, 140; Doc. 82 ¶¶ 2, 140. The Ordinance
exempts “authorized security personnel employees or
agents of the hospital, medical office or clinic engaged
in assisting patients and other persons to enter or exit
the hospital, medical office, or clinic” from the entirety
of Section 623.04. Doc. 74 ¶ 141; Doc. 82 ¶ 141.
In adopting the Ordinance, the City Council also
ratified a preamble, titled “Intent of Council,” that
described the goals the City sought to accomplish as
follows:
The City Council recognizes that access to
Health Care Facilities for the purpose of
obtaining medical counseling and treatment
is important for residents and visitors to the

44a
City. The exercise of a person’s right to protest
or counsel against certain medical procedures
is a First Amendment activity that must be
balanced against another person’s right to
obtain medical counseling and treatment in
an unobstructed manner; and The City of
Pittsburgh Bureau of Police has been
consistently called upon in at least two
locations within the City to mediate the
disputes between those seeking medical
counseling and treatment and those who
would counsel against their actions so as to (i)
avoid violent confrontations which would lead
to criminal charges and (ii) enforce existing
City Ordinances which regulate use of public
sidewalks and other conduct; Such services
require a dedicated and indefinite appropriation of policing services, which is being
provided to the neglect of the law enforcement
needs of the Zones in which these facilities
exist. The City seeks a more efficient and
wider deployment of its services which will
help also reduce the risk of violence and
provide unobstructed access to health care
facilities by setting clear guidelines for
activity in the immediate vicinity of the
entrances to health care facilities; The
Council finds that the limited buffer and
bubble zones outside health care facilities
established by this chapter will ensure that
patients have unimpeded access to medical
services while ensuring that the First
Amendment rights of demonstrators to
communicate their message to their intended
audience is not impaired.

45a
Doc. 74 ¶ 7; Doc. 82 ¶ 7.
A permanent injunction altered the Ordinance in
2009, requiring, inter alia, that the City clearly
demarcate any buffer zone prior to its enforcement.
Order Granting Permanent Injunction (the
“Injunction”), Civil Action No. 06-393, Doc. 85, ¶ 1
(W.D. Pa. Dec. 17, 2009). Presently, two “buffer zones”
are delineated and enforced in the City of Pittsburgh,
both of which are located outside of reproductive
health care facilities where abortions are performed.
Doc. 74 ¶ 149; Doc. 82 ¶ 149. One of the two buffer
zones is indicated by a bright, yellow semi-circle
painted around the entrance of 933 Liberty Avenue,
the downtown Planned Parenthood clinic (“933
Liberty” or “downtown Planned Parenthood”). Doc. 74
¶¶ 111, 122; Doc. 82 ¶¶ 111, 122. The inside of the
yellow arc measures 15 feet in radius from the center
of the closed front doors of the Planned Parenthood
facility. Doc. 74 ¶ 123; Doc. 82 ¶ 123.
According to the City, the Ordinance “applies to
any type of protesting within the buffer zone.” Doc. 74
¶ 155; Doc. 82 ¶ 155. However, “purely social or
random conversations (like going up to someone to
ask directions or what time it is) are not intended to
be covered by the Ordinance.” Doc. 74 ¶ 156; Doc. 82
¶ 156. When Plaintiffs filed this lawsuit, they believed
that the Ordinance completely prohibited their
passage through the buffer zone, even if they were not
engaging in sidewalk advocacy during such passage.
Defendants’ Concise Statement of Material Facts
(Doc. 71) ¶ 86; Plaintiffs’ Response to Defendants’
Concise Statement of Material Facts (Doc. 79) ¶ 86.
However, since then, the City has explained to
Plaintiffs that the buffer zone does not apply to
“individuals who are simply walking through the 15

46a
foot zone to get to from one location to another,
provided that such passage does not obstruct access
to the facility.” Doc. 74 ¶ 87; Doc. 82 ¶ 87; Doc. 74 ¶
154; Doc. 82 ¶ 154. For purposes of this lawsuit, there
appears to be no dispute that “sidewalk counseling”
within the 15 foot buffer zone is prohibited.
2. History of the Ordinance
Prior to moving to 933 Liberty Avenue, Planned
Parenthood maintained its downtown location on
Fifth Avenue. Doc. 74 ¶ 112; Doc. 82 ¶ 112. In the midand late-1990’s, there were numerous incidents
involving violence, disruption and obstruction of
entrances at the Fifth Avenue location. Doc. 71 ¶ 1;
Doc. 79 ¶ 1. As a result, in the mid-90’s, Pittsburgh
police deployed crowd-control barriers outside
abortion clinics in order to maintain order and
security, separating demonstrators from each other
and from patients attempting to visit the clinic for
health care. Doc. 71 ¶ 4; Doc. 79 ¶ 4. After Planned
Parenthood moved to the 933 Liberty Avenue location
in 2002, the incidents became less frequent and
severe; however, there still were regular incidents
involving “pushing,” “shoving” and “verbal harassment” at the downtown Planned Parenthood. See Def.
App., Ex. J, Hohos Dep. (Doc. 72-10) at 31:23-32:12
(“New location was, like I said, not as severe, but we
still had our incidents. We still had the pushing and
the shoving between the escorts and the pro-life folks
and, you know, the blocking of the doors, that was still
occurring when people would sit in front of doors. Not
on a much regular basis as before, but that -- that
conduct still continued to a large -- to a large degree.
A lot of it was verbal. Depending on which side the
argument you were on or the cause, a lot of it was
verbal harassment between both parties, both

47a
sides.”); id. at 42:2-5 (Sergeant William Hohos
explaining that he has personally witnessed “pro-life
individuals forcing literature into patients’ pockets”);
id. at 52:13-15 (“We were still very active between the
years of 2002 to 2005. ‘We’ being the police.”). To
mitigate these incidents, the Bureau of Police
employed an overtime detail of police officers
stationed outside the downtown Planned Parenthood.
Doc. 71 ¶ 6; Doc. 79 ¶ 6.
On December 29, 2003, the City of Pittsburgh was
declared a financially distressed municipality by the
Commonwealth of Pennsylvania’s Department of
Community and Economic Development. Doc. 71 ¶ 14;
Doc. 79 ¶ 14. Following the determination of the City’s
distressed status, the Bureau of Police discontinued
the overtime detail of police officers assigned to the
downtown Planned Parenthood, although police
would still respond to 911 or other specific calls for
law enforcement. Doc. 71 ¶ 19; Doc. 79 ¶ 19.
Thereafter, on November 29, 2005, the Ordinance was
introduced before the City Council. Doc. 74 ¶ 126; Doc.
82 ¶ 126. A committee meeting was held on December
7, 2005, followed by hearing for public comment on
December 13, 2005. Doc. 74 ¶¶ 126-128; Doc. 82 ¶¶
126-128; Doc. 71 ¶ 23; Doc. 79 ¶ 23. At those
proceedings, dozens of witnesses offered statements
to the City Council, including President and CEO of
Planned Parenthood of Western Pennsylvania,
Kimberly Evert. Doc. 71 ¶ 24; Doc. 79 ¶ 24. Ms. Evert
testified that, in January 2005, the City’s budget
problems “resulted in the elimination of the police
assignment” to the downtown Planned Parenthood.
Doc. 72-3, Exhibit C, at p. 8. Ms. Evert testified that
“without [police] supervision there has been an
increase in unlawful behavior that is putting . . .

48a
patients, their families, pedestrians and even
protestors at risk.” Id. As evidence, Ms. Evert stated
that, in 2004, patients made 16 complaints about
protestors, whereas from February 2005 to November
2005, “there were 13 cases of aggressive pushing,
shoving and hitting, and 30 complaints of harassing
behavior that included shoving literature into
people’s pockets, hitting them with signs and blocking
their entrance into the building.” Id.
Commander Donaldson of the Pittsburgh Police
Department also addressed the City Council on
December 7, 2005. Doc. 74 ¶ 133; Doc. 82 ¶ 133.
Commander Donaldson stated that, while the City did
not arrest any protestors outside 933 Liberty Avenue
within the six months prior to the committee meeting,
police had been summoned to that location 22 times
in that 6-month period. Doc. 74 ¶ 135; Doc. 82 ¶ 135;
Doc. 72-3, Exhibit C, at pp. 52-54. Commander
Donaldson explained that “[t]ypically, [the police] are
called to mediate confrontations between the people
going into the clinic and the protestors or the escorts
. . . and other times it was the doorway was obstructed
or they followed the people to the doorway or . . . the
signs are obstructing the front of the building. . .” Doc.
72-3, Exhibit C, at p. 60. In response to questioning
by a Council member, Commander Donaldson
acknowledged that, prior to the enactment of the
Ordinance, the City already had laws on the books
that it could rely upon to arrest and prosecute
individuals obstructing traffic, passageways, and
doorways. Doc. 74 ¶ 134; Doc. 82 ¶ 134. Commander
Donaldson explained, however, that those laws were
not as effective as a buffer zone in deterring those who
attempted to “block” patients from entering the
downtown Planned Parenthood by obstructing their

49a
passage before they reached the front door of the
building. Doc. 72-3, Exhibit C, at p. 54 (“What I am
saying is there are laws currently on the book that
would address obstructing traffic or passageways or
highway. A number of times what the complaints are
at the 933 Liberty Avenue is that they are obstructing
the access to the clinic itself. Now there are currently
laws for obstructing the doorway, but what this would
do is it would set a 15-foot parameter [sic]. So it would
be clearly defined. It wouldn’t be in front of the
obstructing the door per say [sic], but you couldn’t be
within 15 feet of it. I think it would be along the same
lines of either obstructing someone’s driveway or
blocking someone’s driveway. They are two clearly
different points. One it makes it difficult to get into
your driveway. The other one it makes it impossible
to get into your driveway.”).
Following these hearings, the City Council passed
the Ordinance and the Mayor signed it into law. Doc.
71 ¶ 26; Doc. 79 ¶ 26.
3. Plaintiffs’ “Sidewalk Counseling”
Plaintiffs regularly engage in anti-abortion
activities outside the buffer zone at the downtown
Planned Parenthood. Doc. 71 ¶ 44; Doc. 79 ¶ 44. Their
advocacy takes the form of “sidewalk counseling,”
through which they “seek to have quiet conversations
and offer assistance and information about options
available . . . other than abortion to people who are
about to enter or who exit the facility.” Doc. 71 ¶ 46;
Doc. 79 ¶ 46. Plaintiff Nikki Bruni is the local head of
a group participating in the “Forty Days for Life”
movement, a global anti-abortion campaign whose
self-described mission is “to bring together the body of
Christ in a spirit of unity during a focused 40[-]day

50a
campaign of prayer, fasting, and peaceful activism,
with the purpose of repentance, to seek God’s favor to
turn hearts and minds from a culture of death to a
culture of life, thus bringing an end to abortion.” Doc.
71 ¶ 45; Doc. 79 ¶ 45. Ms. Bruni began sidewalk
counseling in early 2010. Doc. 74 ¶ 25; Doc. 82 ¶ 25.
Plaintiff Julie Cosentino began sidewalk counseling
outside the downtown Planned Parenthood in July
2014, generally going to the clinic on Saturdays. Doc.
71 ¶ 49; Doc. 79 ¶ 49. Plaintiff Cynthia Rinaldi began
sidewalk counseling outside the downtown Planned
Parenthood approximately 5 to 6 years ago. Doc. 74 ¶
56; Doc. 82 ¶ 56. Plaintiff Kathleen Laslow began
sidewalk counseling outside the downtown Planned
Parenthood approximately three years ago. Doc. 74 ¶
73; Doc. 82 ¶ 73. Patrick Malley began sidewalk
counseling in 2010 or 2011, and typically goes to the
downtown Planned Parenthood facility on Tuesdays
and Fridays. Doc. 74 ¶¶ 91, 93; Doc. 82 ¶¶ 91, 93.
None of the Plaintiffs in this case has experience or
knowledge about conditions outside the downtown
Planned Parenthood before the passage of the
Ordinance in 2005 or the modified Ordinance in 2009.
Doc. 71 ¶ 11; Doc. 79 ¶ 11.
Abortions are performed at the downtown
Planned Parenthood on Tuesdays, Fridays and
Saturdays. Doc. 71 ¶ 52; Doc. 79 ¶ 52. On those days,
between two to four individuals engage in some form
of sidewalk counseling or demonstrating outside of
the buffer zone. Doc. 71 ¶¶ 54-55; Doc. 79 ¶¶ 54-55.
During Forty Days for Life and other nationally
organized clinic protest campaigns, this number may
increase to as many as 35 to 40. Doc. 71 ¶ 56; Doc. 79
¶ 56. Plaintiffs admit that, outside the 15-foot buffer
zone, Plaintiffs and their allies are free to walk

51a
anywhere on the sidewalk and engage in advocacy,
attempting to speak to people who are going to the
clinic. Doc. 71 ¶ 68; Doc. 79 ¶ 68. The Ordinance also
does not prohibit a willing listener from: (1) slowing
down or stopping while approaching the buffer zone
in order to listen or talk to Plaintiffs, Doc. 71 ¶ 69;
Doc. 79 ¶ 69; (2) exiting the zone in order to listen or
talk to Plaintiffs, Doc. 71 ¶ 70; Doc. 79 ¶ 70; or
(3) standing inside the buffer zone and having a
conversation with Plaintiffs standing a few inches or
feet away, outside the zone, Doc. 71 ¶ 71; Doc. 79
¶ 71. Plaintiffs also admit that the Ordinance does not
prohibit them from: (1) attempting to engage a person
leaving the clinic in a discussion, as that person walks
down the sidewalk, Doc. 71 ¶ 72; Doc. 79 ¶ 72;
(2) beginning a conversation with a person and
continuing that conversation outside the buffer zone
for as long as they want, Doc. 71 ¶ 73; Doc. 79 ¶ 73; or
(3) walking with a willing listener to a calmer or
quieter location, anywhere outside the buffer zone, to
talk further. Doc. 71 ¶ 74; Doc. 79 ¶ 74.
Several of the Plaintiffs testified or declared that
they have had trouble communicating with people
outside the downtown Planned Parenthood because of
street or traffic noise. Doc. 71 ¶¶ 89, 90; Doc. 79
¶¶ 89, 90. Plaintiff Cosentino testified, however, she
has never had trouble communicating with or trying
to get a message to people because of street noise or
traffic noise. Doc. 71 ¶ 90; Doc. 79 ¶ 90. Plaintiffs also
cite no specific instances where someone has told any
of Plaintiffs that they were unable to hear Plaintiffs’
message because of traffic noise or the distance due to
the buffer zone. Doc. 71 ¶ 91; Doc. 79 ¶ 91.
Furthermore, at the preliminary injunction hearing
in December 2014, Plaintiff Bruni admitted she had

52a
no evidence that the buffer zone impeded her from
talking with willing listeners. Doc. 71 ¶ 58; Doc. 79
¶ 58 (citing Hr’g Tr. 32 (“THE COURT: . . . What
evidence do you have that people who desire to engage
in close conversation with you are not doing so
because of the buffer zone? THE WITNESS: I don’t
have any.”)). Plaintiff Bruni also testified that,
between 2009 and the date the Complaint was filed,
she has been able to communicate her message to the
intended recipients “occasionally.” Doc. 71 ¶ 59;
Doc. 79 ¶ 59. She testified that, rarely, women inside
the buffer zone will come out of the zone to have a
conversation with her. Doc. 71 ¶ 60; Doc. 79 ¶ 60. She
admits that sometimes women going to the clinic
refuse to talk to her, no matter what her distance from
them. Doc. 71 ¶ 61; Doc. 79 ¶ 61.
Since approximately 2011, Plaintiff Bruni has
been keeping a log of instances where people
approaching the Planned Parenthood clinic have
reportedly been persuaded not to have abortions. Doc.
71 ¶ 62; Doc. 79 ¶ 62. The log is titled “Log of Saved
Babies from abortion at Planned Parenthood, 933
Liberty Avenue, Pittsburgh.” Doc. 71 ¶ 62; Doc. 79
¶ 62. This log records dozens of instances of sidewalk
counselors not only communicating their message to
others but reportedly persuading people to not have
abortions. Doc. 71 ¶ 63; Doc. 79 ¶ 63. Plaintiff Bruni
has also “taken a few women to the Crisis Pregnancy
Center” after encountering them at the Planned
Parenthood clinic. Doc. 71 ¶ 67; Doc. 79 ¶ 67.
Likewise, Plaintiff Rinaldi has “often” accompanied
women “to nearby Catholic Charities, in order to
connect them to resources such as adoption
assistance, monetary assistance, food, education, and
day care.” Doc. 71 ¶¶ 51, 65; Doc. 79 ¶¶ 51, 65; Doc.

53a
74 ¶ 58; Doc. 82 ¶ 58.
B. Procedural History
By way of background and procedural history, at
the time the Pittsburgh City Council enacted the
Ordinance, it contained the following two provisions:
§ 623.03 – EIGHT FOOT PERSONAL
BUBBLE ZONE. No person shall knowingly
approach another person within eight (8) feet
of such person, unless such other person
consents, for the purpose of passing a leaflet
or handbill to, displaying a sign to, or
engaging in oral protest, education or
counseling with such other person in the
public way or sidewalk area within a radius of
one hundred (100) feet from any entrance door
to a hospital and/or medical office/clinic.
§ 623.04 – FIFTEEN FOOT BUFFER ZONE.
No person or persons shall knowingly
congregate, patrol, picket or demonstrate in a
zone extending fifteen (15) feet from any
entrance to the hospital and or health care
facility. This section shall not apply to police
and public safety officers, fire and rescue
personnel, or other emergency workers in the
course of their official business, or to
authorized security personnel employees or
agents of the hospital, medical office or clinic
engaged in assisting patients and other
persons to enter or exit the hospital, medical
office, or clinic.
Pittsburgh, Pa., Code tit. 6, §§ 623.03-04.
Shortly after taking effect, the Ordinance was
challenged as, inter alia, facially invalid under the

54a
First Amendment. Brown v. City of Pittsburgh, 543 F.
Supp. 2d 448 (W.D. Pa. 2008) (Fischer, J.). The
district court denied the plaintiffs’ Motion for a
Preliminary Injunction and dismissed several counts
of the complaint. Id. The plaintiffs appealed, and the
Court of Appeals for the Third Circuit affirmed in
part, reversed in part and dismissed in part. Brown v.
City of Pittsburgh, 586 F.3d 263 (3d Cir. 2009). The
Court of Appeals held that the eight foot bubble zone
(the “bubble zone”) and the fifteen foot buffer zone
(the “buffer zone”) each individually passed
constitutional muster, but when considered in
combination, imposed a facially unconstitutional
burden on free speech. Id. The Court of Appeals
remanded the case back to district court for further
proceedings. Id.
Post-remand, the district court ordered that the
bubble zone provision at section 623.03 be
“permanently enjoined in toto.” Injunction at ¶ 1.
Section 623.04, creating the fixed buffer zone,
remained, although the Injunction required that the
buffer zone provision be construed to prohibit “all
persons” from picketing and demonstrating within
the boundaries of the buffer zone. Id. at ¶ 2; see
Brown, 586 F.3d at 275 (“We find § 623.04 amenable
to the content-neutral construction urged by the City,
that is, an interpretation prohibiting even the
exempted classes of persons from ‘picketing or
demonstrating’ within the buffer zone.”) (internal
alterations omitted). Accordingly, the exemption for
“police and public safety officers, fire and rescue
personnel, or other emergency workers in the course
of their official business, or to authorized security
personnel employees or agents of the hospital,
medical office or clinic engaged in assisting patients

55a
and other persons to enter or exit the hospital,
medical office, or clinic” does not permit those persons
to engage in “any action, activity or signage in the
form of picketing or demonstrating.” Injunction at ¶
2. The Injunction further requires that the City
provide Pittsburgh City Police with oral and written
training materials regarding enforcement of the
Ordinance. Id. at ¶ 3. Finally, as discussed, the
Injunction provides that the City must “clearly mark
the boundaries of any 15 foot buffer zone in front of
any hospital, medical office or clinic prior to the
enforcement of the Ordinance.” Id. at ¶ 5.
On June 26, 2014, the Supreme Court issued its
decision in McCullen v. Coakley, striking down the
amended Massachusetts Reproductive Health Care
Facilities Act (the “MRHCA”) as insufficiently
narrowly tailored to achieve the Commonwealth’s
legitimate government interests. 134 S.Ct. 2518
(2014). The MRHCA, as amended, “ma[de] it a crime
to knowingly stand on a ‘public way or sidewalk’
within 35 feet of an entrance or driveway to any
‘reproductive health care facility,’ defined as ‘a place,
other than within or upon the grounds of a hospital,
where abortions are offered or performed.” Id. at 2522.
On September 4, 2014, Plaintiffs filed a complaint
(the “Complaint”) lodging both facial and as applied
challenges to the Ordinance, in light of McCullen.
Compl. at ¶ 1 (Doc. 1). Plaintiffs also sought a
preliminary injunction to prevent the City from
enforcing the Ordinance against them. The City
responded by filing a motion to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(6). Following a
hearing on the preliminary injunction motion, this
Court granted the City’s motion to dismiss Plaintiffs’
facial challenges to the Ordinance under the First

56a
Amendment and the Due Process Clause of the
Fourteenth Amendment. (Doc. 28). In addition, the
Court denied the Plaintiffs’ motion for a preliminary
injunction. (Id.) After the District Court’s ruling, the
Plaintiffs moved to voluntarily dismiss their asapplied challenges to the Ordinance, their claim
under the Equal Protection Clause, and their claim of
selective enforcement against the Mayor of
Pittsburgh. (Doc. 29).
Plaintiffs appealed the Court’s dismissal of their
First Amendment and Due Process claims against the
City to the Court of Appeals for the Third Circuit.1 On
June 1, 2016, the Third Circuit vacated the dismissal
of Plaintiffs’ First Amendment claims “so that they
may be considered after appropriate development of a
factual record.” Bruni v. City of Pittsburgh, 824 F.3d
353, 357 (3d Cir. 2016). The Court of Appeals held
that this Court erred in relying on materials
presented outside the pleadings—including testimony from the preliminary injunction hearing—in
dismissing the Complaint, and stated that, at the
motion to dismiss stage, the Court must credit
Plaintiffs’ allegations that, inter alia, the Ordinance
“prohibits Plaintiffs and others from effectively
reaching their intended audience,” that “[t]he zones
created by the Ordinance make it more difficult [for
the] Plaintiffs to engage in sidewalk counseling,
prayer, advocacy, and other expressive activities,”
and that the Ordinance “will cause conversations
between the Plaintiffs and those entering or exiting
the facilities to be far less frequent and far less
successful.” Id. at 368. The Court of Appeals explained
Plaintiffs did not appeal the Court’s denial of their preliminary
injunction motion.

1

57a
that, “taking those allegations as true, the burden on
the Plaintiffs’ speech is akin to that imposed upon the
petitioners in McCullen,” and thus the City must
satisfy the narrow tailoring analysis by demonstrating “either that substantially less-restrictive
alternatives were tried and failed, or that the
alternatives were closely examined and ruled out for
good reason.” Id. at 370.
Following remand, the parties conducted
discovery on the relevant issues, and, on June 30,
2017, filed the instant cross motions for summary
judgment, which are now ripe for adjudication. (Docs.
68 & 69).
C. Analysis
1. First Amendment Free Speech and Free Press
Claim
The Court will first consider Plaintiffs’ facial
challenges to the Ordinance under the Free Speech
and Free Press Clauses of the First Amendment.2
“The First Amendment, applicable to the States
through the Fourteenth Amendment, prohibits the
enactment of laws ‘abridging the freedom of speech.’”
Reed v. Town of Gilbert, Ariz., 135 S. Ct. 2218, 2226
(2015) (quoting U.S. Const., Amdt. 1). The animating
purpose behind the First Amendment “lies [in] the
principle that each person should decide for himself
or herself the ideas and beliefs deserving of
The Court applies the same analysis to Plaintiffs’ challenges
under the Free Speech and Free Press Clauses. As the Court of
Appeals held in Bruni, “Plaintiffs’ free press claim is, in this
context, properly considered a subset of their broader free speech
claim, given that the Freedom of the Press Clause and the Free
Speech Clause both protect leafleting from government
interference.” Bruni, 824 F.3d at 373.
2

58a
expression, consideration, and adherence.” Turner
Broad. Sys., Inc. v. F.C.C., 512 U.S. 622, 641 (1994).
Thus, “a government, including a municipal government vested with state authority, ‘has no power to
restrict expression because of its message, its ideas,
its subject matter, or its content.’” Reed, 135 S. Ct. at
2226 (quoting Police Dept. of Chicago v. Mosley, 408
U.S. 92, 95 (1972)). “Content-based laws—those that
target speech based on its communicative content—
are presumptively unconstitutional and may be
justified only if the government proves that they are
narrowly tailored to serve compelling state interests.”
Id. (citations omitted). “In contrast, [laws] that are
unrelated to the content of speech are subject to an
intermediate level of scrutiny, [ ] because in most
cases they pose a less substantial risk of excising
certain ideas or viewpoints from the public dialogue.”
Turner Broad. Sys., 512 U.S. at 642 (citing Clark v.
Community for Creative Non–Violence, 468 U.S. 288,
293 (1984)).
i.

Whether the Ordinance is Content-Based
or Content-Neutral

In Bruni, the Third Circuit instructed this Court
on remand “to examine Reed and its effect on the
content-neutrality analysis to decide whether that
case compels a break from Brown’s holding that the
Ordinance is a content-neutral restriction on speech.”
Bruni, 824 F.3d at 365 n.14. Plaintiffs argue that the
United States Supreme Court’s holding in Reed
requires that strict scrutiny be applied to the
Ordinance because it prohibits certain types of
speech—congregating, patrolling, picketing, and
demonstrating—while permitting other speech such
as “asking for directions” or “talking about the
weather.” Doc. 73 at 19-20. The Court disagrees.

59a
In Hill v. Colorado, the Supreme Court found that
a statute which prohibits engaging in “oral protest,
education, or counseling” with individuals attempting
to enter a health care facility was content-neutral,
despite not restricting casual speech such as saying
“good morning” in the same area. Hill, 530 U.S. at
724. The Hill Court found the statute in question
content-neutral because its “restrictions appl[ied]
equally to all demonstrators, regardless of viewpoint,
and the statutory language ma[de] no reference to the
content of the speech.” Id. at 719-20. The Court
acknowledged that “the content of the oral statements
made by an approaching speaker must sometimes be
examined to determine whether the knowing
approach is covered by the statute,” but found that “it
is unlikely that there would often be any need to know
exactly what words were spoken in order to determine
whether sidewalk counselors are engaging in oral
protest, education, or counseling rather than pure
social or random conversation” and that a “cursory
examination” did not render the statute facially
content-based.” Id. at 721-22. Citing to Hill, the Court
of Appeals in Brown held that the Ordinance at issue
in this case is content-neutral. Brown, 586 F.3d at
273, 275.
Contrary to Plaintiffs’ argument, Reed does not
change this analysis. As an initial matter, Reed did
not overturn its prior holdings in Hill, either
expressly or implicitly, and thus Hill remains good
law. Indeed, the Reed Court affirms Hill’s central
holding that government can still enact reasonable
content-neutral time, place and matter restrictions.
135 S.Ct. at 2228-29. Specifically, Justice Alito, in a
concurrence joined by Justices Kennedy and
Sotomayor, listed a variety of content-neutral sign

60a
restrictions that would be permissible under the
decision. Id. at 2233. Most notably, Justice Alito
recognized that content-neutral location restrictions
also are still permitted. Id.
Furthermore, the Ordinance at issue here is
entirely distinguishable from the one at issue in Reed,
which explicitly distinguished signs based upon
content. Id. at 2224-25. As the Reed Court explained,
the Town of Gilbert’s complex Sign Code exempted
twenty-three categories of signs—based on their
content—from the town’s general ban on posting
outdoor signs, and made additional content
distinctions among the categories of exempted signs,
including several content-based distinctions among
event-related signs. Id. In particular, the Sign Code
gave different amounts of leeway to event-related
signs depending on whether the event was, for
example, political, commercial, construction-related,
“special-event,” religious or charitable. Political signs,
including any “temporary sign designed to influence
the outcome of an election called by a public body,”
enjoyed relatively generous time limits; they could be
posted for up to sixty days before a primary election,
and, if the candidate to which they referred advanced
to the general election, they could remain posted until
fifteen days following the general election. Id. at 2225.
In contrast, the Sign Code gave least favorable
treatment to the kind of sign that the petitioner
church in Reed sought to use: “Temporary Directional
Signs Relating to a Qualifying Event.” Id. Such a sign,
defined as one that directed people to any “assembly,
gathering, activity, or meeting sponsored, arranged,
or promoted by a religious, charitable, community
service, educational, or other similar non-profit
organization,” could only be displayed for twelve

61a
hours before the event, and had to be removed within
an hour after the event. Id.
The Reed Court explained:
The restrictions in the Sign Code that apply
to any given sign thus depend entirely on the
communicative content of the sign. If a sign
informs its reader of the time and place a book
club will discuss John Locke’s Two Treatises
of Government, that sign will be treated
differently from a sign expressing the view
that one should vote for one of Locke’s
followers in an upcoming election, and both
signs will be treated differently from a sign
expressing an ideological view rooted in
Locke’s theory of government. More to the
point, the Church’s signs inviting people to
attend its worship services are treated
differently from signs conveying other types of
ideas.
Id. at 2227.
The Supreme Court emphasized that the Sign
Code’s distinctions did not merely “hinge on ‘whether
and when an event is occurring,’” and did not just
“permit citizens to post signs on any topic whatsoever
within a set period leading up to an election.” Id. at
2231. Rather, the Code impermissibly required town
officials to examine each sign to determine whether,
for example, it was “designed to influence the outcome
of the election” and so had to come down within fifteen
days of the election, or was more generally
“ideological,” in which case no time limit applied. Id.
at 2231. Pittsburgh’s Ordinance does no such thing.
The Ordinance does not advantage one message over
another based upon content. Rather, as the Injunction

62a
specifies, the buffer zone applies equally to all
messages. Furthermore, as the Hill Court held,
members of law enforcement can identify congregating, patrolling, picketing, and demonstrating without
knowing or needing to ascertain the content of the
speech. See Hill, 530 U.S. at 721. Because “congregating, patrolling, picketing, and demonstrating” all
involve obvious visual manifestations, law enforcement can determine whether the Ordinance is being
violated by merely observing individuals within the
restricted zones.
For these reasons, this Court continues to hold, as
the Court of Appeals did in Brown, that the
Pittsburgh Ordinance is a content-neutral time, place
or manner restriction upon speech.
ii. Application of Intermediate Scrutiny
Because the Ordinance is content-neutral, it is
subject to intermediate scrutiny. As the McCullen
Court explained:
[f]or a content-neutral time, place or manner
regulation to be narrowly tailored, it must not
‘burden substantially more speech than is
necessary to further the government’s
legitimate interests.’ Such a regulation,
unlike a content-based restriction of speech,
‘need not be the least restrictive or least
intrusive means of’ serving the government’s
interests. But the government still ‘may not
regulate expression in such a manner that a
substantial portion of the burden on speech
does not serve to advance its goals.’
134 S.Ct. at 2535 (quoting Ward, 491 U.S. at 798-799);
see also Brown, 586 F.3d at 276-77 (“As a content-

63a
neutral time, place and manner regulation, the buffer
zone is constitutionally valid if it is narrowly tailored
to serve the government’s significant interest and
leaves open ample alternative channels of
communication. The zone may be narrowly tailored
even if it is not the least restrictive or least intrusive
means of serving those interests. . . . ‘Government
may not regulate expression in such a manner that a
substantial portion of the burden on speech does not
serve to advance its goals.’”) (citing Hill, 530 U.S. at
725-26).
Plaintiffs do not dispute that the government’s
interests in enforcing the Ordinance are significant.
See Bruni, 824 F.3d at 368 (noting that “Plaintiffs in
the present case do not dispute the significance of the
City’s interests,” such as “ensuring patients have
‘unimpeded access to medical services,’ eliminating
the ‘neglect’ of other law enforcement needs, and
letting the City provide ‘a more efficient and wider
deployment of its services.’ Pittsburgh Pa., Code §
623.01.”) As the Supreme Court repeatedly has held,
“ensuring public safety and order, promoting the free
flow of traffic on streets and sidewalks, protecting
property rights, and protecting a woman’s freedom to
seek pregnancy-related services” are significant
governmental interests. McCullen, 134 S.Ct. at 2535
(quoting Schenck v. Pro–Choice Network, 519 U.S.
357, 376 (1997), then citing Madsen, 512 U.S. at 767–
68)). Not only does the government have “undeniably
significant interests in maintaining public safety on
those same streets and sidewalks, as well as in
preserving access to adjacent healthcare facilities,”
but “[t]he buffer zones clearly serve these interests.”
McCullen, 134 S.Ct. at 2535, 2541. Thus, the only
issue in dispute is whether the City’s regulation

64a
“burden[s] substantially more speech than is
necessary to further the government’s legitimate
interests.” McCullen, 134 S. Ct. at 2535 (quoting
Ward, 491 U.S. at 799).
In Bruni, the Majority and Judge Fuentes,
concurring, agreed that “that the degree of burden on
speech [by Pittsburgh’s buffer zone] is less than that
in McCullen, because the zones in Massachusetts
were larger, applied state-wide, and limited any entry
into the prohibited areas.” Bruni, 824 F.3d at 368
n.15; see also id. at 382-385. The Majority, however,
declined to “contrast[] the two laws in lengthy dicta”
because the Majority and Concurrence agreed that
the allegations, taken as true, survived dismissal. Id.
at n.15. At the summary judgment stage, however,
the Court need not accept the parties’ conclusory
allegations as true. Schoch v. First Fidelity Bancorporation, 912 F.2d 654, 657 (3d Cir. 1990). Rather, the
Court must consider the entire evidentiary record,
crediting the evidence presented by the non-moving
party and drawing all justifiable inferences in its
favor. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
255 (1986)). Here, the Court finds that the undisputed
evidence of record demonstrates that the Ordinance,
unlike the ordinance at issue in McCullen, imposes
only a minimal burden on Plaintiffs’ speech.
The Court first notes that the buffer zone in this
case is considerably smaller that the buffer zone at
issue in McCullen. Although the Bruni Court clarified
that this difference in size is not dispositive, the
Majority affirmed that size is “one feature” in
determining “the burden on speech that such zones
impose.” 824 F.3d at 368. The McCullen Court noted
that the Massachusetts legislature pursued their
interests “by the extreme step of closing a substantial

65a
portion of a traditional public forum to all speakers.”
McCullen, 134 S.Ct. at 2541 (emphasis added).
Specifically, the Court noted that MRHCA authorized
overlapping zones around entrances and driveways
creating speech-free areas as much as 93 feet and 100
feet long, respectively. Id. at 2527-28. In contrast,
here, the Ordinance does not close a “substantial
portion” of the public sidewalk. Rather, as Judge
Fuentes correctly calculated in his Concurrence, “the
radius of the Pittsburgh buffer is less than half the
radius of the Massachusetts buffer, and creates a zone
whose total area is less than one-fifth the area of the
Massachusetts
zone.
(Put
differently,
the
Massachusetts zone was 2.3 times longer, and its total
area was 5.4 times larger.).” Bruni, 824 F.3d at 382.
Furthermore, unlike in McCullen, there is
undisputed evidence in this case that Plaintiffs are
able to communicate their anti-abortion message
using their preferred form of expression—i.e.,
sidewalk counseling. The McCullen Court noted that,
at certain locations, the MRHCA forced sidewalk
counselors to cross the street from the abortion clinics
where they sought to counsel — silencing their
conversational speech and foreclosing their ability to
place leaflets close to patients’ hands. 134 S.Ct. at
2527-28. Here, in contrast, Plaintiffs sidewalk counsel
immediately outside the boundary of the buffer zone
– they are not pushed to the other side of the street.
Doc. 71 ¶ 68; Doc. 79 ¶ 68. Nonetheless, several
Plaintiffs state that the buffer zone “exacerbates the
difficulty of engaging in close, one-on-one
conversations outside the Planned Parenthood
facility due to ‘loud’ street noise along Liberty
Avenue,” and that they must “raise their voice or even
shout to be heard by people 15 feet or more away.”

66a
Doc. 74 at ¶¶ 96, 165-166. However, Plaintiff
Cosentino testified at her deposition she has never
had trouble communicating or trying to get a message
to people because of street noise or traffic noise. Doc.
71 ¶ 90; Doc. 79 ¶ 90. Furthermore, at the preliminary
injunction hearing in December 2014, Plaintiff Bruni
admitted she had no evidence that the buffer zone
impeded her from talking with willing listeners. Doc.
71 ¶ 58; Doc. 79 ¶ 58 (citing Hr’g Tr. 32 (“THE
COURT: . . . What evidence do you have that people
who desire to engage in close conversation with you
are not doing so because of the buffer zone? THE
WITNESS: I don’t have any.”)). Plaintiffs also cite no
specific instances where someone has told any of
Plaintiffs that they were unable to hear Plaintiffs’
message because of traffic noise or the distance due to
the buffer zone. Doc. 71 ¶ 91; Doc. 79 ¶ 91. Plaintiffs
further admit that, rather than yell at a potential
patient arriving from the other side of the buffer zone,
they can walk through the buffer zone in an attempt
to reach that person on the other side. Doc. 71 ¶ 87;
Doc. 79 ¶ 87. Thus, even crediting Plaintiffs’
testimony, the Court finds that Plaintiffs have not
demonstrated that their ability to engage in one-onone conversations with patients is substantially
burdened by the presence of the buffer zone.3

Plaintiffs further contend that, when relegated to any distance
away from the entrance to the downtown Planned Parenthood,
it becomes more difficult for them to identity who is a patient
and who is not. Doc. 74 at ¶ 161. However, as the Court
previously found, this is not a burden on their right to free
speech. If anything, Plaintiffs engage in more speech, not less, in
an effort to disseminate their message to all potential patients.
A right to engage in normal conversation and leaflet on a public

3

67a
Moreover, Plaintiffs’ own records reflect not only
that they are able to communicate with patients, but,
in some instances, have accomplished their intended
goal of persuading women not to have abortions. Doc.
71 ¶¶ 62-67; Doc. 79 ¶¶ 62-67. Plaintiffs speculate
that they would be able to communicate with more
women, and perhaps persuade more of them not to
have abortions, if they could walk alongside patients
all the way to and from the entrance of the clinic. But
Plaintiffs offer no concrete evidence to support this
claim. Unlike in McCullen, where the plaintiffs
engaged in sidewalk counseling both before and after
the MRHCA went into effect and stated that the
number of people they reached sharply declined after
the larger buffer zones were imposed, Plaintiffs admit
that they did not engage in sidewalk counseling at the
downtown Planned Parenthood before the Ordinance
was passed and thus have no basis to compare the
efficacy of their speech with and without a buffer
zone. Doc. 71 ¶ 11; Doc. 79 ¶ 11. Plaintiffs further
admit that they have no power or right to force
unwilling listeners to engage in conversation with
them. Thus, the fact that many people entering and
exiting the clinic do not wish to speak to Plaintiffs or
take literature from them is not evidence that the
Ordinance substantially limits Plaintiffs’ speech but
rather, more likely, that these individuals simply do
not wish to engage with Plaintiffs.4 See Hill, 530 U.S.
sidewalk does not equate to a right to know if those with whom
you communicate are, indeed, your target audience.
For instance, Plaintiff Bruni testified that, on some occasions,
people inside the buffer zone who observe sidewalk counselors
offering them literature reach out their hands to receive such
literature, expecting the sidewalk counselors to come to them.
Doc. 74 ¶ 167. Ms. Bruni speculates that, because the sidewalk

4

68a
at 718 (“[N]o one has a right to press even ‘good’ ideas
on an unwilling recipient.”) (quoting Rowan v. United
States Post Office Dept., 397 U.S. 728, 738 (1970)).
In short, the undisputed evidence in this case
demonstrates that the Ordinance places only a
minimal burden on Plaintiffs’ First Amendment free
speech rights.
iii. The City’s Consideration of Less Restrictive Alternatives
As discussed, the Court of Appeals in Bruni held
that Plaintiffs had adequately alleged in their
Complaint that the Ordinance posed a “significant
burden on speech.” Bruni, 824 F.3d at 369. Thus, the
Third Circuit found that “the City has the same
obligation to use less restrictive alternatives to its
buffer zone as the Commonwealth of Massachusetts
had with respect to the buffer zone at issue in
McCullen.” Id. However, in light of this Court’s
finding, based on a more developed evidentiary
record, that the 15-foot buffer zone does not
substantially burden speech, the City does not have
this same obligation. As Judge Fuentes explains in
his Concurrence: “The adverb supplies the test: the
counselors cannot enter the buffer zone, people inside the buffer
zone could be less likely to take the sidewalk counselors’
literature. Id. Ms. Bruni admits, however, that there is nothing
preventing her from speaking to these individuals and
explaining to them that they have to walk outside the buffer zone
to receive the literature. Doc. 75, Exh. C, 41:24-42:5; 42:19-20.
She also admits there is no physical barrier preventing them
from walking outside the buffer zone. Id. Given Ms. Bruni’s
admission that patients interested in the literature could easily
walk outside the buffer zone to receive it, the Court can
reasonably infer that their decision not to do so reflects their lack
of interest in the material.

69a
operative question, in this case and others, is whether
the
proposed
alternatives
would
burden
substantially less speech while still furthering the
government’s interests.” Bruni, 824 F.3d at 379
(emphasis in original). Here, given the Court’s finding
that the Ordinance’s restriction on speech is minimal,
the Court finds that the alternatives considered in
McCullen are not, in fact, substantially lessrestrictive. Accordingly, the City has no obligation to
demonstrate that it tried—or considered and
rejected—any such alternatives.
However, even assuming, arguendo, that the City
had such an obligation, the Court finds that it has met
its burden. First, contrary to Plaintiffs’ contention,
the Court finds undisputed evidence in the record
that the City enacted the Ordinance to address an
“actual problem” in need of solving. Doc. 73 at 13
(citing United States v. Playboy Entm’t Grp., 529 U.S.
803, 823 (2000)). As discussed, during the City
Council meeting on December 7, 2005, the President
and CEO of Planned Parenthood of Western
Pennsylvania, Kimberly Evert, testified that the
number of complaints went up considerably after the
City stopped stationing police at the downtown
Planned Parenthood, explaining that between
February 2005 to November 2005, “there were 13
cases of aggressive pushing, shoving and hitting, and
30 complaints of harassing behavior that included
shoving literature into people’s pockets, hitting them
with signs and blocking their entrance into the
building.” Doc. 72-3, Exhibit C, at p. 8. Moreover,
Commander Donaldson of the Pittsburgh Police
Department testified that, while the City did not
arrest any protestors outside 933 Liberty Avenue
within the six months prior to the committee meeting,

70a
police had been summoned to that location 22 times
in that 6-month period. Doc. 74 ¶ 135; Doc. 82 ¶ 135;
Doc. 72-3, Exhibit C, at Pages 52-53. This evidence is
sufficient to justify the City’s passage of the
Ordinance. See Bruni, 824 F.3d at 370 (“[A]nalysis
under intermediate scrutiny affords some deference
to a municipality’s judgment in adopting a contentneutral restriction on speech.”).
Furthermore, the Court finds sufficient evidence
that the City “seriously considered and reasonably
rejected ‘different methods that other jurisdictions
have found effective.’” Bruni, 824 F.3d at 371 (citing
McCullen, 134 S.Ct. at 2539). Here, the legislative
record clearly shows that the City tried, and
considered and rejected, at least two alternative
measures prior to enacting the Ordinance. First, the
City Council considered Ms. Evert’s testimony that
the City had previously stationed police at the
downtown Planned Parenthood, but that this practice
had become too expensive in light of the City’s budget
problems. Doc. 72-3, Exhibit C, at p. 8. Second,
Commander Donaldson testified that the enforcement
of the City’s anti-obstruction laws would not be as
effective as a buffer zone in deterring those who
attempted to “block” patients from entering the clinic
by obstructing their passage before they reached the
front door of the building. Doc. 72-3, Exhibit C, at p.
54. After hearing testimony about these two
alternative measures (i.e., maintaining an overtime
police presence, and enforcing existing antiobstruction statutes), the City Council voted to adopt
the Ordinance. In doing so, the City Council implicitly
rejected the alternatives discussed, presumably for
the reasons stated on the record.
Plaintiffs argue that the City should have

71a
considered any number of other alternatives prior to
adopting the Ordinance, including targeted
injunctions and/or the enforcement of antiharassment statutes. Doc. 73 at 14-18. However, the
Bruni Court affirmed that the City need not
demonstrate that “it has tried or considered every less
burdensome alternative to its Ordinance.” Bruni, 824
F.3d at 371 (citing Ward, 491 U.S. at 800). To the
contrary, the Court of Appeals took pains to give
“repeated recognition of the broad principle of
deference to legislative judgments and our explicit
assurance that legislatures need not meticulously vet
every less burdensome alternative. . . .” Id. at n.18;
see also id. (“[W]e mean what we say.”). Furthermore,
as discussed, in light of the Court’s finding that the
current law burdens very little speech to begin with,
there is no reason to believe that any of these
alternative measures would burden substantially less
speech than does the current Ordinance.
For the reasons discussed above, the Court finds
that the Ordinance does not “burden substantially
more speech than is necessary to further [the City’s]
legitimate interests.” See McCullen, 134 S. Ct. at
2535. Accordingly, the Court will grant Defendants’
Motion for Summary Judgment, and deny Plaintiffs’
Motion for Summary Judgment, as to Plaintiffs’ facial
First Amendment Free Speech and Free Press claims.
2. Overbreadth Claim
Plaintiffs also argue that the Ordinance is facially
overbroad “because it authorizes the creation of zones
at non-abortion locations where the City does not
even claim there has been a justification for banning
speech.” Doc. 73 at 23.
A statute is overbroad when “a substantial

72a
number of its applications are unconstitutional,
judged in relation to the statute’s plainly legitimate
sweep.” Bruni, 824 F.3d at 374 (internal quotation
marks omitted). The Supreme Court has cautioned
that “[f]acial overbreadth has not been invoked when
a limiting construction has been or could be placed on
the challenged statute.” Broadrick v. Oklahoma, 413
U.S. 601, 613 (1973). In Hill, the Supreme Court
rejected the plaintiffs’ overbreadth challenge to a
Colorado statute that created floating buffer zones at
the entrances to health care facilities, finding “the
comprehensiveness of the statute [to be] a virtue, not
a vice, because it is evidence against there being a
discriminatory governmental motive.” Hill, 530 U.S.
at 731. The Brown Court relied on that holding in
finding that, to the extent that Brown brought a facial
overbreadth challenge, “her attack is foreclosed by
Hill.” 586 F.3d at 282 n. 21. As this Court previously
explained, the McCullen Court did not conduct an
overbreadth analysis, and thus Brown and Hill’s
application of the overbreadth doctrine remains good
law. Nevertheless, in Bruni, the Court of Appeals
found that it was premature to dismiss an
overbreadth claim “absent a well-supported
conclusion regarding the proper scope of the
Ordinance.” 824 F.3d at 374.
Following discovery, there remains no dispute as
to the scope of the Ordinance as modified by this
Court’s permanent injunction. As the City argues, the
Injunction requires a clear demarcation of any buffer
zones, and the City has demarcated only two such
buffer zones, both located at the entrances of
reproductive healthcare facilities. Doc. 74 ¶ 149; Doc.
82 ¶ 149. Plaintiffs cite no evidence that the City has
enforced or attempted to enforce the Ordinance at any

73a
other locations. Indeed, in their lawsuit, Plaintiffs
focus almost exclusively on a single buffer zone
located at the downtown Planned Parenthood. Thus,
the Court finds no evidence that, as limited by the
Injunction, the current Ordinance raises any
overbreath issue, and will grant summary judgment
to Defendants on this claim as well.
II. ORDER
For the reasons stated above, Defendants’ Motion
for Summary (Doc. 69) is GRANTED and Plaintiffs’
Motion for Summary Judgment (Doc. 68) is DENIED.
A judgment order pursuant to Federal Rule of Civil
Procedure 58 will follow.
IT IS SO ORDERED.
November 16, 2017

cc (via ECF email notification):
All Counsel of Record

s/Cathy Bissoon_____
Cathy Bissoon
United States District
Judge

74a
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 15-1755
NIKKI BRUNI; JULIE COSENTINO;
CYNTHIA RINALDI; KATHLEEN LASLOW;
PATRICK MALLEY,
Appellants
v.
CITY OF PITTSBURGH; PITTSBURGH CITY
COUNCIL; MAYOR OF PITTSBURGH
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. No. 2-14-cv-1197)
District Judge: Hon. Cathy Bissoon
Argued
November 6, 2015
Before: FUENTES, JORDAN, and VANASKIE,
Circuit Judges.
(Filed June 1, 2016)
__________________


75a
Matthew S. Bowman [ARGUED]
Alliance Defending Freedom
440 First St., NW – Ste. 600
Washington, DC 20001
David A. Cortman
Alliance Defense Fund
1000 Hurricane Shoals, N.E.
Bldg. D – Ste. 1100
Lawrenceville, GA 30043
Elissa M. Graves
Alliance Defending Freedom
15100 North 90th Street
Scottsdale, AZ 85260
Lawrence G. Paladin, Jr.
#6C 15 Duff Road
Pittsburgh, PA 15235
Counsel for Appellants
Michael E. Kennedy
Matthew S. McHale [ARGUED]
Lourdes Sanchez Ridge
City of Pittsburgh
Department of Law
414 Grant Street
313 City County Bldg.
Pittsburgh, PA 15219
Counsel for Appellees
Erek L. Barron
Whiteford Taylor & Preston
7501 Wisconsin Avenue
Ste. 700 West
Bethesda, MD 20814
Counsel for Amicus Curiae


76a

OPINION OF THE COURT
JORDAN, Circuit Judge.
This case puts at issue again an ordinance of the
City of Pittsburgh that prohibits certain speech
within fifteen feet of health care facilities. Plaintiffs
Nikki Bruni, Julie Cosentino, Cynthia Rinaldi,
Kathleen Laslow, and Patrick Malley engage in what
they call “sidewalk counseling” on the public sidewalk
outside of a Pittsburgh Planned Parenthood facility in
an effort, through close conversation, to persuade
women to forego abortion services. The Plaintiffs filed
suit in the United States District Court for the
Western District of Pennsylvania, claiming that the
Pittsburgh ordinance limiting their ability to
approach people near the Planned Parenthood
entrance violates their First and Fourteenth
Amendments rights. We previously upheld the City’s
so-called “buffer zone” ordinance against the same
kind of challenge in Brown v. City of Pittsburgh, 586
F.3d 263 (3d Cir. 2009). Despite that, the Plaintiffs
argue that the Supreme Court’s recent decision in
McCullen v. Coakley, 134 S. Ct. 2518 (2014) — which
struck down a similar Massachusetts state law — has
sufficiently altered the constitutional analysis to
compel a different result than we reached in Brown.
The District Court disagreed, hewing to our analysis
in Brown and thus largely dismissing the Plaintiffs’

77a
constitutional challenge to the Ordinance.1
We will vacate in part and affirm in part.
Considered in the light most favorable to the
Plaintiffs, the First Amendment claims are sufficient
to go forward at this stage of the litigation. The speech
at issue is core political speech entitled to the
maximum protection afforded by the First
Amendment, and the City cannot burden it without
first trying, or at least demonstrating that it has
seriously considered, substantially less restrictive
alternatives that would achieve the City’s legitimate,
substantial, and content-neutral interests. McCullen
teaches that the constitutionality of buffer zone laws
turns on the factual circumstances giving rise to the
law in each individual case — the same type of buffer
zone may be upheld on one record where it might be
struck down on another. Hence, dismissal of claims
challenging ordinances like the one at issue here will
rarely, if ever, be appropriate at the pleading stage.
Instead, factual development will likely be indispensable to the assessment of whether an ordinance is
constitutionally permissible. We express no view on
the ultimate merits of the Plaintiffs’ claims in this
case, but, following the guidance of McCullen, we will
vacate the dismissal of the First Amendment claims
so that they may be considered after appropriate
development of a factual record. Because the First
Amendment claims cover all of the Plaintiffs’ contentions, and the Fourteenth Amendment claim is simply
a recasting of free expression arguments, we will
affirm the dismissal of that claim.
As more fully noted herein, see infra 359 n.5, some of the
Plaintiffs’ claims were permitted to stand but the Plaintiffs have
since voluntarily dismissed them.
1

78a
I. BACKGROUND2
A. The Ordinance
On December 13, 2005, Pittsburgh’s City Council
adopted Ordinance No. 49, which added Chapter 623
to the Pittsburgh Code of Ordinances. That Chapter,
titled “Public Safety at Health Care Facilities,” went
into effect later in the month.
The part of the Ordinance that is now in dispute
is § 623.04, which establishes a “Fifteen-Foot Buffer
Zone.” It states that:
[n]o person or persons shall knowingly
congregate, patrol, picket or demonstrate in a
zone extending fifteen (15) feet from any
entrance to the hospital and or health care
facility. This section shall not apply to police
and public safety officers, fire and rescue
personnel, or other emergency workers in the
course of their official business, or to
authorized security personnel employees or
agents of the hospital, medical office or clinic
engaged in assisting patients and other
persons to enter or exit the hospital, medical
office, or clinic.
Pittsburgh Pa., Code § 623.04. Although the term
“health care facility” is not defined in the Chapter, a
“[m]edical
office/clinic”
is
defined
as
“an
Because the District Court dismissed the Plaintiffs’
Complaint in response to the City’s motion to dismiss under
Federal Rule of Civil Procedure 12(b)(6), in setting out the
factual background here, we accept as true all facts alleged in
the Complaint and draw all reasonable inferences in favor of the
Plaintiffs. Phillips v. Cty. of Allegheny, 515 F.3d 224, 231 (3d Cir.
2008).
2

79a
establishment providing therapeutic, preventative,
corrective, healing and health-building treatment
services on an out-patient basis by physicians,
dentists and other practitioners.” Id. § 623.02.
In adopting the buffer zone Ordinance, the City
Council also ratified a preamble, titled “Intent of
Council,” that described the goals the City sought to
accomplish:
The City Council recognizes that access to
Health Care Facilities for the purpose of
obtaining medical counseling and treatment
is important for residents and visitors to the
City. The exercise of a person’s right to protest
or counsel against certain medical procedures
is a First Amendment activity that must be
balanced against another person’s right to
obtain medical counseling and treatment in
an unobstructed manner; and
The City of Pittsburgh Bureau of Police has
been consistently called upon in at least two
(2) locations within the City to mediate the
disputes between those seeking medical
counseling and treatment and those who
would counsel against their actions so as to (i)
avoid violent confrontations which would lead
to criminal charges and (ii) enforce existing
City Ordinances which regulate use of public
sidewalks and other conduct;
Such services require a dedicated and
indefinite appropriation of policing services,
which is being provided to the neglect of the
law enforcement needs of the Zones in which
these facilities exist.

80a
The City seeks a more efficient and wider
deployment of its services which will help also
reduce the risk of violence and provide
unobstructed access to health care facilities
by setting clear guidelines for activity in the
immediate vicinity of the entrances to health
care facilities;
The Council finds that the limited buffer and
bubble zones outside of health care facilities
established by this chapter will ensure that
patients have unimpeded access to medical
services while ensuring that the First
Amendment rights of demonstrators to
communicate their message to their intended
audience is not impaired.
Id. § 623.01. Violations of the Ordinance are met with
graduated penalties, ranging from a $50 fine for a
first offense to a thirty-day maximum (and three-day
minimum) jail sentence for a fourth violation within
five years. Id. § 623.05. As originally passed, the
Ordinance also included an eight-foot “floating bubble
zone,” which established a 100-foot area around
clinics in which people could not be approached without their consent within eight feet “for the purpose of
passing a leaflet or handbill to, displaying a sign to,
or engaging in oral protest, education or counseling.”
Id. § 623.03.
The Ordinance was challenged in court shortly
after its passage. In Brown v. City of Pittsburgh, we
held that, although the fifteen-foot fixed buffer zone
and the eight-foot floating bubble zone were each on
their own constitutionally permissible, the combination of the two imposed a facially-unconstitutional
burden on free speech. 586 F.3d at 276, 281. On

81a
remand, the District Court issued an order
permanently enjoining enforcement of the eight-foot
floating bubble zone. Importantly for present
purposes, the order also required that the fifteen-foot
buffer zone be construed to prohibit “any person” from
“picket[ing] or demonstrat[ing]” within the fixed
buffer zone.3 (App. at 150a.) The Plaintiffs challenge
the constitutionality of the law as modified by the
permanent injunction.
B. Application of the Ordinance
Although the Ordinance applies, on its face, at all
hospitals and health care facilities in Pittsburgh, the
City has demarcated only two actual buffer zones,
both outside the entrances of facilities that provide
abortion services. The allegations in the Complaint
relate primarily to the Plaintiffs’ experiences at one of
those two locations — the Planned Parenthood facility
located at 933 Liberty Avenue. At the front of that
facility, a painted yellow semi-circle marks the buffer
zone boundary within which the Ordinance bans
demonstrating or picketing.
According to their Complaint, the Plaintiffs
“regularly engage in peaceful prayer, leafleting, sidewalk counseling, pro-life advocacy, and other peaceful
expressive activities” outside of that Planned
Parenthood location. (App. at 51a.) In their sidewalk
counseling, they “seek to have quiet conversations
and offer assistance and information to abortionminded women by providing them pamphlets
describing local pregnancy resources, praying, and ...
The order also required the City to provide training to the
Pittsburgh City Police concerning proper enforcement of the
Ordinance and to mark clearly the boundaries of any fixed buffer
zone.
3

82a
peacefully express[ing] this message of caring support
to those entering and exiting the clinic.” (App. at 58a.)
The City reads the Ordinance to prohibit sidewalk
counseling as a form of “demonstrating” and has
enforced the ban against those who, like the
Plaintiffs, would engage in counseling within the
buffer zone. The prohibition “make[s] it more difficult
[for the] Plaintiffs to engage in sidewalk counseling,
prayer, advocacy, and other expressive activities.”
(App. at 60a.) Because close, personal interaction is
“essential to [the Plaintiffs’] message,” as they wish to
be viewed as counselors, “rather than to merely
express [their] opposition to abortion or to be seen as
protesting” (App. at 60a-61a), the Ordinance
frustrates effective communication of their message.
The prohibition also interferes with the Plaintiffs’
activities because they “are often unable to
distinguish patients from passer[s]by at the distance
that the zones require [the] Plaintiffs to remain.”
(App. at 61a.)4
C. Procedural History
Less than two years ago, the Supreme Court
decided McCullen v. Coakley, 134 S. Ct. 2518 (2014),
which struck down a Massachusetts fixed buffer zone
In their Complaint, the Plaintiffs also describe specific
episodes that have occurred outside of the Liberty Avenue
Planned Parenthood, episodes in which their counseling was
interrupted. For example, Plaintiff Cosentino stated that on one
occasion a clinic escort “yelled loudly” at her while she was
speaking with a young woman outside of the buffer zone, and
multiple clinic employees then “surrounded the young woman”
and led her into the clinic. (App. at 58a-59a.) On another
occasion, Plaintiff Rinaldi stated that a security guard stifled her
speech outside of the buffer zone while she was discussing
adoption options with a young woman.
4

83a
statute as insufficiently narrowly tailored to achieve
the significant government interests asserted for it.
Soon thereafter, the Plaintiffs in this suit filed their
claims under 42 U.S.C. § 1983 against the City of
Pittsburgh, the Pittsburgh City Council, and the
Mayor of Pittsburgh. The Plaintiffs brought facial
challenges against the Ordinance under the First
Amendment’s Free Speech and Free Press Clauses,
and another facial challenge under the Due Process
Clause of the Fourteenth Amendment.5 They also
sought a preliminary injunction to prevent the City
from enforcing the Ordinance against them. The City
responded with a motion pursuant to Federal Rule of
Civil Procedure 12(b)(6) to dismiss the Complaint for
failure to state a claim.
The District Court held a hearing on the motion
for a preliminary injunction, at which the Court heard
testimony from Plaintiff Bruni and Ms. Kimberlee
Evert, the CEO and President of Planned Parenthood
of Western Pennsylvania. The parties also submitted
documentary evidence. The City submitted declarations from Evert and Ms. Paula Harris, a “clinic
escort” at the facility.6 The Plaintiffs submitted two
affidavits, one from Plaintiff Laslow and the other
The Plaintiffs’ Complaint also included as-applied
challenges, an Equal Protection claim, and a selective
enforcement claim against the Mayor of Pittsburgh, all of which
the District Court did not dismiss. After the District Court’s
ruling, the Plaintiffs moved to voluntarily dismiss those
remaining claims, which are, consequently, not before us on
appeal.
5

“A clinic escort is a volunteer who is trained to walk
alongside patients and their companions who want to be
accompanied as they approach or leave a health care facility.”
(App. at 152a.)
6

84a
from their counsel, Matthew Bowman.
The District Court granted the City’s motion to
dismiss the Plaintiffs’ facial challenges to the
Ordinance under the First Amendment and the Due
Process Clause of the Fourteenth Amendment.7 In
addition, the Court denied the Plaintiffs’ motion for a
preliminary injunction.
The Plaintiffs then filed this timely appeal. They
seek review only of the dismissal of their First
Amendment and Due Process claims against the City
and not the denial of their preliminary injunction
motion.
II. DISCUSSION8
A. Standard of Review
“[O]ur standard of review of a district court’s
dismissal under Federal Rule of Civil Procedure
12(b)(6) is plenary.” Taliaferro v. Darby Twp. Zoning
Bd., 458 F.3d 181, 188 (3d Cir. 2006). In considering
a Rule 12(b)(6) motion, courts must “accept all factual
allegations as true, construe the complaint in the
light most favorable to the plaintiff, and determine
whether, under any reasonable reading of the
complaint, the plaintiff may be entitled to relief.”
Fowler v. UPMC Shadyside, 578 F.3d 203, 210 (3d
Cir. 2009) (internal quotation marks omitted). While
“accept[ing] all of the complaint’s well-pleaded facts
as true,” the district court “may disregard any legal
The Court also dismissed all claims against the City
Council, which the Plaintiffs do not challenge in this appeal.
7

The District Court had subject matter jurisdiction under
28 U.S.C. § 1331; we exercise jurisdiction pursuant to 28 U.S.C.
§ 1291.
8

85a
conclusions.” Id. at 210-11.
In considering a motion to dismiss, the district
court is also bound not to “go beyond the facts alleged
in the Complaint and the documents on which the
claims made therein [are] based.” In re Burlington
Coat Factory Sec. Litig., 114 F.3d 1410, 1425 (3d Cir.
1997). The court may, however, rely upon “exhibits
attached to the complaint and matters of public
record.” Pension Benefit Guar. Corp. v. White Consol.
Indus., Inc., 998 F.2d 1192, 1196 (3d Cir. 1993). If
other “matters outside the pleadings are presented to
and not excluded by the court, the motion must be
treated as one for summary judgment under Rule 56.”
Fed. R. Civ. P. 12(d). When that occurs, “[a]ll parties
must be given a reasonable opportunity to present all
the material that is pertinent to the motion.” Id.9 “The
element that triggers the conversion [from a Rule
12(b)(6) dismissal motion into a Rule 56 motion for
summary judgment] is a challenge to the sufficiency
of the pleader’s claim supported by extra-pleading
material.” 5C Charles Alan Wright et al., Fed. Prac.
& Proc. Civ. § 1366 (3d ed.). “The reason that a court
must convert a motion to dismiss to a summary
judgment motion if it considers extraneous evidence
submitted by the defense is to afford the plaintiff an
opportunity to respond.” Pension Benefit. Guar. Corp.,
Although notice need not be express, we have
recommended that district courts provide express notice because
it “is easy to give and removes ambiguities.” In re Rockefeller Ctr.
Props., Inc. Sec. Litig., 184 F.3d 280, 288 n.11 (3d Cir. 1999). The
City’s motion to dismiss was styled only as a motion to dismiss
and made no reference to possible conversion into a summary
judgment motion. A review of the transcript of the motions
hearing verifies that neither the Court nor the parties ever
mentioned such a conversion.
9

86a
998 F.2d at 1196.
The District Court here based its decision to
dismiss not only upon the allegations in the
Complaint but also, it appears, upon testimony given
at the hearing and the supplemental declarations
filed by Harris, Evert, Laslow, and Bowman. Indeed,
in dismissing the Plaintiffs’ facial challenges to the
Ordinance, the Court seems to have based its decision
entirely on its analysis of the merits of the
preliminary injunction motion.10 Although it relied
upon extra-pleading materials, the Court never
discussed treating the motion as one for summary
judgment.
Thus before reaching the merits, we face a
difficulty. “We have previously stated that the label a
district court places on its disposition is not binding
on an appellate court.” Rose v. Bartle, 871 F.2d 331,
339-40 (3d Cir. 1989). Because the District Court
relied, at least in part, on materials presented outside
of the pleadings, “we are constrained ... to treat the
district court’s disposition of the matter pursuant to
Rule 56, and not Rule 12(b)(6).” Ford Motor Co. v.
Summit Motor Prods., Inc., 930 F.2d 277, 284 (3d Cir.
1991). But the Plaintiffs were not given the
“reasonable opportunity” to present additional
evidence as was their right under Rule 12(d). That
was error. “We have held that it is reversible error for
a district court to convert a motion under Rule
12(b)(6) ... into a motion for summary judgment
Specifically, the District Court engaged in a careful
analysis of the merits of the Plaintiffs’ preliminary injunction
motion, and then incorporated that analysis into a relatively
brief discussion of the motion to dismiss by saying only, “See
analysis supra.” (App. at 35a.)
10

87a
unless the court provides notice of its intention to
convert the motion and allows an opportunity to
submit materials admissible in a summary judgment
proceeding or allows a hearing.”11 Rose, 871 F.2d at
11 It is not enough that the Plaintiffs had an opportunity to
submit evidence in connection with the preliminary injunction
motion. Even if the parties understood that the City’s motion to
dismiss was being converted to a motion for summary judgment,
the standards governing a motion for a preliminary injunction
and a motion for summary judgment are entirely different, and
it cannot be assumed that a response to one was meant as a
response to the other. As the Plaintiffs point out, evidence was
offered only to support their request for a preliminary injunction,
and should not have been treated as their entire defense to an
improperly-converted summary judgment motion “without
giving [Plaintiffs] an opportunity to show ... that the City’s
evidence fails” to withstand proper scrutiny. (Reply Br. at 22.)
With no reflection of notice or an agreement to treat the record
developed for the preliminary injunction as being a full record
for summary judgment, conversion of the motion was not
justified. Moreover, the “undeveloped factual record” (App. at
22a) that the District Court determined was insufficient to
support a preliminary injunction was no better developed for
purposes of summary judgment.
Even had the District Court restricted its review to the
pleadings, it erred by directly equating the standard for
evaluating a preliminary injunction with the standard
applicable to a motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6). On a motion for a preliminary injunction, a
plaintiff bears the burden to show, among other things, “that he
is likely to succeed on the merits ... .” Ferring Pharms., Inc. v.
Watson Pharms., Inc., 765 F.3d 205, 210 (3d Cir. 2014) (citation
omitted). To withstand a motion to dismiss, on the other hand, a
plaintiff need only demonstrate that he “may be entitled to relief
under any reasonable reading of the complaint,” Mayer v.
Belichick, 605 F.3d 223, 229 (3d Cir. 2010), and “[t]he defendant
bears the burden of showing that no claim has been presented,”
Hedges v. United States, 404 F.3d 744, 750 (3d Cir. 2005). Given
the significant differences between those two standards, a
plaintiff’s failure to meet his burden on a motion for a

88a
342.
Nevertheless, the failure to follow the dictates of
Rule 12(d) is subject to a harmless error analysis and
may be excused if no prejudice to the plaintiffs would
result. Ford Motor Co., 930 F.2d at 284-85. “Thus,
even where the opportunity to submit pertinent
material is not given, a grant of summary judgment
for a defendant may be affirmed where there is no
state of facts on which plaintiff could conceivably
recover.” Id. at 285 (internal quotation marks
omitted). In our harmless error analysis, the
“standard of review ... is plenary: we may affirm if,
and only if, on the basis of the complaints filed by
these plaintiffs there was no set of facts which could
be proven to establish defendants’ liability.” Rose, 871
F.2d at 342. We therefore review the Complaint
against the motion to dismiss standard. Neither the
documentary nor the testimonial evidence submitted
below will be considered in assessing the merits of the
City’s motion to dismiss.12

preliminary injunction does not mean ipso facto that the
complaint fails to state a claim.
The amicus brief submitted by Planned Parenthood of
Western Pennsylvania and Pittsburgh Pro-Choice Escorts also
includes a considerable amount of evidence that purports to be
testimony taken by the Pittsburgh City Council during the
original 2005 hearing on whether to adopt the Ordinance. The
testimony may be significant, as it speaks to the alleged need for
the buffer zones and the alternatives employed by the City prior
to its enactment. But we cannot consider it in our review, as the
testimony would, again, effectively convert the motion to dismiss
into one for summary judgment. Moreover, it does not appear to
have been before the District Court and is not part of the record
in this case.
12

89a
B. Merits Analysis
On appeal, the Plaintiffs’ mount facial challenges
to the Ordinance under both the Free Speech and
Free Press Clauses of the First Amendment as
proscribing protected speech, and under the Due
Process Clause of the Fourteenth Amendment due to
the Ordinance’s allegedly vesting “unbridled
discretion” in City officials. (Opening Br. at 16.) A
facial challenge “seeks to vindicate not only [a
plaintiff’s] own rights, but those of others who may
also be adversely impacted by the statute in
question.” CMR D.N. Corp. v. City of Phila., 703 F.3d
612, 623 (3d Cir. 2013) (quoting City of Chi. v.
Morales, 527 U.S. 41, 55 n.22 (1999)). A successful asapplied challenge bars a law’s enforcement against a
particular plaintiff, whereas a successful facial
challenge results in “complete invalidation of a law.”
CMR D.N. Corp., 703 F.3d at 624. The distinction
between facial and as-applied constitutional
challenges, then, is of critical importance in
determining the remedy to be provided.
In evaluating a facial challenge we must look
beyond the application of an ordinance in the specific
case before us. To ultimately succeed on the merits, a
plaintiff theoretically has “to establish that no set of
circumstances exists under which [the ordinance]
would be valid, or that the [ordinance] lacks any
plainly legitimate sweep.” United States v. Stevens,
559 U.S. 460, 472 (2010) (internal citations and
quotation marks omitted). In the First Amendment
context, the Supreme Court has softened that
daunting standard somewhat, saying that a law may
also be invalidated on its face “if a substantial number
of its applications are unconstitutional, judged in
relation to the statute’s plainly legitimate sweep.” Id.

90a
at 473 (internal citations and quotation marks
omitted).
Despite those pronouncements, the Supreme
Court has also recognized that “the distinction
between facial and as-applied challenges is not so well
defined that it has some automatic effect or that it
must always control the pleadings and disposition in
every case involving a constitutional challenge.”
Citizens United v. FEC, 558 U.S. 310, 331 (2010); see
also John Doe No. 1 v. Reed, 561 U.S. 186, 194 (2010)
(“The label is not what matters.”). As already stated,
the distinction goes to the breadth of the remedy
provided, but “not what must be pleaded in a
complaint.” Citizens United, 558 U.S. at 331. The
Court has often considered facial challenges simply by
applying the relevant constitutional test to the
challenged statute, without trying to dream up
whether or not there exists some hypothetical
situation in which application of the statute might be
valid. Doe v. City of Albuquerque, 667 F.3d 1111,
1124-25 (10th Cir. 2012) (collecting cases); see also
Wash. State Grange v. Wash. State Republican Party,
552 U.S. 442, 450 (2008) (warning courts deciding
facial challenges not to “speculate about ‘hypothetical’
or ‘imaginary’ cases”); Janklow v. Planned
Parenthood, Sioux Falls Clinic, 517 U.S. 1174, 1175
(1996) (Stevens, J., respecting denial of cert.) (noting
that the “no set of circumstances” formulation “has
been properly ignored in subsequent cases,” and
collecting cases). “[W]here a statute fails the relevant
constitutional test (such as strict scrutiny ... or
reasonableness review), it can no longer be
constitutionally applied to anyone — and thus there
is ‘no set of circumstances’ in which the statute would
be valid. The relevant constitutional test, however,

91a
remains the proper inquiry.” Doe, 667 F.3d at 1127.
We therefore consider the Plaintiffs’ facial challenge
to the City’s buffer zone Ordinance by resort to the
analytical framework governing free speech claims.
1. Free Speech Claim
That framework typically begins with an
assessment of whether the challenged law restricts
speech based upon its content. “[A]s a general matter,
the First Amendment means that government has no
power to restrict expression because of its message,
its ideas, its subject matter, or its content.” Ashcroft
v. American Civil Liberties Union, 535 U.S. 564, 573
(2002) (internal quotation marks omitted). Such
“[c]ontent-based prohibitions ... have the constant
potential to be a repressive force in the lives and
thoughts of a free people.” Ashcroft v. American Civil
Liberties Union, 542 U.S. 656, 660 (2004). To guard
against that threat, the First Amendment requires
that, if a statute draws a content-based distinction —
thereby favoring some ideas over others — we apply
strict scrutiny to the challenged law. Under that
heightened scrutiny, the law is “presumptively
unconstitutional and may be justified only if the
government proves that [it is] narrowly tailored to
serve compelling state interests.” Reed v. Town of
Gilbert, 135 S. Ct. 2218, 2226 (2015). A content-based
restriction, unlike a neutral law, must also be “the
least restrictive or least intrusive means of serving
the government’s interests.” McCullen, 134 S. Ct. at
2535 (internal quotation marks omitted). As such,
“[i]t is rare that a regulation restricting speech
because of its content will ever be permissible.” Brown
v. Entm’t Merchs. Ass’n, 131 S. Ct. 2729, 2738 (2011)
(internal quotation marks omitted). If, on the other
hand, the law is content-neutral, we apply

92a
intermediate scrutiny and ask whether it is “narrowly
tailored to serve a significant governmental interest.”
Madsen v. Women’s Health Ctr., Inc., 512 U.S. 753,
764 (1994).
a. Assuming Content Neutrality
The Plaintiffs contend that the Ordinance
constitutes a content-based restriction on speech and
is thus subject to strict scrutiny. Although we held in
Brown that Pittsburgh’s buffer-zone Ordinance was
content-neutral, see Brown, 586 F.3d at 275, the
Plaintiffs argue that that conclusion is inconsistent
with the Supreme Court’s post-Brown decision in
Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015), which
they say changed how courts draw the line between
content-neutral and content-based restrictions. In
Reed, the Supreme Court held that a town code
governing the manner of display of outdoor signs that
distinguished between ideological, political, and
directional signs was an impermissible content-based
restriction on speech. In reaching that conclusion, the
Court defined content-based laws as “those that
target speech based on its communicative content ....”
Reed, 135 S. Ct. at 2226. Of relevance here, the Court
identified a “subtle” way in which statutes can, on
their face, discriminate based upon content, namely
by “defining regulated speech by its function or
purpose.” Id. at 2227. The Plaintiffs in the present
case contend that, in defining proscribed expression
as that which involves “demonstrating” or “picketing,”
Pittsburgh’s Ordinance runs afoul of Reed by limiting
speech based upon its intended purpose.
Although the Plaintiffs make a compelling
argument that Reed has altered the applicable
analysis of content neutrality, we need not consider

93a
the impact of Reed because the Complaint presents a
viable free speech challenge to the buffer-zone
Ordinance under the lower standard of scrutiny to
which a content-neutral restriction on speech is
subject. We can assume the Ordinance is contentneutral, even though the City contends we may not do
so — which is ironic since the City is the party
benefitting from the assumption. The City relies on
McCullen, pointing out that the Supreme Court, in
striking down the Massachusetts buffer zone law,
addressed content-neutrality to determine the
applicable level of scrutiny. 134 S. Ct. at 2530. The
Court concluded that the Massachusetts law, which
prohibited “knowingly stand[ing]” within thirty-five
feet of the entrance of facilities where abortions are
performed, id. at 2525, was a content-neutral
restriction on free expression, id. at 2534. Although
the Court recognized that it was empowered to simply
assume, without deciding, that the law was subject to
a less stringent level of scrutiny — as it ultimately
struck down the statute under that lesser scrutiny
anyway — it went ahead and engaged in the contentneutrality analysis at the first step, the “ordinary
order of operations,” because doing so would not have
placed the Court at risk of “overruling a precedent.”13
Id. at 2530.
Here, by contrast, the conclusion that the
Ordinance is a content-based restriction on speech
To clarify the point, the Supreme Court contrasted an
earlier case, McCutcheon v. FEC, 134 S. Ct. 1434, 1445-46
(2014). In McCutcheon, the Court assumed a lower level of First
Amendment scrutiny in striking down a challenged statute
because deciding to apply heightened scrutiny would have
needlessly required the Court to revisit its past decisions on the
subject.
13

94a
would require us to overrule our holding in Brown
that the Ordinance imposes only a content-neutral
ban. We need not take that step, though, as we would
reverse the dismissal of the Plaintiffs’ free speech
claim even under the lesser scrutiny reserved for
content-neutral restrictions on speech. Accordingly,
we will assume, as was held in Brown, that the
Ordinance is content neutral and apply the
intermediate level of scrutiny due such restrictions.14
b. Brown and its Antecedents
To satisfy intermediate scrutiny, a contentneutral limitation on speech “must be ‘narrowly
tailored to serve a significant governmental interest.’”
McCullen, 134 S. Ct. at 2534 (quoting Ward v. Rock
Against Racism, 491 U.S. 781, 796 (1989)). “[B]y
demanding a close fit between ends and means, the
tailoring requirement prevents the government from
too readily sacrificing speech for efficiency.” Id.
(internal quotation marks and brackets omitted).
Before McCullen, the Supreme Court had decided
three cases involving similar buffer zones at medical
facilities. In the first two of those cases — Madsen v.
Women’s Health Center, Inc., 512 U.S. 753 (1994) and
Schenck v. Pro-Choice Network of Western New York,
519 U.S. 357 (1997) — the Court confronted the issue
in the context of injunctions prohibiting specific
individuals from interfering with public access to
clinics. It viewed both restrictions, a thirty-six foot
buffer zone in Madsen and a fifteen foot zone in
Although we do not address the issue, should it arise and
need to be addressed on remand, the District Court will need to
examine Reed and its effect on the content-neutrality analysis to
decide whether that case compels a break from Brown’s holding
that the Ordinance is a content-neutral restriction on speech.
14

95a
Schenck, as sufficiently narrowly tailored and thus
upheld them under intermediate scrutiny.
In Madsen, the Court noted that the thirty-six
foot buffer zone at issue in that case was created by
way of injunctive relief only after a first injunction
(which enjoined the specified protesters from blocking
or interfering with public access to the clinic) proved
insufficient to serve the government’s stated
interests. Madsen, 512 U.S. at 769-70. The Court also
emphasized that “the state court found that [those
protesters] repeatedly had interfered with the free
access of patients and staff” to the clinic in question
before issuing the injunction, leaving the state court
with “few other options to protect access” to the clinic.
Id. at 769.
Similarly, in Schenck, the Court upheld the fixed
buffer zone because “the record show[ed] that
protesters purposefully or effectively blocked or
hindered people from entering and exiting the clinic
doorways, from driving up to and away from clinic
entrances, and from driving in and out of clinic
parking lots.” 519 U.S. at 380. The Schenck Court also
struck down a floating bubble zone as insufficiently
tailored to the government’s interests. Id. at 377-80.
The restriction was overbroad chiefly because of the
type of speech it restricted (leafleting and other
comments on matters of public concern) and the
nature of the location (a public sidewalk). Id. at 377.
The Court emphasized the potential for uncertainty
that a floating bubble zone creates — “[w]ith clinic
escorts leaving the clinic to pick up incoming patients
and entering the clinic to drop them off, it would be
quite difficult for a protester who wishes to engage in
peaceful expressive activities to know how to remain
in compliance with the injunction” — and the

96a
resultant “substantial risk that much more speech
will be burdened than the injunction by its terms
prohibits.” Id. at 378. In contrast with the fixed buffer
zone which was upheld, the floating zone “[could] not
be sustained on th[e] record” before the Court. Id. at
377.
In the third buffer zone case, Hill v. Colorado, the
Supreme Court held, in spite of its earlier ruling in
Schenck, that an eight-foot floating bubble zone
satisfied intermediate scrutiny’s narrow tailoring
requirement. 530 U.S. 703, 725 (2000). The Hill Court
explained the differences between the bubble zones in
the two cases. See id. at 726-27. Schenck involved a
fifteen-foot bubble zone, whereas Hill’s was eight feet,
which, the Court concluded, allowed speech “at a
normal conversational distance.” Id. at 726-27
(internal quotation marks omitted). By the Court’s
estimation, the eight-foot zone would have no
“adverse impact” on one’s ability to read a sign, would
permit oral communication “at a normal conversational distance,” and would not “prevent a leafletter
from simply standing near the path of oncoming
pedestrians and proffering his or her material ... .” Id.
at 726-27 (internal quotation marks omitted). “Signs,
pictures, and voice itself can cross an 8-foot gap with
ease.” Id. at 729. Additionally, the Hill statute
allowed the speaker to remain in one place while
other people passed within eight feet. Id. at 727.
Finally, the Hill statute also required that any
violation be “knowing,” so that an inadvertent breach
of the zone would not be unlawful. Id.
Although we previously concluded in Brown that
the City’s Ordinance was sufficiently narrowly
tailored, we did so out of deference to the Supreme
Court’s holdings in Madsen and Schenck. See Brown,

97a
586 F.3d at 276. But each of those cases, as well as
Hill, implies that the application of intermediate
scrutiny’s narrow tailoring analysis must depend on
the particular facts at issue. That implication was
made explicit in McCullen.
c. McCullen’s Clarification of the Law
In McCullen, the Supreme Court struck down the
Massachusetts law’s thirty-five foot buffer zone as
insufficiently narrowly tailored under intermediate
scrutiny. It concluded that the zone “burden[s]
substantially more speech than necessary to achieve
the Commonwealth’s asserted interests.” McCullen,
134 S. Ct. at 2537. The Court started its analysis by
recognizing the nature of the burden the buffer zone
imposed upon the petitioners’ speech. Like the
Plaintiffs here, the petitioners in McCullen engaged
in sidewalk counseling in an effort to persuade women
entering abortion facilities to consider alternatives.
Id. at 2527. Given that mode of expression, the Court
emphasized the petitioners’ need to engage in
“personal, caring, consensual conversations” rather
than “chanting slogans and displaying signs” as a
form of protest against abortion. Id. at 2536. It was
thus insufficient that the counselors could be seen and
heard at a distance by the women in the buffer zone,
because “[i]f all that the women can see and hear are
vociferous opponents of abortion, then the buffer
zones have effectively stifled petitioners’ message.”
Id. at 2537.
The limitation on their speech also occurred, as it
does here, in the quintessential public forum of public
streets and sidewalks, areas that occupy “a special
position in terms of First Amendment protection ... .”
Id. at 2529 (internal quotation marks omitted). The

98a
restriction thus struck at the heart of speech
protected by the First Amendment. See id. at 2536
(“[W]hile the First Amendment does not guarantee a
speaker the right to any particular form of expression,
some forms — such as normal conversation and
leafletting on a public sidewalk — have historically
been more closely associated with the transmission of
ideas than others.”). “When the government makes it
more difficult to engage in these modes of
communication, it imposes an especially significant
First Amendment burden.” Id.
Balanced against that significant burden on
speech was the means chosen to effectuate the
government’s purpose. McCullen emphasized the
unusual nature of such buffer zone laws — at the time
McCullen was decided, only six (including
Pittsburgh’s) existed across the entire United States,
id. at 2537 n.6 — which “raise[d] concern that the
Commonwealth ha[d] too readily forgone options that
could serve its interests just as well ... .” Id. at 2537.
In the Supreme Court’s view, Massachusetts had a
number of less speech-restrictive alternatives available to address its goals: it could utilize “existing local
ordinances” banning obstruction of public ways, id. at
2538; “generic criminal statutes forbidding assault,
breach of the peace, trespass, vandalism, and the
like,” id.; and “targeted injunctions” like those in
Madsen and Schenck, id. The Court also emphasized
that the congestion problem the Commonwealth cited
arose mainly at one Boston clinic, which did not
justify “creating 35-foot buffer zones at every clinic
across the Commonwealth.” Id. at 2539.
The Court further rejected the Commonwealth’s
contention that it “ha[d] tried other approaches, but
they do not work.” Id. Although the Commonwealth

99a
claimed it had revised the statute because an earlier,
less restrictive, version was too difficult to enforce,
the Court noted that Massachusetts could not
document a single prosecution brought under its
previous statutes “within at least the last 17 years”
and “the last injunctions ... date[d] to the 1990s.” Id.
The Commonwealth had thus not met its narrowtailoring burden because it “ha[d] not shown that it
seriously undertook to address the problem with less
intrusive tools readily available to it. Nor ha[d] it
shown that it considered different methods that other
jurisdictions have found effective.” Id. In light of the
“vital First Amendment interests at stake, it [was] not
enough for Massachusetts simply to say that other
approaches have not worked.” Id. at 2540. It had to
either back up that assertion with evidence of past
efforts, and the failures of those efforts, to remedy the
problems that existed outside of the Commonwealth’s
abortion clinics, or otherwise demonstrate its serious
consideration of, and reasonable decision to forego,
alternative
measures
that
would
burden
substantially less speech. The Court recognized that
a buffer zone would likely make the Commonwealth’s
job easier, but “the prime objective of the First
Amendment is not efficiency.” Id. “To meet the
requirement of narrow tailoring, the government
must demonstrate that alternative measures that
burden substantially less speech would fail to achieve
the government’s interests, not simply that the
chosen route is easier.” Id. In the absence of that kind
of fact-specific showing, the Supreme Court struck
down the buffer zone law as insufficiently narrowly
tailored under intermediate scrutiny.

100a
d. Application of Intermediate Scrutiny
to Pittsburgh’s Ordinance
As to the government interests at stake in a case
like this, all four of the Supreme Court’s buffer zone
precedents – Madsen, Schenck, Hill, and McCullen –
accepted that the laws at issue furthered significant
government interests. Schenck identified those
interests as: “protecting a woman’s freedom to seek
pregnancy-related services, ensuring public safety
and order, promoting the free flow of traffic on streets
and sidewalks, protecting property rights, and
protecting the medical privacy of patients ... .” 519
U.S. at 372. Here, the statement of intent of the
Pittsburgh City Council asserts the same kinds of
justifications: ensuring patients have “unimpeded
access to medical services,” eliminating the “neglect”
of other law enforcement needs, and letting the City
provide “a more efficient and wider deployment of its
services.” Pittsburgh Pa., Code § 623.01. Consistent
with Schenck, we held in Brown that the Ordinance
served significant governmental interests. 586 F.3d at
276. Nothing since Brown has altered that conclusion.
Indeed, McCullen noted that such goals reflect
“undeniably significant interests,” 134 S. Ct. at 2541,
and the Plaintiffs in the present case do not dispute
the significance of the City’s interests.
Nevertheless, the Ordinance must still be
narrowly tailored to serve those interests. The
District Court, applying intermediate scrutiny
(without the benefit of Reed), essentially concluded
that its analysis was controlled by our narrowtailoring holding in Brown. The Court reasoned that
McCullen had not “explicitly overrule[d] Hill or
articulate[d] a deviation from the standard outlined
in that case.” (App. at 26a.) In the absence of a clear

101a
break from precedent, the District Court concluded
that it was bound by our prior analysis. In the District
Court’s view, McCullen also did not represent a
binding application of the intermediate scrutiny
standard because that case involved a thirty-five foot
buffer zone and thus imposed a greater “degree of
burden” on speech than the fifteen-foot zone in
Pittsburgh. (App. at 31a.)
Of course, in a mathematical sense the degree of
infringement on the Plaintiffs’ speech here is less
than that imposed on the petitioners in McCullen,
fifteen feet being less than thirty-five. But more than
math is involved, and, even at fifteen feet,
Pittsburgh’s buffer zone raises serious questions
under the First Amendment. None of the four prior
cases assessing buffer zones turned solely on the size
of the zones. What matters is the burden on speech
that such zones impose, of which size is one but only
one feature. Indeed, smaller buffer zones are not
always better: McCullen struck down a thirty-five foot
zone even though Madsen had previously upheld a
slightly larger zone. McCullen never referenced the
size of the approved zone in Madsen or that the
Massachusetts zones were actually smaller. Those
cases turned on their distinct factual records, not a
simple difference in real estate. McCullen emphasized
the “serious burdens” that the law imposed on speech
by “compromis[ing] petitioners’ ability to initiate the
close, personal conversations that they view as
essential to ‘sidewalk counseling.’” 134 S. Ct. at 2535.
Any difference between the burden on speech in
McCullen and that here is a matter of degree rather

102a
than kind.15 Thus, the size of the zone at issue here is
not dispositive, and we must look more broadly at the
allegations of the Complaint.
According to those allegations, Pittsburgh’s buffer
zone Ordinance “prohibits Plaintiffs and others from
effectively reaching their intended audience.” (App. at
56a.) The Complaint further alleges that “[t]he zones
created by the Ordinance make it more difficult [for
the] Plaintiffs to engage in sidewalk counseling,
prayer, advocacy, and other expressive activities,”
(App. at 60a), and that the Ordinance “will cause
conversations between the Plaintiffs and those
entering or exiting the facilities to be far less frequent
15 We agree with the observation of our concurring colleague
that the degree of burden on speech here is less than that in
McCullen, because the zones in Massachusetts were larger,
applied state-wide, and limited any entry into the prohibited
areas. But the protracted discussion undertaken by the
concurrence in an effort to contrast McCullen with this case is
unnecessary, since the differences do not change the applicable
analysis under intermediate scrutiny. As far as we can tell, the
concurrence does not contend that those differences somehow
save the Ordinance at issue here from intermediate scrutiny or
subject it to a lesser level of review. In fact, our colleague says
that he “cannot conclude, on the basis of the allegations in the
Complaint, that the Pittsburgh buffer zones operate so
differently from the Massachusetts zones that Plaintiffs cannot
advance past the pleading stage.” (Concurrence at 25.) Because
we agree with that statement, we see little point in contrasting
the two laws in lengthy dicta. Any law that imposes a similar
burden as that in McCullen — foreclosing speech about an
important subject in a quintessential public forum “without
seriously addressing the problem through alternatives that
leave the forum open for its time-honored purposes,” 134 S. Ct.
at 2541 — is subject to the same narrow tailoring analysis as the
Supreme Court employed in that opinion. The concurrence does
not deny that Pittsburgh’s Ordinance is such a law. We are
simply following where McCullen has led.

103a
and far less successful.” (App. at 60a.) Taking those
allegations as true, the burden on the Plaintiffs’
speech is akin to that imposed upon the petitioners in
McCullen, and nothing in the Complaint suggests
otherwise.16
Because of the significant burden on speech that
the Ordinance allegedly imposes, the City has the
same obligation to use less restrictive alternatives to
its buffer zone as the Commonwealth of
Massachusetts had with respect to the buffer zone at
issue in McCullen. As stated, that obligation requires
that the government “demonstrate that alternative
measures that burden substantially less speech
would fail to achieve the government’s interests.”
McCullen, 134 S. Ct. at 2540. The statement of intent
of the Pittsburgh City Council — in which the Council
stated that Pittsburgh’s police had “been consistently
called upon in at least two locations within the City to
16 The concurrence offers some suppositions about the
possible ways the Ordinance might affect people, like Plaintiffs,
engaging in sidewalk counseling. For example, it notes that
counselors will likely be able to distinguish patients from
passersby because “[a] patient heading toward a clinic will
almost certainly have manifested her intention to enter the clinic
by the time she is 15 feet from its entrance” (Concurrence at 19),
even though the photograph of the Planned Parenthood buffer
zone provided by the City shows that it extends to the edge of
the sidewalk and into the street, which would seemingly make it
quite difficult for counselors to make any distinction between
patients walking into the clinic and pedestrians walking by it.
Despite the guesswork, the concurrence concludes by
emphasizing that, “it is not the Court’s role on a 12(b)(6) motion
to supplant the well-pleaded allegations with its own
speculation, or to question the Plaintiffs’ characterization of
their experiences.” (Concurrence at 23.) That last observation is
certainly correct, which is why we have opted not to speculate or
question the allegations of the Complaint.

104a
mediate the disputes .... [causing] indefinite appropriation of policing services,” Pittsburgh Pa., Code §
623.01 — does not by itself satisfy the required
constitutional scrutiny of the Ordinance. Although
“we must accord a measure of deference” to the
government’s judgment, Hill, 530 U.S. at 727, as in
McCullen, “it is not enough for [the City] simply to say
that other approaches have not worked.” 134 S. Ct. at
2540. We recognize that the City need not employ “the
least restrictive or least intrusive means of serving its
interests,” Ward, 491 U.S. at 798, but it must, in some
meaningful way, “demonstrate that alternative
measures that burden substantially less speech
would fail to achieve the government’s interests,”
McCullen, 134 S. Ct. at 2540. Because the City has
available to it the same range of alternatives that
McCullen identified — anti-obstruction ordinances,
criminal enforcement, and targeted injunctions — it
must justify its choice to adopt the Ordinance. To do
so, the City would have to show either that
substantially less-restrictive alternatives were tried
and failed, or that the alternatives were closely
examined and ruled out for good reason.17
The concurrence repeatedly tries to downplay the
significance of McCullen — variously referring to the opinion as
“incremental,” “modest,” and “unexceptional” (Concurrence at 45) — and devotes much of its energy to narrowing that case only
to its facts. It does so, presumably, in service of a desire to avoid
the import of the Supreme Court’s decision. Consider our
colleague’s reading of McCullen: “[u]nlike the majority, I do not
believe that McCullen announces a general rule requiring the
government to affirmatively prove that less-restrictive measures
would fail to achieve its interests.” (Concurrence at 1-2.) Then
try to reconcile that with the actual language of McCullen: “To
meet the requirement of narrow tailoring, the government must
demonstrate that alternative measures that burden
17

105a

substantially less speech would fail to achieve the government’s
interests, not simply that the chosen route is easier.” 134 S. Ct.
at 2540. We are more ready than our colleague is to take the high
Court at its word, and that is the heart of our disagreement with
him.
Nevertheless, he asserts that our analysis “is contrary to
McCullen and distorts First Amendment doctrine.”
(Concurrence at 7.) Far from it. We are doing nothing more than
applying McCullen according to its terms. In the unanimous
language of the Supreme Court, “it is not enough for [the
government] simply to say that other approaches have not
worked.” Id. Again, the burden is on the government to actually
demonstrate that alternative measures would fail to meet the
government’s legitimate ends. We are simply holding the City to
that standard, as was done in McCullen.
The concurrence claims that we have neglected to answer
“the central constitutional question: assuming that the proposed
alternatives would burden less speech than a 15-foot buffer zone,
would they burden substantially less speech?” (Concurrence at
14.) But McCullen answered that question for us; it just did not
provide the answer our concurring colleague might prefer. In
that opinion, the Supreme Court laid out some of the lessburdensome alternatives to a buffer zone law. Because the
burden on Plaintiffs’ speech here is akin to that present in
McCullen, the City similarly “has available to it a variety of
approaches that appear capable of serving its interests, without
excluding individuals from areas historically open for speech and
debate.” 134 S. Ct. at 2539. The existence of those substantially
less burdensome alternatives obligates the City to try them or
consider them. Again, that is not our requirement. It is the
Supreme Court’s: “the Commonwealth has not shown that it
seriously undertook to address the problem with less intrusive
tools readily available to it. Nor has it shown that it considered
different methods that other jurisdictions have found effective.”
Id. Our analysis here is not nearly the novelty that the
concurrence suggests. This case calls for nothing more than a
straightforward application of McCullen — the Ordinance
imposes the same kind of burden on speech, the same less
burdensome options are available, and the City has similarly

106a
By that statement, we do not suggest that the
City must demonstrate that it has used the leastrestrictive alternative, nor do we propose that the
City demonstrate it has tried or considered every less
burdensome alternative to its Ordinance. See Ward,
491 U.S. at 800 (concluding that “[t]he Court of
Appeals erred in sifting through all the available or
imagined alternative means of regulating sound
volume in order to determine whether the city’s
solution was the least intrusive means of achieving
the desired end” (internal quotation marks omitted)).
On the contrary, analysis under intermediate
scrutiny affords some deference to a municipality’s
judgment in adopting a content-neutral restriction on
speech.18 But the municipality may not forego a range
failed to try or to consider those alternatives to justify its
Ordinance.
18 Despite our repeated recognition of the broad principle of
deference to legislative judgments and our explicit assurance
that legislatures need not meticulously vet every less
burdensome alternative, the concurrence nonetheless persists in
suggesting that we are somehow saying the opposite,
“eliminat[ing] much of the discretion” given to lawmakers and
“requiring governments to adopt the least restrictive
alternative.” (Concurrence at 11-12.) Both fears are unfounded.
We can only say what we have repeatedly said elsewhere in this
opinion: we are imposing neither requirement. All we can do to
allay the concurrence’s concerns, we surmise, is to emphasize
that we mean what we say.
The concurrence similarly claims that we are conducting an
unprecedented “show us your work” review of the underlying
legislative record, “something no court has ever required.”
(Concurrence at 9.) Although we (yet again) acknowledge the
need for deference, heightened scrutiny must mean something.
It is impossible to read McCullen any other way. That case dug
into the record, discussed the substantially less burdensome
alternatives available, and assessed the Commonwealth’s

107a
of alternatives — which would burden substantially
less expression than a blanket prohibition on
Plaintiffs’ speech in a historically-public forum —
without a meaningful record demonstrating that
those options would fail to alleviate the problems
meant to be addressed. Properly crediting the
allegations of the Complaint, Pittsburgh has not met
that burden.
Of course, the City had no opportunity to properly
produce such evidence at the motion-to-dismiss stage.
Instead, we must accept as true at this stage of the
case the Complaint’s allegation that “no specific
instances of obstructive conduct outside of hospitals
or health care facilities in the City of Pittsburgh ...
failure to use those alternatives to address its significant
interests. And that was not a novel approach. Past intermediate
scrutiny cases engage in similar review of the legislative record.
See Turner Broad. Sys., Inc. v. FCC, 520 U.S. 180, 211 (1997)
(assessing “must carry” provision by scrutinizing the legislative
record, and ultimately asking “whether the legislative
conclusion was reasonable and supported by substantial evidence
in the record before Congress” (emphasis added)); City of Renton
v. Playtime Theatres, Inc., 475 U.S. 41, 50 (1986) (examining the
legislative record supporting the City of Renton’s adoption of its
ordinance prohibiting adult movie theaters within 1,000 feet of
residential areas); see also United States v. Playboy Entm’t Grp.,
Inc., 529 U.S. 803, 822 (2000) (striking down content-based
restriction on speech, under strict scrutiny, citing the “near
barren legislative record relevant to th[at] provision”). The
government bears the burden to establish the reasonable fit
between the challenged law and its asserted objective. Bd. of Trs.
of State. Univ. of N.Y. v. Fox, 492 U.S. 469, 480-81 (1989). That
burden — and the protection of speech that heightened judicial
scrutiny is meant to ensure — would be meaningless indeed if it
did not ask the government, at the very least, to justify its choice
to prohibit speech where substantially less burdensome
alternatives are available.

108a
provide support for the law ... .” (App. at 56a.)19 The
Plaintiffs further claim that “[n]o speech activities on
the public sidewalks and ways outside the Liberty
Avenue Planned Parenthood in recent years have
caused a problem preventing access to its entrances.”
(App. at 57a.) Again, these assertions must be
credited at this stage. Phillips v. Cty. of Allegheny,
515 F.3d 224, 233 (3d Cir. 2008).
McCullen required the sovereign to justify its
regulation of political speech by describing the efforts
it had made to address the government interests at
stake by substantially less-restrictive methods or by
showing that it seriously considered and reasonably
rejected “different methods that other jurisdictions
have found effective.” 134 S. Ct. at 2539. Such proof
can only be considered, however, after a fair opportunity for discovery and the production of evidence.
Indeed, when a complaint states a plausible First
Amendment claim of the type advanced here and
substantially less burdensome alternatives appear to
have been available to the city or state, the city or
state will rarely be able to satisfy narrow tailoring at
the pleading stage.20 At this early point in the present
One might argue that the qualifying phrase “provide
support for the law” makes that allegation primarily a legal
rather than a factual contention. See Fowler, 578 F.3d at 210-11
(holding that a court presented with a motion to dismiss “may
disregard any legal conclusions” set out in the complaint).
Viewing it generously for the Plaintiffs, however, we will take it
to mean that no meaningful obstruction has occurred.
19

Although this is not such a case, there may be cases in
which it is clear — before any evidence is produced regarding the
government’s history of attempting and considering alternatives
— that the chosen regulation is reasonably narrowly tailored
under intermediate scrutiny. For example, were one to challenge
20

109a
case, without such proof, the Plaintiffs’ First
Amendment claims cannot be dismissed. We instead
must credit the allegations of the Complaint, which
plausibly state a claim that the City’s Ordinance
“burden[s] substantially more speech than is
necessary to further the government’s legitimate
interests.” McCullen, 134 S. Ct. at 2535 (internal
quotation marks omitted).
The City contends, consistent with the District
Court’s opinion, that McCullen did not alter the
narrow-tailoring analysis to the degree necessary to
change the conclusion we reached in Brown. But
McCullen employs a level of rigor that Brown did not
approach. In fact, Brown engaged in no narrowtailoring analysis of its own. It instead incorporated
the analyses of Madsen and Schenck by reference and
concluded that Pittsburgh’s buffer zone was “a fortiori
constitutionally valid” in light of those past cases.
Brown, 586 F.3d at 276. At the very least, McCullen
has called that approach into question, clarifying that
the particular facts of each case must be examined.21
the hypothetical de minimis sound amplification law posited by
the concurrence, that regulation would likely be viewed as
narrowly tailored, even at the pleading stage. With such a slight
burden on speech, any challengers would struggle to show that
“alternative measures [would] burden substantially less speech.”
McCullen, 134 S. Ct. at 2540 (emphasis added).
We also note that our emphasis on the need for the
development of a factual record arises not only from the general
principle that a court should have a sufficient basis to support
its legal conclusions but more particularly from the Supreme
Court’s instruction in McCullen on the importance of a factual
record in considering the constitutionality of such buffer zone
laws.
In this way, we entirely agree with the concurrence’s
observation that McCullen requires that courts may no longer
21

110a
No buffer zone can be upheld a fortiori simply because
a similar one was deemed constitutional, since the
background facts associated with the creation and
enforcement of a zone cannot be assumed to be
identical with those of an earlier case, even if the
ordinances in the two cases happened to be the same.
McCullen made this evident when it struck down
a smaller buffer zone than that which was upheld in
Madsen. Also, both Madsen and Schenck involved
plaintiff-specific injunctions, which is one of the lessrestrictive alternatives identified by McCullen that a
sovereign should utilize before turning to “broad,
prophylactic measures” like generally-applicable
buffer zones that “unnecessarily sweep[ ] in innocent
individuals and their speech.” McCullen, 134 S. Ct. at
2538. And it may be noteworthy that Brown
considered its narrow-tailoring conclusion to be
“bolstered” by the First Circuit’s opinion in McCullen,
which was the very decision later reversed by the
Supreme Court. Brown, 586 F.3d at 276.
McCullen represents an important clarification of
the rigorous and fact-intensive nature of intermediate
scrutiny’s narrow-tailoring analysis, and the decision
is sufficient to call into question our conclusion in
Brown. See In re Krebs, 527 F.3d 82, 84 (3d Cir. 2008)
(“A panel of this Court may reevaluate the holding of
a prior panel which conflicts with intervening
Supreme Court precedent.”). The recent instruction
from McCullen and the factual allegations of the
Complaint combine to require that we vacate the
District Court’s grant of the City’s motion to dismiss
hold “that a speech regulation is constitutional if it is facially
similar to a restriction upheld in a prior Supreme Court case.”
(Concurrence at 5.)

111a
the Plaintiffs’ free speech claims. Because the
Plaintiffs’ Complaint should not have been dismissed,
the District Court’s improper consideration of
materials beyond the pleadings to convert the motion
to one for summary judgment cannot be treated as
harmless error.
2. Free Press Claim
The Plaintiffs also raise a claim under the
Freedom of the Press Clause of the First Amendment,
because “the Ordinance prohibits them from leafleting on public sidewalks.” (Opening Br. at 37.) The
District Court did not directly address that aspect of
the Plaintiffs’ First Amendment claim, instead
dismissing the facial challenge in its entirety. On
appeal, the City argues that the free press claim
“properly fell along with the rest of the First
Amendment claim under the district court’s analysis.”
(Appellee’s Br. at 42 n.4.)
The City’s contention is correct in the abstract.
Had the District Court properly dismissed the
Plaintiffs’ free speech claim, it would also have been
proper to dismiss their free press claim, because the
Plaintiffs’ free press claim is, in this context, properly
considered a subset of their broader free speech claim,
given that the Freedom of the Press Clause and the
Free Speech Clause both protect leafleting from
government interference. See Lovell v. City of Griffin,
Ga., 303 U.S. 444, 452 (1938) (“The liberty of the press
is not confined to newspapers and periodicals. It
necessarily embraces pamphlets and leaflets.”);
McIntyre v. Ohio Elections Comm’n, 514 U.S. 334, 347
(1995) (“[T]he speech in which Mrs. McIntyre engaged
— handing out leaflets in the advocacy of a politically
controversial viewpoint — is the essence of First

112a
Amendment expression.”).
But as the claims could properly fall together, the
converse is also true here: resuscitation of the broader
free speech claim requires us to vacate the dismissal
of the free press claim. In light of the burden the
Ordinance places on speech, the City’s inability to
show at the motion to dismiss stage that substantially
less burdensome alternatives would fail to achieve its
interests dooms its broad prohibition on all of the
Plaintiffs’ expressive activities, including the
prohibition on leafleting.
3. Overbreadth Claim
The Plaintiffs next contend that the Ordinance
violates the First Amendment by imposing an
unconstitutionally overbroad restriction on speech
“because it authorizes the creation of zones at nonabortion locations where the City does not even claim
there has been a justification for banning speech.”
(Opening Br. at 38.) The City responds — just as the
District Court did in dismissing this claim — that
their argument is “foreclosed by this Court’s decision
in Brown.” (Answering Br. at 42.) In Brown, we
rejected the plaintiff’s facial overbreadth challenge
because such a claim was undercut by Hill. 586 F.3d
at 282-83 n.21. Hill involved a floating bubble zone
that applied, like Pittsburgh’s Ordinance, to “any
health care facility.” Hill, 530 U.S. at 707. Despite
that, the Supreme Court upheld the statute against a
facial challenge to its overbreadth. Id. at 730-32. “The
fact that the coverage of a statute is broader than the
specific concern that led to its enactment is of no
constitutional significance,” the Court noted. Id. at
730-31. In fact, said the Court, “the comprehensiveness of the statute is a virtue, not a vice, because

113a
it is evidence against there being a discriminatory
governmental motive.” Id. at 731.
Like the statute at issue in Hill, a buffer zone
under the Ordinance can be established at any
“hospital, medical office or clinic ... .” (App. at 150a.)
But the Plaintiffs’ Complaint alleges that the
Ordinance “is only enforced outside of health care
facilities which provide abortions” (App. at 56a); the
entirety of the discussion of the Ordinance’s enforcement in the Complaint relates to a single Planned
Parenthood location.
The McCullen Court did address the breadth of
the Massachusetts buffer zone statute, but it did so
only in the context of its free speech analysis and
discussion of the disconnect between the government
interests at stake and the means through which it
sought to vindicate those interests. McCullen, 134 S.
Ct. at 2539 (noting that interests pertaining “mainly
to one place at one time: the Boston Planned
Parenthood clinic on Saturday mornings” do not
require “creating 35-foot buffer zones at every clinic
across the Commonwealth”). Given its holding
striking down the law, McCullen explicitly did not
reach the petitioners’ overbreadth challenge. Id. at
2540 n.9.
We think it unwise for us to assess the proper
scope of the City’s Ordinance without there first being
a resolution of the merits of the Plaintiffs’ free speech
claim. It is true that the breadth of the challenged law
plays a role in the narrow-tailoring analysis of the
Plaintiffs’ free speech claim. See Brown, 586 F.3d at
273 n.10 (“What the petitioners classified as an
‘overbreadth’ problem, in other words, was better
understood analytically as a concern to be addressed

114a
within the framework of ... [a] narrow-tailoring test.”);
McCullen, 134 S. Ct. at 2539 (comparing breadth of
statute against government interest in striking down
statute on narrow-tailoring grounds). But we cannot
adequately assess the overbreadth argument absent
a well-supported conclusion regarding the proper
scope of the Ordinance. “[A] law may be invalidated
as overbroad if a substantial number of its
applications are unconstitutional, judged in relation
to the statute’s plainly legitimate sweep.” Stevens,
559 U.S. at 473 (internal quotation marks omitted).
Without the developed factual record that McCullen
requires, we do not know the “legitimate sweep” of the
buffer zone law, and thus whether it substantially
exceeds that sweep. As with the Plaintiffs’ other First
Amendment claims, it is premature to dismiss their
overbreadth challenge. Accordingly, we will reverse
the District Court’s dismissal of the overbreadth
claim.
4. Due Process Claim
Finally, the Plaintiffs maintain that the
Ordinance violates the Due Process Clause of the
Fourteenth Amendment because it “vests unbridled
discretion in the City to create buffer zones outside of
any hospital or health care facility in the City of
Pittsburgh.” (Opening Br. at 42.) The District Court
dismissed that claim because the substance of the
claim is “more appropriately characterized as
violations under the First Amendment.” (App. at 39a.)
The District Court properly pointed out that all of
the precedents cited by the Plaintiffs involved First
Amendment claims. “Where a particular Amendment
provides an explicit textual source of constitutional
protection against a particular sort of government

115a
behavior, that Amendment, not the more generalized
notion of ‘substantive due process,’ must be the guide
for analyzing these claims.” Albright v. Oliver, 510
U.S. 266, 273 (1994) (internal quotation marks
omitted). Any concerns about the exercise of
discretion vested in City officials can be addressed in
an as-applied challenge to the Ordinance’s enforcement under the First Amendment.22 We thus agree
with the District Court that “[t]he First Amendment
is the proper constitutional home for Plaintiffs’
freedom of speech and press claims ... .” (App. at 37a.)
Accordingly, we will affirm the District Court’s
dismissal of the Plaintiffs’ Due Process claim.23
III.CONCLUSION
For the foregoing reasons, we will vacate the
District Court’s dismissal of the Plaintiffs’ First
Amendment claims and affirm the dismissal of their
Due Process claim. Again, nothing in this opinion
should be construed as a conclusion about the
ultimate merits of the claims or defenses advanced by
the parties. There are not enough facts in the record
In granting the parties’ motion to voluntarily dismiss with
prejudice the as-applied challenges, the District Court’s order
noted: “The parties specify that dismissal is with prejudice to
these two existing matters, but the prejudice does not prevent
assertion of such claims against future applications of the
ordinance by the City.” (District Court Docket, Doc. 31.)
22

Although the Plaintiffs also raised a procedural due
process claim, which the District Court dismissed, they have
made no argument before us concerning that claim. Accordingly,
any argument supporting the procedural due process claim is
waived. See United States v. Pelullo, 399 F.3d 197, 222 (3d Cir.
2005) (“It is well settled that an appellant’s failure to identify or
argue an issue in his opening brief constitutes waiver of that
issue on appeal.”).
23

116a
for us to make any such comment, even were we so
inclined. That is the problem. We reverse so that the
Plaintiffs’ claims may be aired and assessed by the
standard that McCullen now requires.

117a
FUENTES, Circuit Judge, concurring in the
judgment.
I agree with the majority that the allegations in
the Complaint, taken as true, establish that
Pittsburgh’s Ordinance restricting certain speech
within 15 feet of designated health care facilities
violates the intermediate-scrutiny standard for time,
place, and manner regulations. I disagree, however,
with the majority’s reasoning in support of that
result. In particular, I disagree with its conclusion
that the Supreme Court’s decision in McCullen v.
Coakley1 requires governments that place “significant” burdens on speech to prove either that less
speech-restrictive measures have failed or that
alternative measures were “seriously” considered and
“reasonably” rejected. That interpretation distorts
narrow-tailoring doctrine by eliminating the government’s latitude to adopt regulations that are not “the
least restrictive or least intrusive means of serving
the government’s interests.”2 Nothing in McCullen or
the Supreme Court’s First Amendment jurisprudence
requires us to apply such a rule. Accordingly, as to
Plaintiffs’ free-speech claim, I concur only in the
judgment.3
I.
My disagreement with the majority stems
entirely from our differing interpretations of
McCullen. Unlike the majority, I do not believe that
McCullen announces a general rule requiring the
1

134 S. Ct. 2518 (2014).

2

Id. at 2535 (internal quotation marks omitted).

I agree with the majority’s disposition of Plaintiffs’ free press,
overbreadth, and due process claims.

3

118a
government to affirmatively prove that lessrestrictive measures would fail to achieve its
interests. Before addressing the source of this
disagreement, therefore, I think it is useful to review
McCullen and to situate it among the Supreme
Court’s narrow-tailoring and abortion-protest
precedents.
McCullen is, first and foremost, a straightforward
application of the Ward narrow-tailoring standard for
time, place, and manner regulations. Such regulations “must not ‘burden substantially more speech
than is necessary to further the government’s
legitimate interests.’”4 But the regulation “‘need not
be the least restrictive or least intrusive means of’
serving the government’s interests.”5 The ultimate
question is whether the government has achieved an
appropriate “balance between the affected speech and
the governmental interests that the ordinance
purports to serve.”6
McCullen was a case of extreme imbalance—so
much so that the Supreme Court unanimously agreed
that the challenged statute failed narrow tailoring.
The Massachusetts law at issue imposed remarkably
onerous burdens on speakers, prohibiting all speech
by all non-exempt persons in a 35-foot section of the
public way at all abortion clinics in the entire state of
Massachusetts.7 As the Supreme Court recognized,
McCullen, 134 S. Ct. at 2535 (quoting Ward v. Rock Against
Racism, 491 U.S. 781, 799 (1989)).
4

5

Id. at 2535 (quoting Ward, 491 U.S. at 798).

Watchtower Bible & Tract Soc. of N.Y., Inc. v. Village of
Stratton, 536 U.S. 150, 165 (2002).

6

7

McCullen, 134 S. Ct. at 2526.

119a
“closing a substantial portion of a traditional public
forum to all speakers” is an “extreme step.”8 Likewise,
“categorically exclud[ing] non-exempt individuals”
from particular zones was certain to “unnecessarily
sweep in innocent individuals and their speech.”9 And
the risks were not simply hypothetical. Based on the
record, the Court concluded that the Massachusetts
buffer zones “impose[d] serious burdens on
petitioners’ speech” and “carve[d] out a significant
portion of the adjacent public sidewalks, pushing
petitioners well back from the clinics’ entrances and
driveways.”10
The
Massachusetts
law
also
departed
significantly from the regulations upheld in the
Supreme Court’s prior abortion-protest cases. Unlike
the injunctions in Madsen v. Women’s Health Center,
Inc.11 and Schenck v. Pro–Choice Network of Western
N.Y.,12 which were targeted at specific defendants in
specific locations, the Massachusetts law prohibited
speech by all persons at all abortion clinics
throughout the state. Unlike the so-called “bubble
zones” in Hill v. Colorado,13 the Massachusetts law
forbade speakers from even standing in the buffer
zone, thereby foreclosing leafletting or consensual
conversations within the zone. And it did so by
cordoning off an entire portion of the public forum to
8

Id. at 2541 (emphasis added).

9

Id. at 2538.

10

Id. at 2537-38 (emphasis added).

11

512 U.S. 753 (1994).

12

519 U.S. 357 (1997).

13

530 U.S. 703 (2000).

120a
all speakers and all messages.
The fact that the Massachusetts law imposed
“truly exceptional” burdens on speakers also
naturally suggested that Massachusetts had “too
readily forgone options that could serve its interests
just as well.”14 The Court proposed a number of lessintrusive alternatives: access problems could be
addressed through a law that prohibited deliberate
obstruction of clinic entrances; harassment could be
addressed by an ordinance like the one adopted in
New York City that makes it a crime “to follow and
harass another person within 15 feet of the premises
of a reproductive health care facility”; and targeted
injunctions could be used against particularly
troublesome individuals.15 But because Massachusetts could not identify a single prosecution brought
under the other laws at its disposal, it could not show
“that it seriously undertook to address the problem
with less intrusive tools readily available to it.”16 The
Court concluded that Massachusetts could not enact
such an extreme speech prohibition without offering
a correspondingly comprehensive justification.
McCullen, fairly read, represents an incremental
advance in narrow-tailoring doctrine. As the majority
implicitly recognizes, McCullen did not alter the
substantive standard for time, place, and manner
restrictions. What it did, rather, is direct courts
toward a more nuanced mode of narrow-tailoring
analysis. It is no longer enough to say, as we did in

14

McCullen, 134 S. Ct. at 2537.

15

Id. at 2537-39.

16

Id. at 2539.

121a
Brown v. City of Pittsburgh,17 that a speech regulation
is constitutional if it is facially similar to a restriction
upheld in a prior Supreme Court case. Instead, courts
must scrutinize the practical operation of the
regulation at issue, including its effects on particular
types of messaging (e.g., sidewalk counseling and
handbilling), the degree to which it privileges ease of
enforcement rather than legitimate public access
interests, and, in appropriate cases, the availability of
less burdensome alternatives. Such scrutiny is
especially warranted where, as in McCullen, the
government enacts a blanket prohibition to address a
localized problem.
These are modest, commonsense propositions.
Notably, not a single Supreme Court justice
considered McCullen’s narrow-tailoring analysis
worthy of dissent or separate comment—a
remarkable consensus in a case pitting abortionaccess interests against the right to free speech. That
unanimity is not surprising in light of the extreme
facts presented and the straightforward doctrinal
analysis required. McCullen, when read against its
precedents, is best understood as a boundary-setting
exercise—a corrective but ultimately unexceptional
exposition of narrow-tailoring doctrine.
II.
The majority reads McCullen differently.
McCullen, it says, announces a new rule: henceforth,
the government must justify any law that places a
“significant” burden on speech “by describing the
efforts it ha[s] made to address the government
interests at stake by substantially less-restrictive
17

586 F.3d 263 (3d Cir. 2009).

122a
methods or by showing that it seriously considered
and reasonably rejected ‘different methods that other
jurisdictions have found effective.’”18 Applying the
rule to this case, the majority states that the City “has
the same obligation to use less restrictive alternatives
. . . as the Commonwealth of Massachusetts had with
respect to the buffer zone at issue in McCullen.”19
Therefore, regardless of any differences in size and
prohibited conduct between the Massachusetts buffer
zones and the City’s buffer zones, the Ordinance is
flatly unconstitutional unless the City can “show
either that substantially less-restrictive alternatives
were tried and failed, or that the alternatives were
closely examined and ruled out for good reason.”20 The
majority acknowledges that under this rule,
Maj. Op. 27, 31 (quoting McCullen, 134 S. Ct. at 2539.) As the
majority acknowledges, the rule it announces today applies only
to laws, like the buffer zone in McCullen, that place a “significant
burden on speech.” Id. 27. The rule does not apply in the mine
run of cases involving ordinary or de minimis time, place, and
manner restrictions. Id. 32 n.20.
An example may illustrate the distinction. Imagine that a
beach town adopts a de minimis time, place and manner
restriction: no person may use an electronic sound-amplification
device on the beach between the hours of 1:00 a.m. and 6:00 a.m.
Under today’s decision, this law should be upheld simply because
it hardly burdens any speech, and certainly does not burden
more speech than necessary to achieve the government’s
interests. The town government need not prove either that it
attempted or that it seriously considered and reasonably
rejected less restrictive alternatives, such as a law saying no
amplification devices between 2:00 a.m. and 5:00 a.m., or a law
saying no amplification devices within 100 feet of a beachfront
residence, or a law saying no amplifiers above 50 watts.
18

19

Maj. Op. 27.

20

Maj. Op. 28.

123a
“dismissal of claims challenging ordinances like the
one at issue here will rarely, if ever, be appropriate at
the pleading stage.”21 But “without such proof, the
Plaintiffs’ First Amendment claims cannot be
dismissed.”22
I believe that the majority’s new “proof of prior
efforts” rule is contrary to McCullen and distorts First
Amendment doctrine. It is, of course, indisputably
true that under McCullen, the government cannot
take “the extreme step of closing a substantial portion
of a traditional public forum to all speakers” without
“seriously
addressing
the
problem
through
alternatives that leave the forum open for its timehonored purposes.”23 But that is not the same thing
as saying that every “significant” time, place, and
manner law—or even every buffer zone—must be
supported by evidence that the government vetted
less-restrictive alternatives prior to the law’s
adoption, regardless of the burden the law actually
places on speech. Such a rule stretches McCullen too
far, risks untoward results, and disregards
McCullen’s express statement that a regulation—
even one that places “significant” burdens on
speech—need not be the least restrictive or least
intrusive means of serving the government’s
interests.
Contrary to the majority’s reading, McCullen’s
invocation of less-restrictive alternatives did not
break new ground in First Amendment doctrine. The
burden is always on the government to prove that a
21

Maj. Op. 4.

22

Maj. Op. 32.

23

McCullen, 134 S. Ct. at 2541 (emphasis added).

124a
time, place, or manner restriction does not “burden
substantially more speech than is necessary to
further the government’s legitimate interests.”24 A
necessary part of that inquiry is whether there are
less-restrictive alternatives that could meet the
government’s interests.25 It is therefore unexceptional
to say, as the Court did in McCullen, that “the
government must demonstrate that alternative
measures that burden substantially less speech
would fail to achieve the government’s interests.”26 If
the government’s needs could be met by alternatives
that “burden substantially less speech,” then the
challenged
regulation
ipso
facto
“burdens
substantially more speech than is necessary.” But the
adverb supplies the test: the operative question, in
this case and others, is whether the proposed
alternatives would burden substantially less speech
while still furthering the government’s interests. In
practice, this means that a city faced with a range of
possible solutions to a public nuisance is free to reject
less-burdensome options, so long as it does not reject
viable options that would burden substantially less

24

Ward, 491 U.S. at 799.

See 44 Liquormart v. Rhode Island, 517 U.S. 484, 529 (1996)
(“The availability of less burdensome alternatives to reach the
stated goal signals that the fit between the legislature’s ends and
the means chosen to accomplish those ends may be too imprecise
to withstand First Amendment scrutiny.” (O’Connor, J.
concurring)).
25

134 S. Ct. at 2540. It also seems implausible that the Supreme
Court would choose to announce a new, standalone First
Amendment tailoring rule in the middle of a paragraph at the
end of an opinion section devoted to rejecting a party’s
arguments.
26

125a
speech.
The majority opinion grafts an additional
requirement onto the “substantially more speech than
necessary” test: a municipality must now also prove
that, before adopting a regulation that “significantly”
burdens speech, it either attempted or “seriously
considered” and “reasonably rejected” less-intrusive
alternatives. This rule improperly elevates one
element of the narrow-tailoring inquiry—the availability of less-burdensome alternatives—into a
standalone rule of constitutionality. And it does so by
converting our inquiry from an after-the-fact
assessment of the burdens and benefits of a
regulation (what McCullen actually requires) into a
review of the sufficiency of the underlying legislative
record (something no court has ever required). I see
no reason why we should begin conducting judicial
audits of the legislative rulemaking process. 27 As
27 Note the fundamental oddity of today’s rule, which essentially
requires legislatures to “show us their work” and prove that they
took certain considerations into account during the rulemaking
process. We frequently assess speech statutes by asking what
problem the statute was meant to solve and how well it does so
in practice. And as the majority notes, we will sometimes review
the legislative record when deference requires us to assess
whether Congress acted reasonably, see Turner Broad. Sys. v.
FCC, 520 U.S. 180, 195-96 (1997), or when determining whether
the government’s justification for a regulation is purely
speculative, see City of Renton v. Playtime Theatres, 475 U.S. 41,
50-52 (1986). But I am unaware of any First Amendment context
in which we affirmatively require a legislative body to produce a
record of its underlying decisionmaking processes, and then base
our constitutional determination on whether the legislature
crossed off each item on a prescribed factfinding checklist before
it enacted the rule in question. Intermediate scrutiny requires
us to defer to a legislature’s judgments, not dictate its
rulemaking procedures. See Turner Broad. Sys., 520 U.S. at 218

126a
McCullen makes clear, the constitutionality of a
speech regulation depends on its scope and its effects,
not on whether whether the legislative body satisfied
some indeterminate set of preconditions before it
began drafting. The Supreme Court’s time, place, and
manner jurisprudence is concerned with outcomes
(“It is well established a regulation’s validity does not turn on a
judge’s agreement with the responsible decisionmaker
concerning the most appropriate method for promoting
significant government interests.”) (internal quotation omitted);
City of Renton, 475 U.S. at 50-52 (cities enacting time, place, and
manner regulations need not produce evidence specifically
relating to the city’s problems or needs and may instead rely on
the experiences of other cities).
The novelty of this type of constitutional review raises a
variety of practical questions, none of which are answered in the
majority opinion. For starters: How can a government ever
determine, prior to legislating, which alternatives it must
“seriously consider”? What constitutes a “reasoned” rejection?
When a government legislates to address a new problem (i.e., in
the absence of practical enforcement experience), what weight
should courts give to predictive judgments about the drawbacks
or benefits of a rejected proposal? How, if at all, does the
“seriously considered/reasonably rejected” standard incorporate
the Supreme Court’s instruction in Hill, 530 U.S. at 727, that we
must “accord a measure of deference” to the legislature’s
judgment regarding how best to accommodate competing
interests? Can a government “reasonably reject” a viable
alternative that would burden substantially less speech than the
chosen option?
The majority leaves these questions to future courts. In
light of the novelty of the required inquiry and the fact that most
(if not all) municipal time, place, and manner restrictions are not
supported by the type of factual record today’s decision requires,
it is worth reemphasizing that the majority’s rule only applies to
laws that place significant burdens on speech. In the vast
majority of cases, litigants and District Courts need not consult
legislative history or grapple with the questions raised here.

127a
rather than procedure.
By extending judicial scrutiny to the legislative
process itself, the majority’s new tailoring standard
improperly eliminates much of the discretion that
Ward and McCullen confer on municipal decisionmakers.28 Ward tells municipalities that they need
not entertain every conceivable less-intrusive
alternative before adopting a speech law, because
hypothetical regulations that would not burden
substantially less speech than the chosen option are
irrelevant to the First Amendment calculus.29 Today’s
opinion, by contrast, tells municipalities not only that
they must entertain such alternatives, but that they
must also prepare a record demonstrating that they
“seriously considered” and “reasonably rejected” such
alternatives during the rulemaking process.
Similarly, Ward directs courts not to “sift[ ] through
all the available or imagined alternative means of
regulating” a given activity to “determine whether the
city’s solution was ‘the least intrusive means’ of
achieving the desired end.”30 Today’s decision
requires courts to sift through the available or
imagined alternatives to a challenged regulation and
determine whether the city “reasonably rejected” each
See also Hill, 530 U.S. at 727 (courts evaluating whether a
speech restriction “is the best possible accommodation of the
competing interests at stake” must “accord a measure of
deference” to the legislature’s judgment).
28

See Ward, 491 U.S. at 797 (“[R]estrictions on the time, place,
or manner of protected speech are not invalid ‘simply because
there is some imaginable alternative that might be less
burdensome on speech.’”) (quoting United States v. Albertini, 472
U.S. 675, 689 (1985)).
29

30

Ward, 491 U.S. at 797.

128a
one. This approach would be understandable if
McCullen had disavowed or limited Ward. But
McCullen expressly follows Ward and preserves
government discretion by reaffirming that a time,
place, and manner regulation “‘need not be the least
restrictive or least intrusive means of’ serving the
government’s interests.”31 Here, a rule that strikes
down speech laws whenever the government cannot
justify the non-adoption of less-restrictive alternatives treads impermissibly close to a rule requiring
governments to adopt the least restrictive alternative.
Today’s opinion also introduces a fundamental
inconsistency into our narrow-tailoring doctrine.
McCullen and its predecessors establish that any
time, place and manner regulation is constitutional so
long as it does not burden substantially more speech
than necessary to achieve the government’s aims. The
majority’s new rule bypasses this inquiry in cases of
“significant” burden and instead mandates a finding
of unconstitutionality whenever the government
cannot prove that it tried, properly considered, or
reasonably rejected less-restrictive alternatives. This
means that even if a regulation objectively does not
burden substantially more speech than necessary, it
will still be unconstitutional if the government cannot
prove that it engaged in the prescribed factfinding.
But this is not how narrow tailoring works. Under
McCullen and its predecessors, a regulation can be
perfectly constitutional even if the government has no
record of how it arrived at its rulemaking, so long as
the regulation does not burden substantially more
speech than necessary to serve a legitimate

31

McCullen, 134 S. Ct. at 2535 (quoting Ward, 491 U.S. at 798).

129a
government interest.32 The lack of such a record may
be relevant to the narrow-tailoring analysis, for all
the reasons explained in McCullen—but it is not
dispositive.
This case illustrates my concern. The majority
holds that the plaintiffs have successfully pleaded a
constitutional violation because (1) the City has
available to it less-restrictive alternatives such as
“anti-obstruction ordinances, criminal enforcement,
and targeted injunctions,” and (2) the City has failed
to try such measures or to justify its decision not to
adopt them.33 But this approach fails to address the
central constitutional question: assuming that the
proposed alternatives would burden less speech than
a 15-foot buffer zone, would they burden
substantially less speech?34 Or do they fall within
the range of slightly less burdensome restrictions that
the City remains free to reject out of hand because it
is not obligated to choose the least restrictive
alternative? To answer, we would need to assess the
actual burden imposed by the Ordinance; how much
less burdensome the proposed alternatives would be;
and how likely it is that the proposed alternatives
The inverse also holds true: if a law burdens substantially
more speech than necessary to achieve the government’s
interests, it should be declared unconstitutional regardless of the
government’s proffered justification.
32

33

Maj. Op. 28.

As explained in Section III, infra, the Pittsburgh buffer zone
at issue here burdens far less speech than the Massachusetts
zone in McCullen. Therefore, we cannot simply assume that the
alternative measures discussed in the McCullen opinion would
also burden substantially less speech than the Pittsburgh
Ordinance.
34

130a
would meet the City’s legitimate interests. The
majority’s per se proof rule skips over this analysis
and proceeds straight to the outcome.
To the extent the majority reads McCullen as
adopting a special rule for buffer zones, that
distinction does not appear on the face of the
McCullen opinion or follow naturally from the
Supreme Court’s reasoning. As the majority
recognizes elsewhere, what McCullen actually
demands is a nuanced tailoring analysis that
accounts for context and practical consequences—not
a rigid new tier of scrutiny for statutes that create
physical zones of exclusion. After all, every time the
government builds a fountain in a public park or
installs a planter on the sidewalk, it is technically
“carving out” a piece of the public forum and
preventing its use as a site for expression. We may
safely assume that the Supreme Court did not intend
such projects to be unconstitutional unless a city can
prove that smaller fountains and planters cannot
meet the city’s beautification needs. But I am also
confident that the McCullen Court did not intend to
require courts to develop a special body of
jurisprudence to deal with such questions.
In short, nothing in McCullen or its antecedents
requires courts to strike down a time, place, and
manner restriction whenever the government cannot
prove that it tried or seriously considered less
intrusive measures. Narrow tailoring permits a fit
between the legislature’s goal and method “that is not
necessarily perfect, but reasonable; that represents
not necessarily the single best disposition but one

131a
whose scope is in proportion to the interest served.”35
Plaintiffs will always be able to conceive and plead
less burdensome alternatives to a given regulation.
Forcing the government to identify those alternatives
and affirmatively disprove their viability prior to
legislating would convert narrow tailoring from a
“reasonable fit” requirement to a “perfect fit”
requirement. The availability of less-burdensome
alternatives is relevant only to the extent it informs
the ultimate question: whether the regulation
“‘burden[s] substantially more speech than is
necessary to further the government’s legitimate
interests.’”36 That standard, rather than the
majority’s inflexible “proof of prior efforts” rule,
should govern the outcome of this case.
III.
Plaintiffs’ invocation of less-intrusive alternatives
therefore does not resolve this case. We still must ask:
under the fact-specific tailoring analysis required by
McCullen, does the Pittsburgh Ordinance burden
substantially more speech than is necessary to
further the City’s legitimate interests in protecting
women’s access to pregnancy-related services,
ensuring public safety, and promoting the free flow of
traffic? The majority says “yes,” in part because it
views the burdens imposed by the Ordinance as
functionally indistinguishable from the burdens
imposed by the Massachusetts law in McCullen. I am
less certain. While I ultimately agree that the
Bd. of Trs. of State Univ. of N.Y. v. Fox, 492 U.S. 469, 480
(1989).
35

McCullen, 134 S. Ct. at 2535 (emphasis added) (quoting Ward,
491 U.S. at 799).
36

132a
Plaintiffs have adequately pleaded a First
Amendment
violation,
there
are numerous
distinctions between the buffer zones in McCullen
and the buffer zones in this case. These distinctions
demonstrate why this case cannot be decided simply
by citing the prospect of less-burdensome
alternatives.
Size of the Zones. The most obvious difference
between the Pittsburgh buffer zones and the
McCullen buffer zones is their size. The radius of the
Pittsburgh buffer is less than half the radius of the
Massachusetts buffer, and creates a zone whose total
area is less than one-fifth the area of the
Massachusetts
zone.
(Put
differently,
the
Massachusetts zone was 2.3 times longer, and its total
area was 5.4 times larger.) The Pittsburgh Ordinance
therefore carves out a substantially smaller piece of
the public forum.37 I agree with the majority that size
alone is not dispositive, and that what ultimately
matters is “the burden on speech that such zones
impose.”38 But when the regulation in question
enforces physical distances between speakers and
listeners, the distance is the burden. And there is
reason to think that the difference in size between the
Massachusetts and Pittsburgh zones is constitutionally significant.
The first point to bear in mind is that the buffer
zone perimeter is not an impermeable barrier that
Cf. McCullen, 134 S. Ct. at 2535 (the Massachusetts zones
“carve out a significant portion of the adjacent public
sidewalks”); id. at 2541 (Massachusetts has taken “the extreme
step of closing a substantial portion of a traditional public forum
to all speakers”).
37

38

Maj. Op. 26.

133a
prevents the transmission of Plaintiffs’ message to
individuals within the zone. Plaintiffs can speak to
women who are inside the zone or hand leaflets to
them if they are within arm’s reach. Plaintiffs can
begin a conversation with a woman outside the zone
and continue it as the woman enters the zone, or can
initiate a conversation with a woman while she is in
the zone and continue it as she exits.
The second, closely related point is that, because
the zone is situated around a point of ingress and
egress, potential listeners will be moving through the
zone rather than standing in a fixed location beyond
earshot. And the 15-foot buffer does not require
Plaintiffs to remain 15 feet away from patients—just
15 feet away from the clinic doors. Practically
speaking, then, a woman entering the clinic will at
first be quite close to the speaker and then only
gradually move 15 feet away, while a woman exiting
the clinic will begin 15 feet away but then move into
close proximity.
Therefore, a buffer zone around clinic entrances
does not really exclude speech throughout a physical
zone, but rather creates a temporal window during
which listeners are unable or less likely to receive the
speaker’s message. The length of that window defines
the actual speech burden imposed by the buffer
regulation. Here, the window seems short. With
respect to oral communication, the Supreme Court in
Hill concluded that a rule prohibiting speakers from
entering within eight feet of a listener still “allows the
speaker to communicate at a normal conversational
distance.”39 Accepting this premise, the Ordinance
39

Hill, 530 U.S. at 726-27.

134a
creates two relevant zones: an eight-foot zone in
which listeners can presumptively be reached
through Plaintiffs’ particular brand of conversational
messaging, and a seven-foot zone in which listeners
cannot be reached (or only reached with difficulty).
Women entering or leaving a clinic will likely traverse
this seven-foot “no-speech” zone in three or four
steps—a matter of seconds. The deprivation of those
few seconds of messaging seems like a minimal
burden on Plaintiffs’ speech.
It also seems like a much lesser burden than the
one imposed by the Massachusetts buffer zone, which
created a 27-foot “no-speech” zone in which women
presumably could not be reached. And while it may be
debatable whether Plaintiffs would truly be unable to
communicate with a woman in the inner seven-foot
zone around Pittsburgh clinics, it is much more likely
that they would have been completely unable to
communicate with a woman who was well within the
27-foot zone in McCullen. By the same token, if
women traversing the Pittsburgh buffer zone largely
remain within earshot of Plaintiffs’ message, that
would also alleviate the concern raised in McCullen
that “[i]f all that the women can see and hear are
vociferous opponents of abortion, then the buffer
zones have effectively stifled [sidewalk counselors’]
message.”40
Plaintiffs, following the Supreme Court’s lead in
McCullen, also allege that the Ordinance makes it
more difficult for them to distinguish patients from
passersby and initiate conversations before they enter
the buffer zone. I have not found support for the
40

McCullen, 134 S. Ct. at 2537.

135a
implicit premise that speakers have a First
Amendment right to identify preferred listeners.
Either way, here again there is a qualitative
distinction between a 35-foot buffer and a 15-foot
buffer. A patient heading toward a clinic will almost
certainly have manifested her intention to enter the
clinic by the time she is 15 feet from its entrance, but
is less likely to have done so at 35 feet out. A patient
would have to be lost or particularly furtive to avoid
being noticed by counselors standing 15 feet from the
clinic doors. Thus, assuming that Plaintiffs’ ability to
recognize patients is a valid First Amendment
consideration, I doubt that the Ordinance seriously
hampers that ability.
The Ordinance does, however, place a greater
burden on leafleting. Unlike the statute in Hill, the
Ordinance does not allow speakers to stand within the
zone and hand out literature to passing women, but
rather forces them to do so from outside the zone. But
as we noted in Brown, “[a]lthough the buffer zone,
standing alone, would require leafletters to remain
beyond arm’s reach of a medical facilities’ entrances,
they would still be able to approach individuals
outside of the 15-foot radius in order to distribute
their literature.”41 In Hill, the Supreme Court “noted
approvingly that the bubble zone allowed leafletters
to stand stationary in the path of oncoming
pedestrians,” which is also the case for Plaintiffs 15
feet away from the clinic entrance.42 And because the
smaller 15-foot zone gives Plaintiffs more time to
identify potential patients, it affords greater
41

Brown, 586 F.3d at 281.

42

Id. at 278 (citing Hill, 530 U.S. at 727-28).

136a
opportunity to physically intercept listeners and offer
literature.
Scope of Prohibited Activity. The Massachusetts law made it unlawful for anyone to “knowingly
enter or remain” within a buffer zone. The Pittsburgh
Ordinance makes it unlawful to “knowingly congregate, patrol, picket or demonstrate” within a buffer
zone. There are at least two consequential distinctions between these prohibitions.
First, as the McCullen Court disapprovingly
observed, the Massachusetts law prohibited all
speech of any kind within the zone, from political
advocacy all the way down to cell phone conversations
or casual discussions about the weather. The
Pittsburgh Ordinance, by contrast, restricts only
certain kinds of protest speech—“picketing” and
“demonstrating.”43 To be sure, such speech is core
First Amendment speech. But it is nonetheless true
that the Ordinance’s prohibitions sweep far less
widely than the Massachusetts law, and do not
prohibit innocent or casual speech within the zone.
Second, the Ordinance, unlike the Massachusetts
law, permits protesters and counselors to move
through the buffer zone. This understanding has been
confirmed by the City in a limiting interpretation.44
The majority is therefore incorrect to characterize the
Ordinance as a “blanket prohibition on Plaintiffs’ speech in a
historically-public forum.” Maj. Op. 30.
43

See Brown, 586 F.3d at 274 (“When considering a facial
challenge to a state law, ‘a federal court must, of course, consider
any limiting construction that a state court or enforcement
agency has proffered.’” (quoting Vill. of Hoffman Estates v. The
Flipside, Hoffman Estates, Inc., 455 U.S. 489, 494 n.5 (1982))).
44

137a
The City explains in its brief that before the
December 2014 preliminary injunction hearing, “Ms.
Bruni and the other plaintiffs apparently believed the
Ordinance prohibited them from passing through the
zone at all even if they refrained from prohibited
conduct while in the zone—for example, if they were
standing on one side of the clinic’s doorway and
wanted to engage someone approaching from the
other side. However, that erroneous understanding
has been clarified . . . .”45 To the extent this limitation
gives Plaintiffs greater opportunity to physically
intercept patients before they enter the zone or on
their way out, it bears directly on whether the
Ordinance
burdens
sidewalk
counseling
“substantially” more than necessary.
Statutory Reach. A key failing of the
Massachusetts law was its overbreadth: while the
record showed that congestion was only a problem at
one Boston clinic on Saturday mornings, the law
created permanent buffer zones at every single clinic
throughout the state. “For a problem shown to arise
only once a week in one city at one clinic, creating 35foot buffer zones at every clinic across the
Commonwealth is hardly a narrowly tailored
solution.”46 The Pittsburgh Ordinance, by contrast,
only applies to clinics within one city. Moreover,
following the District Court’s post-remand injunction,
the City must clearly demarcate any buffer zone prior
to its enforcement.47 The Complaint only identifies
one such demarcated buffer zone, outside the
45

City Br. 18.

46

McCullen, 134 S. Ct. at 2539.

47

App. 150a.

138a
downtown Planned Parenthood Clinic.48 And because
the Ordinance only prohibits certain types of protest
speech, it does not ban speech throughout the week
like the Massachusetts law, but only at times when
protest activity actually occurs. In contrast to the
Massachusetts law, the Pittsburgh Ordinance
appears tailored to address a particular problem in a
particular location at particular times.
*

*

*

Accordingly, there are strong practical and
doctrinal reasons to conclude that the City’s buffer
zones are qualitatively different from—and burden
significantly less speech than—the Massachusetts
buffer zones in McCullen. There is correspondingly
less reason to conclude that the mere possibility of
less-intrusive alternatives requires a finding that the
Ordinance burdens substantially more speech than
necessary.
I agree with the majority, however, that it is not
the Court’s role on a 12(b)(6) motion to supplant the
well-pleaded allegations with its own speculation, or
to question the Plaintiffs’ characterization of their
experiences. The Ordinance may function in the ways
I have described above; it may not. What Plaintiffs
allege in the Complaint, however, is that the
Ordinance “prohibits Plaintiffs and others from
effectively reaching their intended audience”; that the
Pittsburgh zones “make it more difficult [for the]
Plaintiffs to engage in sidewalk counseling, prayer,
advocacy, and other expressive activities”; and that
the Ordinance “will cause conversations between the
Plaintiffs and those entering or exiting the facilities
48

App. 57a.

139a
to be far less frequent and far less successful.”49 These
are plausible consequences of the buffer zone’s
restrictions on sidewalk counseling activity, which,
according to Plaintiffs, can only be undertaken
“through close, caring, and personal conversations,
and cannot be conveyed through protests.”50 And
while Plaintiffs may be able to speak with women in
the zone, there is no dispute that the Ordinance
categorically prohibits leafleting within a fixed
portion of a public forum.51
The Complaint also includes allegations
suggesting that the Ordinance sweeps more broadly
than necessary to meet the City’s interests. As in
McCullen, the City’s use of a fixed buffer zone
plausibly suggests that the City adopted the
Ordinance because it would be easy to enforce, rather
49

App. 56a, 60a.

50

App. 61a.

The ability to leaflet was a key feature of the Colorado statute
upheld in Hill and a crucial failing of the Massachusetts law
struck down in McCullen. As Hill acknowledged and McCullen
emphasized, “handing out leaflets in the advocacy of a politically
controversial viewpoint is the essence of First Amendment
expression; no form of speech is entitled to greater constitutional
protection.” McCullen, 134 S. Ct. at 2536. A sidewalk counselor
who stands in place offering leaflets for a patient to accept or
reject does not seem like a serious impediment to patient access
or public safety. That said, the Ordinance could conceivably be
construed to permit leafleting in the buffer zone while still
prohibiting counseling and other forms of importunate speech.
The Ordinance only prohibits “congregating,” “patrolling,”
“picketing,” and “demonstrating” within the zone. Silent
leafleting does not fit cleanly into “picketing” or
“demonstrating,” and clearly is not covered by “congregating” or
“patrolling.” The Ordinance may be susceptible to a limiting
construction in this regard.
51

140a
than because less intrusive measures could not serve
its legitimate interests. Plaintiffs also claim that
different laws targeted only at harassing or
obstructive behavior, such as the ones discussed in
McCullen, would burden less speech than the fixed
buffer zones imposed by the Ordinance. And crucially,
Plaintiffs allege that “no specific instances of
obstructive conduct outside of hospitals or health care
facilities in the City of Pittsburgh . . . provide support
for the law.”52
McCullen instructs us to be sensitive to context
and to the practical effects of the Ordinance on
Plaintiffs’ particular messaging strategy. The
allegations in the Complaint, taken as true, plausibly
establish that the Ordinance burdens substantially
more speech than is necessary to achieve the City’s
legitimate interests. It is up to a factfinder to
determine whether the Ordinance in fact burdens
“substantially” more speech than necessary (or,
conversely, whether alternative measures would
burden “substantially” less speech while still meeting
the City’s interests). I disagree with the majority’s
conclusion that the availability of unexamined, lessrestrictive alternatives is sufficient, standing alone,
to establish a constitutional violation. But I cannot
conclude, on the basis of the allegations in the
Complaint, that the Pittsburgh buffer zones operate
so differently from the Massachusetts zones that
Plaintiffs cannot advance past the pleading stage.
Accordingly, I concur in the judgment denying the
City’s motion to dismiss the free speech claim.

52

App. 56a.

141a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA

NIKKI BRUNI, JULIE
COSENTINO, CYNTHIA
RINALDI, KATHLEEN
LASLOW, and PATRICK
MALLEY,
Plaintiffs,
v.
CITY OF PITTSBURGH,
PITTSBURGH CITY
COUNCIL, and WILLIAM
PEDUTO, in his official
capacity as Mayor of the City
of Pittsburgh,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civil Action
No. 14-1197
Judge Cathy
Bissoon

MEMORANDUM AND ORDER
This matter is before the Court on Plaintiffs’
Motion for Preliminary Injunction (Doc. 3) and
Defendants’ Motion to Dismiss (Doc. 15). A hearing
took place on December 3, 2014. Upon full
consideration of the evidence presented, Plaintiffs’
Motion for Preliminary Injunction will be denied, and
Defendants’ Motion to Dismiss will be granted in part
and denied in part.

142a
A. Findings of Fact
Section 623.04 of the Pittsburgh Code of
Ordinances, titled “Fifteen Foot Buffer Zone,” sets
forth that:
[n]o person or persons shall knowingly
congregate, patrol, picket or demonstrate in a
zone extending fifteen (15) feet from any
entrance to the hospital and or health care
facility. This section shall not apply to police
and public safety officers, fire and rescue
personnel, or other emergency workers in the
course of their official business, or to
authorized security personnel employees or
agents of the hospital, medical office or clinic
engaged in assisting patients and other
persons to enter or exit the hospital, medical
office, or clinic.
Pittsburgh, Pa., Code tit. 6, § 623.04 (the
“Ordinance”). A permanent injunction altered the
Ordinance in 2009, requiring, inter alia, that the City
clearly demarcate any buffer zone prior to its
enforcement. Order Granting Permanent Injunction
(the “Injunction” or “Inj.”), ECF 2:06-cv-00393, Doc.
85, ¶ 1 (W.D. Pa. Dec. 17, 2009). Presently, two “buffer
zones” are delineated and enforced in the City of
Pittsburgh, both of which are located outside of
reproductive health care facilities where abortions
are performed. One of the two buffer zones is
indicated by a bright, yellow semi-circle painted
around the entrance of 933 Liberty Avenue, the
downtown Planned Parenthood clinic (“933 Liberty”
or “downtown Planned Parenthood”). The buffer zone
outside of that location extends fifteen feet in each
direction from the outside edge of the double-door

143a
entrance; at its widest point, it is approximately 36
feet long.
Defendants’ asserted interests in maintaining the
buffer zone Ordinance include “protecting the
woman’s freedom to get necessary medical care, and
insuring public safety and order,” in addition to
“ensur[ing] that patients have unimpeded access to
medical services while ensuring that the First
Amendment rights of demonstrators to communicate
their message to their intended audience is not
impaired.” Tr. of Hearing on Mot. For Prelim. Inj. and
Mot. To Dismiss, Dec. 3, 2014, (“Tr.”) (Doc. 23) at p.
89; Pittsburgh, Pa., Code tit. 6, § 623.01. Prior to the
enactment of the Ordinance, there were incidents of
physical intimidation, violence and obstruction where
the buffer zone now stands. Such incidents have
rarely, if ever, occurred since the buffer zone has been
implemented.
Plaintiffs regularly engage in anti-abortion
activities outside of the buffer zone at the downtown
Planned Parenthood. Their advocacy takes the form
of “sidewalk counseling,” through which they “seek to
have quiet conversations and offer assistance and
information to abortion-minded women by providing
them pamphlets describing local pregnancy
resources, praying, and peacefully expressing this
message of caring support to those entering and
exiting the clinic.” Pl.’s Proposed Findings of Fact and
Conclusions of Law (Doc. 25) at p. 8, ¶ 20. Plaintiff
Nikki Bruni (“Plaintiff Bruni” or “Mrs. Bruni”) began
sidewalk counseling at the downtown Planned
Parenthood in 2009, after the Injunction invalidated
a provision of the Ordinance that had previously
banned sidewalk counseling within 100 feet of the
clinic entrance. The buffer zone has been in place

144a
since before Mrs. Bruni began sidewalk counseling.
She regularly engages in prayer, leafleting, sidewalk
counseling, and general anti-abortion advocacy
outside of the buffer zone’s yellow boundary line.
Mrs. Bruni stands directly outside of the buffer
zone, approaches potential Planned Parenthood
patients, and offers them literature and conversation
about alternatives to abortion. If she is walking
alongside a Planned Parenthood patient headed
towards the clinic entrance, she stops at the buffer
zone’s boundary. From there, she continues to speak,
and outstretches her arm to offer literature. At that
point, the patient may continue the approximately
five additional steps into the clinic; stop in her tracks
and continue to converse with Mrs. Bruni; or exit the
buffer zone in order to continue the conversation. All
three scenarios have occurred. The buffer zone does
not prevent a willing listener from stopping within
the zone in order to accept Mrs. Bruni’s literature and
listen to her message, or from exiting the zone in order
to converse with her further. The Ordinance does not
prevent Mrs. Bruni or anyone else from engaging in
sidewalk counseling with individuals leaving the
clinic, once they exit the buffer zone.
Mrs. Bruni believes that she would reach more
people if permitted to walk with them for the
additional fifteen feet between the edge of the buffer
zone and the clinic entrance. It is not often that the
women she approaches stop, turn around, and exit the
buffer zone in order to continue to speak with her,
although this has occurred from time to time. Ninety
percent of those entering the downtown Planned
Parenthood facility are doing so for non-abortionrelated purposes.

145a
Abortions are performed at the downtown
Planned Parenthood on Tuesdays, Fridays and
Saturdays. On those days, approximately four to six
individuals engage in some form of demonstrating or
picketing outside of the buffer zone. More individuals
are present during the bi-annual Forty Days for Life
campaign. See infra. Paula Harris (“Ms. Harris”),
Planned Parenthood Volunteer Coordinator, and Kim
Evert, President and CEO of Planned Parenthood of
Western Pennsylvania, can hear those outside of the
zone speaking in normal, conversational tones, even
when they stand at the clinic entrance, the point
farthest from the edge of the zone. Patients regularly
enter the clinic holding literature given to them by
sidewalk counselors.
Defendants have acknowledged that ordinary
pedestrian traffic is permitted in the buffer zones.
Prior to the December 3, 2014, Motion Hearing,
Plaintiff Bruni understood the Ordinance to prohibit
sidewalk counselors from walking through the buffer
zone in order to reach a patient approaching the clinic
from its other side. She stated that the buffer zone
forecloses her opportunity to reach those patients for
that reason. Defendants clarified that the Ordinance
does not prohibit sidewalk counselors from walking
through the buffer zone in order to reach a particular
audience, as long as they refrain from engaging in
sidewalk counseling as they do so. As such, Mrs.
Bruni may access potential patients who approach
the downtown Planned Parenthood from either side of
the zone. Mrs. Bruni acknowledged that it will be
easier to engage in sidewalk counseling now that she
knows she is permitted to walk through the buffer
zone.
Mrs. Bruni has been an organizer and leader of

146a
the Pittsburgh Forty Days for Life campaign since
2010. The campaign occurs every spring and fall, and
the individuals involved pray outside of abortion
clinics from 7:00 am to 7:00 pm every day for forty
days. The participants additionally engage in
sidewalk counseling. Plaintiffs do not shout their
message, but rather aim to engage women in one-onone conversation.
The City of Pittsburgh reads the Ordinance to
prohibit sidewalk counseling, as a form of “picketing”
or “demonstrating,” within the demarcated buffer
zones. Defendants have not issued any citations for
violations of the Ordinance since the Injunction was
issued. They have expressed an intent to enforce the
Ordinance against those who engage in sidewalk
counseling within the buffer zone. Plaintiffs refrain
from sidewalk counseling within the demarcated
buffer zone for fear of being subjected to penalties of
monetary fines and, if violations are repeated,
incarceration. See Pittsburgh, Pa., Code tit. 6, §
623.05 (indicating the penalties imposed for
violations of the Ordinance).
Defendants have not stated whether they intend
to enforce the Ordinance as against agents or
employees of the downtown Planned Parenthood and,
if they do so intend, what agent or employee actions
might constitute a violation of the Ordinance.
Plaintiffs accuse Planned Parenthood escorts of
congregating and demonstrating within the buffer
zone, in violation of the Ordinance. On one occasion,
Plaintiff Laslow witnessed an escort stand inside the
buffer zone and speak to an anti-abortion advocate,
located outside of the zone. She also witnessed escorts
standing within the zone, speaking to one another.
She does not report the contents of either

147a
communication. Ms. Laslow recounts that when she
reported her observations to City of Pittsburgh Police
Officer Viskovicz, he informed her that the Ordinance
did not prohibit these actions, as the escorts are
“exempt.” Pl.’s Supp. Br. (Doc. 24), Ex. 1 (“Laslow
Aff.”) at ¶ 8. There is no evidence that Officer
Viskovicz made any inquiry into the substance or
context of the escorts’ statements or actions.
Ms. Harris has been the volunteer coordinator for
clinic escorts at the downtown Planned Parenthood
for approximately 17 years. She trains and supervises
escorts, and volunteers as an escort herself. “A clinic
escort is a volunteer who is trained to walk alongside
patients and their companions who want to be
accompanied as they approach or leave a health care
facility.” Def.’s Br. in Opp’n. (Doc. 13), Ex. 2 (“Harris
Aff.”) at ¶ 2. The role of the clinic escort is not to
prevent communication between patients and antiabortion activists; it is to “provide a calming, peaceful,
patient-focused presence and to ensure that protests
do not endanger patients or impede women’s access to
medical care.” Id. at ¶ 3. Ms. Harris “trains [the]
escorts specifically to never engage in political
proselytizing of any kind while in the buffer zone
because [she] understand[s] that there is a Court
order that prohibits that conduct.” Id. at ¶ 5.
B. Procedural History
By way of background and procedural history, the
Pittsburgh City Council enacted the Ordinance,
supplementing the Pittsburgh Code of Ordinances, in
December of 2005. Pittsburgh, Pa., Code tit. 6, §§
623.01-.07. In relevant part, the Ordinance set forth:
§ 623.03 – EIGHT FOOT PERSONAL
BUBBLE ZONE. No person shall knowingly

148a
approach another person within eight (8) feet
of such person, unless such other person
consents, for the purpose of passing a leaflet
or handbill to, displaying a sign to, or
engaging in oral protest, education or
counseling with such other person in the
public way or sidewalk area within a radius of
one hundred (100) feet from any entrance door
to a hospital and/or medical office/clinic.
§ 623.04 – FIFTEEN FOOT BUFFER ZONE.
No person or persons shall knowingly
congregate, patrol, picket or demonstrate in a
zone extending fifteen (15) feet from any
entrance to the hospital and or health care
facility. This section shall not apply to police
and public safety officers, fire and rescue
personnel, or other emergency workers in the
course of their official business, or to
authorized security personnel employees or
agents of the hospital, medical office or clinic
engaged in assisting patients and other
persons to enter or exit the hospital, medical
office, or clinic.
Pittsburgh, Pa., Code tit. 6, §§ 623.03-.04 “Hospital”
is defined as:
An institution that:
(1) Offers services beyond those required for
room, board, personal services and general
nursing care; and,
(2) Offers facilities and beds for use beyond 24
hours by individuals requiring diagnosis,
treatment, or care for illness, injury,
deformity, infirmity, abnormality, disease, or
pregnancy; and,

149a
(3) Regularly makes available clinical
laboratory services, diagnostic X-ray services,
and treatment facilities for surgery or
obstetrical treatment of similar extent.
Hospitals may include offices for medical and
dental personnel, central facilities such as
pharmacies, medical laboratories and other
related uses.
Ordinance § 623.02. “Health care facility,” as
referenced in section 623.04 of the Ordinance, is not
defined therein.
Shortly after taking effect, the Ordinance was
challenged as, inter alia, facially invalid under the
First Amendment. Brown v. City of Pittsburgh, 543
F.Supp.2d 448 (W.D. Pa. 2008) (Fischer, J.). The
district court denied the plaintiffs’ Motion for a
Preliminary Injunction and dismissed several counts
of the complaint. Id. The plaintiffs appealed, and the
Court of Appeals for the Third Circuit affirmed in
part, reversed in part, and dismissed in part. Brown
v. City of Pittsburgh, 586 F.3d 263 (3d Cir. 2009).
Relevant to the instant motion, the Third Circuit
reached the merits of the facial challenge to the
Ordinance. It held that the eight foot bubble zone (the
“bubble zone”) and the fifteen foot buffer zone (the
“buffer zone”) each individually passed constitutional
muster, but when considered in combination, imposed
a facially unconstitutional burden on free speech. Id.
The Court of Appeals remanded the case back to
district court for further proceedings. Id.
Post-remand, the district court ordered that the
bubble zone provision at section 623.03 be
“permanently enjoined in toto.” Inj. at ¶ 1. Section
623.04, creating the fixed buffer zone, remained,

150a
although the Injunction required that the buffer zone
provision be construed to prohibit “all persons” from
picketing and demonstrating within the boundaries of
the buffer zone. Id. at ¶ 2; see Brown, 586 F.3d at 275
(“We find § 623.04 amenable to the content-neutral
construction urged by the City, that is, an
interpretation prohibiting even the exempted classes
of persons from ‘picketing or demonstrating’ within
the buffer zone.”) (internal alterations omitted).
Accordingly, the exemption for “police and public
safety officers, fire and rescue personnel, or other
emergency workers in the course of their official
business, or to authorized security personnel
employees or agents of the hospital, medical office or
clinic engaged in assisting patients and other persons
to enter or exit the hospital, medical office, or clinic”
does not permit those persons to engage in “any
action, activity or signage in the form of picketing or
demonstrating.” Inj. at ¶ 2. Rather, it creates an
exemption from the ban on congregating and
patrolling, but only for emergency personnel “in the
course of their official business” and agents/
employees of hospitals and health care facilities,
insofar as they are engaged in “assisting patients and
other persons to enter or exit” the relevant facility.
This exemption is a narrow one; health care facility or
hospital employees may not congregate or patrol
within the zones unrelated to assisting individuals
with facility ingress and egress. The Injunction
further requires that the City provide Pittsburgh City
Police with oral and written training materials
regarding enforcement of the Ordinance. Id. at ¶ 3.
On June 26, 2014, the Supreme Court issued its
decision in McCullen v. Coakley, striking down the
amended Massachusetts Reproductive Health Care

151a
Facilities Act (the “MRHCA”) as insufficiently
narrowly tailored to achieve the Commonwealth’s
legitimate government interests. 134 S.Ct. 2518
(2014). The MRHCA as amended “ma[de] it a crime to
knowingly stand on a ‘public way or sidewalk’ within
35 feet of an entrance or driveway to any ‘reproductive
health care facility,’ defined as ‘a place, other than
within or upon the grounds of a hospital, where
abortions are offered or performed.” Id. at 2522. On
September 4, 2014, Plaintiffs filed a complaint (the
“Complaint”) lodging a facial and as applied challenge
to the Ordinance, in light of McCullen. Compl. at ¶ 1
(Doc. 1). On September 5, 2014, Plaintiffs moved the
Court to issue a preliminary injunction “to restrain
Defendants, and all persons acting at their command
or direction, from enforcing Pittsburgh Code of
Ordinance [sic] § 623.01 et. seq. because it is
unconstitutional on its face and as applied to
Plaintiffs’ and others’ expressive activities.” Pl.’s Mot.
for Prelim. Inj.
C. Conclusions of Law
1. Motion for Preliminary Injunction
A party seeking a preliminary injunction must
demonstrate the following: (1) a likelihood of success
on the merits; (2) that he or she will suffer irreparable
harm if the injunction is denied; (3) that granting
relief will not result in even greater harm to the
nonmoving party; and (4) that the public interest
favors such relief. Miller v. Mitchell, 589 F.3d 139,
147 (3d Cir. 2010) (citing Child Evangelism
Fellowship of N.J. Inc. v. Stafford Twp. Sch. Dist., 386
F.3d 514, 524 (3d Cir. 2004)). “[A] preliminary
injunction is an extraordinary and drastic remedy,
one that should not be granted unless the movant, by

152a
a clear showing, carries the burden of persuasion.”
Mazurek v. Armstrong, 520 U.S. 968, 972 (1997); see
also P.C. Yonkers, Inc. v. Celebrations the Party and
Seasonal Superstore, LLC, 428 F.3d 504, 508 (3d Cir.
2005) (holding that the plaintiff bears the burden of
establishing each element in his or her favor before
the Court may award this “extraordinary remedy”);
O’Neill v. Twp. of Lower Southampton, 2000 WL
337593, at 1 (E.D. Pa. 2000) (“The grant of an
injunction, prior to a full hearing on the merits, is an
extraordinary remedy and requires Plaintiff to meet
a high burden of proof.”). The Court finds that, based
upon the testimony, evidence and arguments
presented, Plaintiffs have not met their high burden
of demonstrating a likelihood of success on the merits.
Plaintiffs challenge the Ordinance as a violation
of the First and Fourteenth Amendments, but they
restrict their Motion for a Preliminary Injunction to a
portion of their First Amendment claim. The Court
addresses each of their arguments in turn.
a) Overbreadth
Plaintiffs argue that the Ordinance is facially
overbroad, restricting the speech of Plaintiffs and
others “at countless locations throughout the City
where there is no plausible justification for the
ordinance.” Pl.’s Mem. in Supp. of Mot. for Prelim. Inj.
(“Pl.’s Mem.”) (Doc. 4) at 7-8. In support of this
argument, Plaintiffs cite the McCullen Court’s
decision to strike down the MRHCA as violation of the
First Amendment, in that it restricted substantially
more speech than necessary to protect a compelling
government interest. Id. at 8. However, the McCullen
Court made such a finding in the context of a narrow
tailoring analysis, not an overbreadth one. 134 S.Ct.

153a
2518. In fact, they specifically noted that they “need
[not] consider petitioners’ overbreadth challenge.” Id.
at n. 9. As they did not reach the overbreadth issue,
they did not alter the relevant doctrine that was
applied in Hill v. Colorado, 530 U.S. 703 (2000), and,
subsequently, Brown. 586 F.3d 263.
The court of appeals in Brown found that to the
extent that Brown brought a facial overbreadth
challenge, “her attack is foreclosed by Hill [, 530 U.S.
at 730].” 586 F.3d at n. 10, 21. As McCullen is not
intervening law on the issue of overbreadth, Hill’s
application of the overbreadth doctrine remains good
law.1 The Court of Appeals for the Third Circuit’s
finding, pursuant to Hill, that the Ordinance is not
facially overbroad remains binding on this Court. In
light of Brown’s precedential holding, and the fact
that Plaintiffs cite arguments from McCullen’s
narrow tailoring analysis, Plaintiffs have failed to
demonstrate a likelihood of success on the merits of a
constitutional overbreadth claim. See Brown, 586
F.3d at n. 10 (holding that “[w]hat the petitioners
classified as an ‘overbreadth’ problem . . . was better
understood analytically as a concern to be addressed
within the framework of Ward’s narrow-tailoring
test.”) (quoting Hill, 530 U.S. at 731).
b) Content-Based Claim
Plaintiffs argue that the Ordinance is “content
and viewpoint based on its face,” and as-applied, and
is thus subject to strict scrutiny. Pl.’s Mem. at 12. The
The Court of Appeals for the Third Circuit noted that the Hill
Court found “the comprehensiveness of the statute [to be] a
virtue, not a vice, because it is evidence against there being a
discriminatory governmental motive.” 586 F.3d at n. 10 (quoting
Hill, 530 U.S. at 731).
1

154a
Court first addresses Plaintiffs’ facial contentdiscrimination challenge. Again, here, the Court of
Appeals for the Third Circuit has already found the
Ordinance to be facially content-neutral. Brown, 586
F.3d at 270-71, 275 (citing Hill, 530 U.S. 703). Thus,
only if McCullen overruled or altered the contentneutrality doctrine as set forth in Hill — thereby
abrogating Brown — may the Court revisit this claim.
Plaintiffs have not persuaded the Court that
McCullen has altered Hill’s content-neutrality
analysis, and thus they have not demonstrated a
likelihood of success on the merits of a facial contentdiscrimination challenge.
The McCullen Court found the MRHCA to be
content-neutral. Rather than ban physical presence
within a fixed buffer zone like the MRHCA, the
Ordinance bans congregating, patrolling, picketing or
demonstrating within such a zone. Pittsburgh, Pa.,
Code tit. 6, § 623.04. If an individual is accused of
“demonstrating” or “picketing” within the buffer zone,
a police officer may need to inquire as to that person’s
statements in order to determine if she was violating
the Ordinance or, for example, merely saying “good
morning” to her fellow pedestrians. Plaintiffs argue
that McCullen altered the test for content-neutrality
utilized in Hill when it noted that a law or regulation
may be viewpoint-based if it requires “enforcement
authorities to examine the content of the message
that is conveyed to determine whether a violation has
occurred.” McCullen, 134 S.Ct. at 2531 (quoting
F.C.C. v. League of Women Voters of Cal., 468 U.S.
364, 383 (1984)); Pl.’s Mem. at 12. Plaintiffs state
that, “[n]otably, this test for content-based speech was
rejected in Hill v. Colorado, 530 U.S. 703, 720-24
(2000). But the more recent and unanimous definition

155a
set forth in McCullen controls.” Id. at fn. 5.
Contrary to Plaintiffs’ contentions, McCullen did
not overrule the content-neutrality standard applied
in Hill. The Hill Court clarifies that a regulation is
content-based if its application turns on the substance
of a communication, not the mode or method of
expression. Hill, 530 U.S. at 719-725 (relying on
Carey v. Brown, 447 U.S. 455 (1980) as the source of
its content-neutrality doctrine). The petitioners in
Hill presented an argument similar to Plaintiffs’,
noting that Colorado’s law applied to some, but not
all, oral communications within a bubble zone.2 The
Hill Court elucidated that “content” refers to either
the topic discussed or the viewpoint expressed,
explaining:
[a]lthough our opinion [in Carey] stressed
that “it is the content of the speech that
determines whether it is within or without
the statute’s blunt prohibition,” we appended
a footnote to that sentence explaining that it
was the fact that the statute placed a
prohibition on discussion of particular topics,
while others were allowed, that was
constitutionally repugnant. Regulation of the
subject matter of the messages, though not as
obnoxious as viewpoint-based regulation, is
also an objectionable form of content-based
The Colorado statute only applied when one approached within
eight feet of another “for the purpose of . . . engaging in oral
protest, education, or counseling.” Hill, 530 U.S. at 720. It thus
required law enforcement to distinguish between “oral protest,
education, or counseling,” on the one hand, and all other
communications, on the other. The Supreme Court found this to
law to be content-neutral.
2

156a
regulation.
Hill, 530 U.S. at 722-23 (internal citations omitted)
(emphasis added). It is the need for law enforcement
to analyze the substance of speech, resulting in the
disproportionate regulation of expression on certain
topics or viewpoints, that renders a statute or practice
content-based.
In contrast, “[i]t is common in the law to examine
the content of a communication to determine the
speaker’s purpose.” Id. at 721. In particularly
relevant dicta, the Hill Court noted that:
cases may arise in which it is necessary to
review the content of the statements made by
a person approaching within eight feet of an
unwilling listener to determine whether the
approach is covered by the statute. But that
review need be no more extensive than a
determination whether a general prohibition
of “picketing” or “demonstrating” applies to
innocuous speech. The regulation of such
expressive activities, by definition, does not
cover social, random, or other everyday
communications. See Webster's Third New
International Dictionary 600, 1710 (1993)
(defining “demonstrate” as “to make a public
display of sentiment for or against a person or
cause” and “picket” as an effort “to persuade
or otherwise influence”). Nevertheless, we
have never suggested that the kind of cursory
examination that might be required to
exclude casual conversation from the
coverage of a regulation of picketing would be
problematic.
530 U.S. at 721-22. The Hill Court held that the

157a
Colorado statute is content neutral because it “is not
limited to those who oppose abortion” and “it applies
to all . . . demonstrators whether or not the
demonstration concerns abortion.” Id. at 725.
Nothing in McCullen indicates tension with the
doctrine as set forth in Hill. While the Supreme Court
states that “[t]he Act would be content-based if it
required enforcement authorities to examine the
content of the message that is conveyed to determine
whether a violation has occurred,” the decision
provides no indication that the McCullen Court
understands “content” any differently than the
Supreme Court did in Hill. McCullen, 134 S.Ct. at
2531. In fact, McCullen makes this statement when
specifically addressing an allegation that the
application of the MRHCA burdened speech on the
topic of abortion more than any other subject matter.
This Court finds unpersuasive Plaintiffs’ position that
the Supreme Court — in one line and without a
citation to Hill — intended to radically alter the
content-neutrality standard as carefully and
thoroughly set forth in that case. Thus, Hill’s
essential holding is controlling, and Brown’s
application of that standard, and conclusion that the
Ordinance is facially content-neutral, remains intact
and binding on this Court.3 See Brown, 586 F.3d at
The Court additionally notes that there have been four
Supreme Court cases addressing the First Amendment rights of
anti-abortion protesters outside reproductive healthcare
facilities. The Supreme Court has now found that four
differently-worded statutes and injunctions creating buffer or
bubble zones around abortion clinics to be content-neutral. See
Madsen v. Women’s Health Center, Inc., 512 U.S. 753, 762-764
(1994); Schenck v. Pro-Choice Network of Western New York,
519 U.S. 357 (1997); Hill, 530 U.S. 703; McCullen, 134 S.Ct.
3

158a
270-72.
Plaintiffs also argue that the Ordinance is facially
content-based because it exempts “facility employees
who escort clinic patients into the abortion facility,
and by that exemption, exempts their speech.” Pl.’s
Mem. at 13-14. Plaintiffs criticize Defendants’ failure
to amend the Ordinance in light of the Injunction, and
contend that the law discriminates based on
viewpoint by permitting clinic escorts to demonstrate
and picket within the buffer zone. The Brown Court
found the Ordinance “amenable to the contentneutral construction urged by the City, that is, an
interpretation prohibiting even the exempted classes
of persons from ‘picketing or demonstrating’ within
the buffer zone.” 586 F.3d at 275 (internal alterations
omitted). That construction was later incorporated
into the district court’s permanent injunction. Inj. at
¶ 2 (“Defendants shall construe and enforce Section
2518. Notably, in Madsen, the Supreme Court found an
injunction banning “congregating, picketing, patrolling, [or]
demonstrating,”— as is the case in the City of Pittsburgh’s
Ordinance — to be content-neutral. 512 U.S. 753, 762-764
(1994). Most recently, the McCullen Court found the MRHCA to
be content-neutral. In addition, the Court of Appeals for the
Third Circuit found Section 623.04 of the Ordinance to be
content neutral when it was challenged prior to McCullen.
Brown, 586 F.3d at 275.
As Brown relied not only on Hill for its content-neutrality
doctrine, but also on Madsen and Schenck, Plaintiffs must
demonstrate that McCullen altered the doctrine in each of those
cases in order to make appropriate a second review of the facial
content-neutrality of the Ordinance. While our analysis may end
with a re-affirmance of the doctrine in Hill, the Court notes that
Plaintiffs also have failed to demonstrate that McCullen altered
the content-neutrality analysis as espoused in Madsen, Schenck
and Brown.

159a
623.04 of the Ordinance in a manner that does not
permit any person to picket or demonstrate within the
boundaries of the 15 foot buffer zone.”) (emphasis
added). Plaintiffs’ Memorandum ignores the Court’s
obligation to follow the holdings of the Court of
Appeals for the Third Circuit, and the previous
Injunction, when assessing the Ordinance in the
instant case. When questioned about this during the
December 3, 2014, hearing, Plaintiffs stipulated that
they challenge the law as modified by the Injunction.
Tr. at p. 10. As Plaintiffs concede4 that they challenge
the present law, which was deemed content-neutral
by the Court of Appeals for the Third Circuit, their
argument to the contrary is foreclosed. See Brown,
586 F.3d at 275. For the above reasons, the Ordinance
is facially content-neutral, and thus Plaintiffs have
not demonstrated a likelihood of success on the merits
of a claim that it discriminates based on viewpoint,
requiring the application of strict scrutiny. Brown,
586 F.3d at 275 (holding that section 623.04 of the
Ordinance, read in light of the City’s limiting
construction which was later incorporated into the
Injunction, is facially content-neutral).
Plaintiffs further argue that the Ordinance is
“applied in a viewpoint discriminatory manner under
McCullen.” Pl.’s Mem. at 13 (emphasis added).
“Plaintiffs have observed . . . clinic escorts engaging
in pro-abortion speech and conduct within the
confines of the zone, and the escorts have not been
charged with a violation of the Ordinance.” Id. As
such, Plaintiffs contend that even if the Ordinance is
The Court notes that no concession on this point is required in
order to reach the same conclusion. Any challenges to a version
of a law that is no longer in effect necessarily are moot.

4

160a
not facially content-based, the “rule that the City
actually enforces, distinct from the ordinance, is
content discriminatory and unconstitutional.” Hoye v.
City of Oakland, 653 F.3d 835 at 849 (emphasis
added); McCullen, 134 S.Ct. at 2533-24 (citing Hoye,
653 F.3d at 849-852). In essence, Plaintiffs allege
selective enforcement. In spite of Plaintiffs’ repeated
citations of McCullen with respect to this argument,
the McCullen petitioners “nowhere allege[d] selective
enforcement,” and thus that case is not controlling on
this issue. Id. at 2534.
A claim of selective enforcement necessarily turns
on the facts. On the record here, there remains an
issue of fact as to whether the Ordinance is selectively
enforced. While no witness testified at the motion
hearing about instances of selective enforcement,
attached to their supplemental brief, Plaintiffs
submitted two affidavits, one by sidewalk counselor
Plaintiff Laslow, and the other by counsel for
Plaintiffs, Matthew S. Bowman. Pl.’s Supp. Br., Exs.
1-2. Plaintiff Laslow avers that, on December 20,
2014, she witnessed: 1) an escort within the buffer
zone speaking to a “pro-life individual” outside of the
zone, and 2) two escorts standing within the buffer
zone, speaking to one another. Laslow Aff., ¶ 3. She
did not report the contents of either conversation. She
called the Pittsburgh Police non-emergency line to
report an alleged violation of the Ordinance, and left
a voicemail. Id. at ¶ 4. Plaintiff Laslow avers that she
“believed the escorts standing and speaking in the
zone may have violated the buffer zone Ordinance’s
prohibition on congregating in the zone, and on
speaking to one another and to pro-lifers while escorts
were in the zone.” Id. That same day, she again
witnessed escorts standing in the zone, speaking to

161a
one another. She again called the non-emergency
number and left a voicemail. Id. at ¶ 5. The police did
not “come to the scene immediately following [her]
reports.” Id. at ¶ 6. She encountered Police Officer
Viskovicz “at the scene” later that day — he was there
on a separate matter — and informed him that she
had observed “escorts congregating and conversing in
the buffer zone, and calling out to pro-life individuals
outside of the buffer zone.” Id. at ¶ 7. Officer Viskovicz
“informed [her] that the Ordinance does not prohibit
escorts from doing any of these things in the zones.
He stated that according to Pittsburgh police policy
the escorts are exempt, and therefore they may
congregate in the zones, speak to each other in the
zones, or speak at pro-life individuals who are present
outside the zone.” Id. at ¶ 8. Mr. Bowman’s affidavit
alleges that Defendants are permitting escorts to
“congregate” within the buffer zone, and that the City
has not stipulated to its understanding that the
Ordinance either permits or prohibits clinic escorts
from congregating, speaking to each other, and
speaking to “pro-lifers” from within the zone. Pl.’s
Supp. Br. at Ex. 2 (“Bowman Aff.”).5
As stated supra, the Ordinance prohibits congregating,
patrolling, picketing or demonstrating within the buffer zone,
but exempts “police and public safety officers, fire and rescue
personnel, or other emergency workers in the course of their
official business, or to authorized security personnel employees
or agents of the hospital, medical office or clinic engaged in
assisting patients and other persons to enter or exit the hospital,
medical office, or clinic.” Pittsburgh, Pa., Code tit. 6, § 623.04.
The Court of Appeals for the Third Circuit accepted the City’s
limiting construction of the Ordinance and interpreted its
exemption to permit employees or agents of the health care
facility to congregate or patrol in the buffer zone, only insofar as
they are “engaged in assisting patients and other persons to

5

162a
As long as such agents are congregating in
connection with “assisting patients and other persons
to enter and exit the facility,” this is permitted by the
Ordinance in light of the Injunction.6 See Brown, 586
F.3d at 275; Inj. at ¶ 2. Plaintiff Laslow does not
provide any facts related to whether the escorts
congregating within the buffer zone were engaged in
assisting patients to enter or exit the clinic. The Court
has no evidence before it that indicates that the
escorts were not engaged in such assistance — or,
more precisely, waiting for patients in order to assist
them — at the time they were congregating. Setting
aside the misguided contention that escorts may
never lawfully congregate within the buffer zone,
Plaintiffs seem to understand the Ordinance to
prohibit the escorts from speaking to one another
within the zone, perhaps as a version of
“demonstrating” or “picketing.” Pl.’s Mem. at 14
(“Here, the Ordinance allows being in the zone but not
speaking, and its exception for clinic employees does
enter and exit the facility.” Brown, 586 F.3d at 275. The
exemption does not permit those persons to picket or
demonstrate. Id.; Inj. at ¶ 2. It appears that Plaintiffs interpret
the Ordinance in light of the Injunction to entirely ban agents
and employees of health care facilities from congregating or
patrolling; this is an inaccurate interpretation of the law.
Plaintiffs allege that counsel for Defendants indicated that he
did not believe that escorts were permitted to “congregate”
within the zone. To the extent that counsel indicated as much,
the extensively litigated record indicates otherwise. Further,
Defendants contend before this Court that the Injunction
prohibits health care facility employees from “demonstrating”
and “picketing” only. Def.’s Supp. Br. at 3, n. 1. Regardless of
Defendants’ position, under Brown and the Injunction, escorts
may congregate and/or patrol while engaged in assisting
patients and others to enter and exit the facility.
6

163a
not say they cannot speak – it exempts them entirely
if they are assisting patients.”). Nowhere does the
Ordinance ban speech itself. Assuming arguendo that
the escorts are lawfully congregating, as the record
contains no indication otherwise, Plaintiffs have not
as of yet explained how the escorts’ speech to one
another while inside the buffer zone constitutes
picketing or demonstrating, in violation of the
Ordinance. Pittsburgh, Pa., Code tit. 6, § 623.04.
Lastly, Plaintiffs argue that escorts are
impermissibly “speaking,” or “calling out” to “prolifers,” and law enforcement fails to enforce the
Ordinance against them. Bowman Aff. at ¶ 6; Laslow
Aff. at ¶ 7. Once again, the Court lacks a developed
factual record on this allegation. Plaintiffs do not
provide details about the single specific incident they
report to the Court. There is no evidence, thus far,
regarding what the escorts said to the anti-abortion
individuals, or the context in which they said it. Ms.
Harris, volunteer coordinator for clinic escorts at the
downtown Planned Parenthood, avers that she
“trains [her] escorts specifically to never engage in
political proselytizing of any kind while in the buffer
zone because [she] understand[s] that there is a Court
order that prohibits that conduct.” Harris Aff. at ¶ 5.
Without additional facts indicating that the
“speaking” or “calling out” constituted “picketing” or
“demonstrating,” Plaintiffs have not met their burden
of persuading the Court that they have a reasonable
likelihood of success on a selective enforcement
claim.7 See Hill, 530 U.S. at 721-22 (noting that law
Like in McCullen, “[i]t would be a very different question if it
turned out that a clinic authorized escorts to speak about
abortion inside the buffer zone [while assisting patients to enter
and exit the facility]. In that case, the escorts would not seem to
7

164a
enforcement may permissibly consider the contents of
speech in order to distinguish “demonstrating” from
casual conversation); P.C. Yonkers, 428 F.3d at 508
(holding that Plaintiffs bear the burden of persuasion
when they move for a preliminary injunction).
Contrast Hoye, 653 F.3d at 849-851 (finding evidence
of selective enforcement after reviewing a police
training video, a police training bulletin, a deposition
of a police department Captain, and admissions
during oral argument).
Due to the undeveloped factual record in this
area, Plaintiffs have not met their burden of
demonstrating that they are entitled to a preliminary
injunction. See Bascom Food Prods. Corp. v. Reese
Finer Foods, Inc., 715 F.Supp. 616 (D.N.J. 1989)
(holding that the moving party must offer proof
beyond unverified factual allegations to demonstrate
entitlement to a preliminary injunction). However,
while Plaintiffs have not met their high burden with
respect to their selective enforcement claim at this
preliminary injunction stage, the allegations
regarding Officer Viskovicz’s discussion with Plaintiff
Laslow give it pause. His alleged statement, that the
escorts are simply “exempt” from the Ordinance, is
inaccurate. As discussed supra, the exemption for
be violating the Act because the speech would be within the
scope of their employment. The Act’s exemption for clinic
employees would then facilitate speech on only one side of the
abortion debate—a clear form of viewpoint discrimination that
would support an as-applied challenge to the buffer zone at that
clinic. But the record before us contains insufficient evidence to
show that the exemption operates in this way at any of the
clinics, perhaps because the clinics do not want to doom the Act
by allowing their employees to speak about abortion within the
buffer zones.” 134 S.Ct. at 2534.

165a
health care facility employees and agents is a narrow
one. Escorts may never “demonstrate” or “picket,” and
they may “congregate” or “patrol” only insofar as they
are engaged in assisting individuals to enter or exit
the facility. It strikes the Court that such a narrow
exception would require at least a cursory inquiry by
law enforcement into the escorts’ purpose when
congregating, and the subject matter and context of
alleged communications by the escorts, especially
those directed towards anti-abortion activists. The
Court anticipates that discovery will bear out
additional details regarding the City of Pittsburgh
Police training with respect to the Ordinance, and
their enforcement practices. The Court will revisit
Plaintiff’s content-discrimination as-applied challenge when the factual record is more developed, as
appropriate.
Plaintiffs make a second selective enforcement —
or content-based as-applied —argument: while the
Ordinance, by its terms, applies at all hospitals and
health care facilities, they contend that it is enforced
only outside of reproductive health clinics where
abortions are performed. Pl.’s Mem. at 14. As such,
the Ordinance is “applied in order to restrict speech
related to the topic of abortion.” Id. It is axiomatic
that if Plaintiffs are challenging the “rule that the
City actually enforces, distinct from the ordinance,
[as] content discriminatory and unconstitutional,”
there must be evidence that said rule is, in fact,
content-discriminatory, and unconstitutional. Hoye v.
City of Oakland, 653 F.3d 835, 849. Plaintiffs’
arguments do not establish a reasonable likelihood of
success on the merits of this alternative theory.
It is the case that only two buffer zones have been
demarcated in the City of Pittsburgh, both of which

166a
are located outside of reproductive health care
facilities where abortions are performed. For the
purposes of this analysis, the Court assumes
arguendo that Defendants are enforcing the “rule” by
replacing the phrases “hospital and or health care
facility” in the Ordinance with “reproductive health
care facility” and/or “abortion clinic.” Plaintiffs have
not established how such an alteration would render
the enforcement content-based.
The Ordinance as enforced in the allegedly
viewpoint-discriminatory manner set forth by
Plaintiffs (the “rule”) bears increasing resemblance to
the content-neutral MRHCA challenged in McCullen.
134 S.Ct. 2518 (holding the MRHCA, which applied
only at reproductive health facilities, to be contentneutral). The petitioners in that case similarly argued
that, given the MRHCA applied only at reproductive
health care facilities where abortions were performed,
“‘virtually all speech affected by the [MRHCA] is
speech concerning abortion,’ thus rendering [it]
content based.” McCullen, 134 S.Ct. at 2531 (internal
citations omitted). The Supreme Court disagreed,
noting:
[i]t is true, of course, that by limiting the
buffer zones to abortion clinics, the [MRHCA]
has the “inevitable effect” of restricting
abortion-related speech more than speech on
other subjects. But a facially neutral law does
not become content based simply because it
may disproportionately affect speech on
certain topics. On the contrary, “a regulation
that serves purposes unrelated to the content
of expression is deemed neutral, even if it has
an incidental effect on some speakers or
messages but not others.”

167a
Id. at 2531 (internal citations omitted). Plaintiffs
argue that enforcement of the Ordinance more
narrowly than its wording authorizes, evinces
Defendants’ intent to restrict anti-abortion speech
because of the content of its message. “We cannot
infer such a purpose from [the Ordinance’s] limited
scope.” Id. at 2532. As noted in McCullen, “‘States
adopt laws to address the problems that confront
them. The First Amendment does not require States
to regulate for problems that do not exist.’” Id. at 2532
(quoting Burson v. Freeman, 504 U.S. 191, 207 (1992)
(plurality opinion)). Legislatures should be
encouraged to pursue solutions to problems that
“restrict[] less speech, not more.” Id. Given the
Supreme Court’s determination that a law explicitly
creating buffer zones only at abortion clinics was
content-neutral, Plaintiffs have not demonstrated a
likelihood of success on the claim that the similar
enforcement of the Ordinance is contentdiscriminatory.
c) Intermediate Scrutiny8
As Plaintiffs have not established that the
In addition to arguing for the application of strict scrutiny due
to content-discrimination, Plaintiffs implore the Court to apply
an amorphous heightened level of review, claiming that the
“Supreme Court gives the City no ability to pursue the interests
of reducing violence and obstruction by restricting speech itself.”
Pl.’s Mem. at 11 (emphasis in original). As a threshold matter,
the Court observes that the Ordinance does not restrict speech
per se, but rather is a time, place and manner regulation. Brown,
586 F.3d at 276 (“As a content-neutral time, place, and manner
regulation, the buffer zone is constitutionally valid if it is
narrowly tailored to serve the government’s significant interest
and leaves open ample alternative channels of communication.”).
As we make clear, such a regulation is subject to intermediate
scrutiny, i.e., the narrow tailoring test. See supra. Contrary to
8

168a
Ordinance is content-based at this juncture, the Ward
narrow tailoring test applies. Brown, 586 F.3d at 271272. The McCullen Court reiterates that:
[f]or a content-neutral time, place or manner
regulation to be narrowly tailored, it must not
‘burden substantially more speech than is
necessary to further the government’s
legitimate interests.’ Such a regulation,
unlike a content-based restriction of speech,
‘need not be the least restrictive or least
intrusive means of’ serving the government’s
interests. But the government still ‘may not
regulate expression in such a manner that a
substantial portion of the burden on speech
does not serve to advance its goals.’
134 S.Ct. at 2535 (quoting Ward, 491 U.S. at 798-799);
see also Brown, 586 F.3d at 276-77 (“As a contentneutral time, place and manner regulation, the buffer
zone is constitutionally valid if it is narrowly tailored
to serve the government’s significant interest and
leaves open ample alternative channels of
communication. The zone may be narrowly tailored
Plaintiffs’ position, McCullen declined to hold that no legislative
body may ever create any incidental burden on speech if direct
regulation of the problematic behaviors — e.g. harassment,
obstruction, assault, etc. — is a theoretical possibility. Even
when applying strict scrutiny, it is not the case that a law may
burden no speech. See, e.g., Schenck v. Pro-Choice Network of
Western New York, 519 U.S. 357, 358 (1997) (“[T]he challenged
provisions [may] ... burden no more speech than necessary to
serve a significant government interest.”) (quoting Madsen v.
Women’s Health Center, 512 U.S. 753, 765 (1994)). For those
reasons, Plaintiffs contention is unpersuasive, and the Court
proceeds to apply intermediate scrutiny, consistent with
McCullen and Brown.

169a
even if it is not the least restrictive or least intrusive
means of serving those interests. . . . ‘Government
may not regulate expression in such a manner that a
substantial portion of the burden on speech does not
serve to advance its goals.’”) (citing Hill, 530 U.S. at
725-26).
Plaintiffs argue that although McCullen relied on
Ward’s historic time, place and manner narrow
tailoring test, it did so “far more rigorously” than had
been done previously. Pl.’s Reply at 2. While Plaintiffs
dance around the point, their position is clear:
McCullen overruled Hill, upon which the Court of
Appeals for the Third Circuit’s decision in Brown was
based. Therefore, they argue, this Court must once
again consider whether the Ordinance survives
intermediate scrutiny. The Court does not agree.
First, the Supreme Court did not explicitly
overrule Hill or articulate a deviation from the
standard outlined in that case. This Court is
unwilling to infer that the McCullen Court covertly
overruled Hill, altering the standard iterated in
Ward, in direct contradiction of itself. As stated supra,
the Supreme Court makes clear that it applies a
narrow tailoring test in McCullen. The McCullen
Court then relies on the very same narrow tailoring
test in Hill. This standard also was relied upon in
Brown to find that the Ordinance challenged in the
instant action survives intermediate scrutiny. As the
doctrine on narrow tailoring has not changed since
the Court of Appeals for the Third Circuit found
section 623.04 to pass constitutional muster, it would
be inappropriate for this Court to revisit that
determination now. This is particularly true in light
of the Injunction, which further narrowed the
Ordinance in accordance with the directives of the

170a
Third Circuit. If the Supreme Court opted to leave
Hill intact in deciding McCullen, far be it for this
Court to do otherwise. We are bound by the decision
of the Court of Appeals for the Third Circuit. Brown,
586 F.3d at 276 (holding that Section 623.04 of the
Ordinance is a constitutional time, place or manner
regulation of speech).
The Court further notes that the Brown Court
relied not only on the Supreme Court’s jurisprudence
in Hill, but also in Madsen, 512 U.S. 753 (1994) and
Schenck, 519 U.S. 357 (1997):
In Madsen and Schenck, the Supreme Court
upheld buffer zones extending thirty-six and
fifteen feet, respectively, from clinic
entrances. As noted, because those buffer
zones were established by injunctions rather
than generally applicable legislation, they
were subject to a more demanding standard of
review: the Court asked “whether the
challenged provisions of the injunction
burden no more speech than necessary to
serve a significant government interest.” The
government interests at stake here are
significant and largely overlap with those
recognized in Madsen and Schenck.
Accordingly, since the Court upheld the buffer
zones in Madsen and Schenck (one of which
was more than twice as large as the buffer
zone here), finding them sufficiently tailored
under a test more exacting than the one
applicable here, the buffer zone established by
the Ordinance is a fortiori constitutionally
valid.
Brown, 586 F.3d at 276 (internal citations omitted).

171a
Nowhere in McCullen does the Supreme Court
invalidate either of those two cases, or even delve
particularly deeply into their reasoning. Hill,
Madsen, and Schenck remain good law; those three
cases comprise the basis for the previous challenge of
the Ordinance, and the Court remains bound by
Brown.
In the event that Plaintiffs are arguing that
McCullen’s application of intermediate scrutiny
renders the Ordinance invalid, the Court likewise is
not persuaded. The Court could only come to that
conclusion if the facts before the Supreme Court were
so similar to those in the instant action as to make
clear that the decision in Brown was an improper
application of the relevant standard. Given the many
factual distinctions between the MRHCA and the
Ordinance, the Supreme Court’s invalidation of the
MRHCA does not render this Ordinance
unconstitutional.
First, the burden on speech was significantly
greater under the MRHCA, as the buffer zones had a
radius of at least 35, not 15, feet, and were
implemented statewide. This Court notes that the
difference in the buffer zone coverage is more stark
when considered in diameter, or length — the
MRHCA created buffer zones at least 70 feet long,
whereas the buffer zone at the downtown Planned
Parenthood is half that. In two instances, the MRHCA
authorized overlapping zones around entrances and
driveways creating speech-free areas as much as 93
feet and 100 feet long, respectively. McCullen, 134
S.Ct. at 2527-28. The Supreme Court noted that at
certain locations the MRHCA forced sidewalk
counselors to cross the street from the abortion clinics
where they sought to counsel — silencing their

172a
conversational speech and foreclosing their ability to
place leaflets close to patients’ hands — a fact that is
not present here. Id. The Supreme Court repeatedly
observes the degree of the burden on speech imposed
by the MRHCA. See, e.g., id. at 2535 (noting that “the
buffer zones impose serious burdens on petitioners’
speech”) (emphasis added); see also id. (“At each of the
three Planned Parenthood clinics where petitioners
attempt to counsel patients, the zones carve out a
significant portion of the adjacent public sidewalks,
pushing petitioners well back from the clinics’
entrances and driveways.”) (emphasis added). While
these emphasized terms are inherently subjective,
Plaintiffs have not demonstrated a sufficient factual
similarity between the restrictions imposed by the
Ordinance here and that imposed by the MRHCA to
allow this Court to find that an equally serious burden
is placed on Plaintiffs’ speech.
Given the nature of sidewalk counseling, it
appears that the McCullen petitioners’ preferred
mode of expression was nearly entirely foreclosed by
the buffer zones created by the MRHCA. They were
relocated sufficiently far away from entrances and
driveways of reproductive health facilities that they
were left with the consolation that the MRHCA “does
not prevent petitioners from engaging in various
[other] forms of ‘protest’—such as chanting slogans
and displaying signs—outside the buffer zone.” Id. at
2536. However, the petitioners were sidewalk
counselors, not chanters and sign-holders. The
Supreme Court observed that “[i]f all that the women
can see and hear are vociferous opponents of abortion,
then the buffer zones have effectively stifled
petitioners’ message.” Id. at 2537 (internal citations
omitted). The same is simply not true here.

173a
In the instant action, Plaintiffs sidewalk counsel
immediately outside the boundary of the buffer zone.
They are not pushed across the street, from where
they must yell. They are not relegated to a distance so
far from the entrance of the downtown Planned
Parenthood that they may not approach potential
patients in order to hand them literature and speak
to them in normal, conversational tones. Even when
Plaintiffs stand at the edge of the buffer zone, they
may speak in conversational tones that carry to the
facility entrance. With an outstretched arm, they may
reach into the zone and offer literature to patients,
many of whom accept that literature and bring it into
the facility. During the December 3, 2014, hearing,
Defendants clarified that anyone may walk through
the buffer zone in order to approach a potential
patient who is arriving at the clinic from its other
side. Plaintiff Bruni acknowledged that this
clarification relieves some of the burden she
previously believed the Ordinance imposed on her
sidewalk counseling.
While Plaintiffs’ message is restricted in that they
cannot continue to walk alongside women as they
approach within fifteen feet of the entrance, that
method of communication is not foreclosed or
effectively stifled. The Court notes that Plaintiff
Bruni did not begin to engage in sidewalk counseling
until well after the initial implementation of the
Ordinance. It is noteworthy that she has been
permissibly engaging in sidewalk counseling, albeit
outside of the buffer zone, since 2009. She engages in
the very constitutionally protected expression she
desires, just not within a small zone surrounding the
entrance to the downtown Planned Parenthood. It is
clear from her testimony regarding her frequent

174a
sidewalk counseling outside of abortion clinics over
the past five years that the buffer zone has not
foreclosed this form of desired expression nor
effectively stifled her message.
Plaintiffs contend that, when relegated to any
distance away from the entrance to the downtown
Planned Parenthood, it becomes more difficult for
them to identity who may be a patient and who is not.
The Court does not see this as a burden on their right
to free speech. If anything, Plaintiffs engage in more
speech — i.e. sidewalk counseling — not less, in an
effort to disseminate their message to all potential
patients. A right to engage in normal conversation
and leaflet on a public sidewalk does not equate to a
right to know if those with whom you communicate
are, indeed, your target audience. This argument was
not articulated in McCullen, and it does not convince
the Court that the Ordinance presents an equivalent
substantial burden on Plaintiffs’ speech to the burden
before the Supreme Court in McCullen.
The McCullen Court also noted that the sidewalk
counselors in Massachusetts often approach vehicles
entering driveways, as 90% of patients arrived by car
at one particular clinic. Id. at 2528; see also id. at 2537
(“[Petitioners] claim a right to stand on the public
sidewalks by the driveway as cars turn into the
parking lot.”). It is a greater burden on speech to be
distanced from a car than from a pedestrian, as any
distance of separation means that the car may easily
drive by the sidewalk counselor, entirely insulated
from his or her message. Id. at 2536 (“In Worcester
and Springfield, the zones have pushed petitioners so
far back from the clinics’ driveways that they can no
longer even attempt to offer literature as drivers turn
into the parking lots.”). In contrast, the maximum

175a
separation between a pedestrian and a sidewalk
counselor in Pittsburgh, possibly after passing that
counselor before entering the buffer zone, does not
create the same burden on speech. As noted, Plaintiffs
can and do continue to offer literature to those
walking in front of the downtown Planned
Parenthood. As would be the case with or without the
buffer zone, some patients accept the information,
and others do not.
Plaintiffs additionally argue that the Ordinance
is like the MRHCA in that it leaves open “no
corresponding alternative channel of communication.” Pl.’s Reply at 3. It is indeed the case that, in
order to be constitutional, the Ordinance must leave
open “ample alternative channels for communication.” McCullen at 2529 (citing Ward, 491 U.S. at
791). Unlike in McCullen, alternative channels for
sidewalk counseling exist in the instant matter. The
Brown Court held that, “[a]lthough the buffer zone,
standing alone, would require leafletters to remain
beyond arm’s reach of a medical facilities’ entrances,
they would still be able to approach individuals
outside of the fifteen-foot radius in order to distribute
their literature.” 586 F.3d. at 281. In Hill, the
Supreme Court “noted approvingly that the bubble
zone allowed leafletters to stand stationary in the
path of oncoming pedestrians,” which is also the case
for Plaintiffs fifteen feet away from the clinic
entrance. Id. at 278 (citing Hill, 530 U.S. at 727-28).
While the Supreme Court found that the MRHCA,
with its distinctly larger buffer zone, foreclosed
alternative channels of communication such that it
impermissibly violated the First Amendment,
Plaintiffs have not demonstrated a sufficient factual
basis upon which the Court can find that the

176a
Ordinance indeed leaves open “no corresponding
alternative channel of communication.” It is
undisputed that Plaintiffs engage currently in
sidewalk counseling, some of them multiple times per
week. This fact alone is sufficient evidence of the
existence of ample alternative channels of
communication.
The
McCullen
Court
notes
that
the
Massachusetts legislature pursued their interests “by
the extreme step of closing a substantial portion of a
traditional public forum to all speakers.” Id. at 2541
(emphasis added). Given the record before the Court,
Plaintiffs have not demonstrated that a similarly
“substantial portion” of the sidewalk has been closed
by the Ordinance. Due to the factual dissimilarities
between McCullen and the instant case with respect
to the degree of burden imposed on the petitioners’
and Plaintiffs’ speech, respectively, the Supreme
Court’s invalidation of the MRHCA does not compel
the invalidation of Pittsburgh’s less burdensome
Ordinance. Pursuant to Brown, and in light of
McCullen, the Ordinance remains narrowly tailored
to pursue legitimate government interests.
Plaintiffs raise one additional argument not
addressed by Brown, which this Court will consider
accordingly. 586 F.3d. 263. Plaintiffs argue that the
Ordinance fails narrow tailoring, facially, as it
“applies to hospitals and health care facilities,”
meaning that it creates the ability to enforce buffer
zones outside of, “inter alia, dentist offices, outpatient medical laboratories, urgent care facilities,
family practitioners, hospitals—the list is endless
under the City’s incredibly broad definition of ‘health
care facility,’ in order to treat a problem that has
historically existed only outside of abortion clinics.”

177a
Pl.’s Mem. at 10-11.
As discussed supra, the government has
legitimate interests in “ensuring that patients have
unimpeded access to medical services,” as well as in
“protecting a woman’s freedom to seek lawful medical
or counseling services in connection with her
pregnancy” and “ensuring the public safety and
order.” Pittsburgh, Pa., Code tit. 6, § 623.01; Brown,
586 F.3d at 269. The Supreme Court in Hill
recognized that “[i]t is a traditional exercise of the
States’ police powers to protect the health and safety
of its citizens. That interest may justify a special focus
on unimpeded access to health care facilities and the
avoidance of potential trauma to patients associated
with confrontational protests.” 530 U.S. at 715
(internal citations and quotations omitted). McCullen
did not overrule Hill’s holding. The MRHCA created
buffer zones outside of “reproductive health care
facilities,” and not health care facilities more broadly,
in order to pursue a narrower government interest
than that asserted here. Thus, the McCullen Court
had no opportunity to opine on the issue of whether a
broader government interest in regulating sidewalks
outside of hospitals and health care facilities is
“legitimate,” or what kind of law would be narrowly
tailored (or not) to preserve that interest. Given Hill’s
holding that such broad government interests are
indeed legitimate, Plaintiffs have not shown a
likelihood of success on the claim that an Ordinance
regulating the time, place and manner of speech in
front of hospitals and health care facilities necessarily
fails a narrow tailoring analysis. See Hill, 530 U.S.
703.

178a
d) Conclusion
McCullen “noted the historical importance” of
Plaintiffs’ desired First Amendment expressions —
distribution of literature and engagement in personal
conversations in a traditional public forum. Pl.’s
Mem. at 11; see also Pl.’s Reply at 3-4. The Court
understands the constitutional import of Plaintiffs’
First Amendment rights. As previously held in
Brown, the Ordinance does not unconstitutionally
infringe upon those rights, as it is a facially contentneutral time, place or manner regulation of speech. It
is narrowly tailored to achieve legitimate government
interests, and is thus constitutional on its face. There
remains a genuine issue of fact with respect to
Plaintiffs’ allegation that Defendants engage in
selective enforcement of the Ordinance. There is
insufficient evidence in the record to support a
conclusion that Plaintiffs have established a
likelihood of success on the merits of that claim. As
Plaintiffs have not demonstrated a likelihood of
success on the merits of their First Amendment
claims, the Court need not reach the remaining
requirements for a successful motion for preliminary
injunction. For these reasons, Plaintiffs’ Motion for
Preliminary Injunction will be denied.
2. Motion to Dismiss
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)). When faced with a motion to dismiss, a court
“must accept all of the complaint’s well-pleaded facts
as true, but may disregard any legal conclusions.”

179a
Fowler v. UPMC Shadyside, 578 F.3d 203, 210-11 (3d
Cir. 2009).
a) Violation of Freedom of Speech and of the Press
under the First Amendment
Defendants contend that Brown forecloses
Plaintiffs’ First Amendment freedom of speech
claims, and that McCullen did not abrogate Brown.
Def.’s Mot. to Dismiss at ¶¶ 12-22. However, as noted
above, Plaintiffs put forth a selective enforcement
claim, alleging that Defendants allow Planned
Parenthood escorts to engage in advocacy in the
buffer zones, in violation of the Ordinance, while
enforcing the Ordinance as against anti-abortion
sidewalk counselors. If we accept their facts as
alleged, Plaintiffs indeed state a selective
enforcement —or content-based as-applied — claim
for relief plausible on its face, under the First
Amendment freedom of speech. See supra. As set
forth above, there remain issues of fact surrounding
this particular claim and, as such, dismissal is
inappropriate.
Plaintiffs further allege that the Ordinance
infringes upon their “freedom of the press, [which]
protects the[ir] leafleting activities.” Pl.’s Resp. (Doc.
18) at 10. Defendants argue that “no facts [are]
alleged in support of such cause of action.” Def.’s Mot.
to Dismiss at ¶ 6. “The right of freedom of speech and
press has broad scope. . . .This freedom embraces the
right to distribute literature.” Martin v. City of
Struthers, 319 U.S. 141 (1943). The Court finds that
insofar as Plaintiffs state a selective enforcement
claim, their First Amendment freedom of the press is
implicated as well. As such, Defendants’ motion for
dismissal of Plaintiff’s selective enforcement First

180a
Amendment freedom of speech and press claim will be
denied.
However, Plaintiffs’ First Amendment claim is
not limited to a theory of selective enforcement, as
discussed above. Compl. at ¶¶ 79-105. To the extent
they allege unconstitutional overbreadth; a failure to
survive intermediate scrutiny; facial contentdiscrimination; content-discrimination as-applied
due to the existence of buffer zones only at abortion
clinics; and content-discrimination due to the
necessity of law enforcement to review the content of
speech in order to enforce the Ordinance, those claims
have been addressed by the Court. See analysis supra.
Insofar as Plaintiffs seek relief pursuant to the First
Amendment under these theories, they have not
stated a plausible claim for relief, and those iterations
of their “First Claim” will be dismissed. Id.
Plaintiffs further allege that the Ordinance
imposes an unconstitutional prior restraint on
speech. Compl. at ¶¶ 95-96. Defendants argue that
Plaintiffs have not stated a claim for relief on this
basis, as “[t]he term prior restraint is used to describe
administrative and judicial orders forbidding certain
communications when issued in advance of the time
that such communications are to occur.” Def.’s Br. in
Supp. (Doc. 16) at 7 (emphasis in original) (quoting
Alexander v. United States, 509 U.S. 544 (1993)).
Smolla and Nimmer explain that:
[t]he phrase “prior restraint” . . . is a term of
art referring to judicial orders or
administrative rules that operate to forbid
expression before it takes place. In First
Amendment jurisprudence, prior restraints
are thus traditionally contrasted with

181a
“subsequent punishments,” which impose
penalties on expression after it occurs.
Smolla & Nimmer on Freedom of Speech (2014) §
15:1. The Ordinance, with its imposition of penalties
after a violation has occurred, provides “subsequent
punishments” and is not a “prior restraint” within the
generally understood definition of that term.
Plaintiffs refer to the Supreme Court’s discussion
of prior restraints in Hill as applicable to the instant
challenge. Pl.’s Resp. at 9. However, that analysis was
relevant in Hill only because the petitioners
specifically challenged the Colorado statute’s
requirement that sidewalk counselors obtain a
pedestrian’s consent before approaching within eight
feet, in order to engaging in oral protest, education, or
counseling. The Supreme Court declined to deem that
a prior restraint. Hill, 530 U.S. at 733 (noting that the
Supreme Court had previously rejected the prior
restraint argument in Schenck and Madsen, and
rejected it once again with respect to Colorado’s
statute). Moreover, the Ordinance here does not
contain any such consent requirement, or any other
element that could be considered a prior restraint on
speech. Contrary to Plaintiffs’ arguments, it is the
case here, as it was in Hill, that “[u]nder this statute,
absolutely no channel of communication is foreclosed.
No speaker is silenced. And no message is prohibited.”
Id. at 734. For these reasons, Plaintiffs have not
stated a prior restraint claim on which relief could be
granted. That claim will be dismissed.
Plaintiffs allege that the Ordinance is
impermissibly vague pursuant to the First
Amendment, failing to “put a reasonable person on
notice of what it prohibits, and lacks the clarity

182a
required of restrictions on protected speech.” Compl.
at ¶ 97. Defendants argue that “[t]he Ordinance –
especially as it is construed in light of the permanent
injunction – clearly prohibits certain activities within
the 15 foot ‘buffer zone,’” and thus the Court should
dismiss Plaintiffs’ void for vagueness claim. Def.’s Br.
in Supp. at 8. Plaintiffs do not respond to Defendants’
motion to dismiss their unconstitutional vagueness
claim. Upon review of the factual allegations in the
Complaint, no facts alleged support this challenge.
Nowhere do Plaintiffs allege that they are not on
reasonable notice of what the Ordinance prohibits.
Rather, Plaintiffs make clear in the Complaint that
they understand the Ordinance to prohibit them from
sidewalk counseling, congregating, patrolling or
otherwise demonstrating or picketing, within the
buffer zone. Compl. at ¶ 66. As Plaintiffs have failed
to state a First Amendment void for vagueness claim
for relief, that claim will be dismissed.
For the reasons stated, Plaintiffs’ First
Amendment Claim remains insofar as they allege
selective enforcement, or content-discrimination asapplied. The remaining iterations of their First
Amendment claim for relief will be dismissed.
b) Violation of Substantive and Procedural Due
Process under the First and Fourteenth
Amendments
Defendants allege that the gravamen of Plaintiffs’
substantive due process claim under the Fourteenth
Amendment relates to the alleged suppression of
their freedom of speech. Def.’s Br. in Supp. at 3.
“Therefore, the First Amendment, rather than the
Fourteenth Amendment’s notion of substantive due
process provides the proper context for analyzing this

183a
claim.” Id. (citing Albright v. Oliver, 510 U.S. 266
(1994)). “Where a particular Amendment provides an
explicit textual source of constitutional protection
against a particular sort of government behavior, that
Amendment, not the more generalized notion of
‘substantive due process,’ must be the guide for
analyzing these claims.” Albright, 510 U.S. at 273; see
also Donahue v. Gavin, 280 F.3d 371 (3d Cir. 2002)
(citing Albright, 510 U.S. 266).
Plaintiffs
contend
that
the
Fourteenth
Amendment protects their fundamental rights to
freedom of speech and of the press, and thus a
substantive due process challenge is proper. Pl.’s
Resp. at 12; see generally Compl. at ¶¶ 107-12, 11718. They argue that said fundamental rights are
deprived in an arbitrary or capricious manner, as
Defendants do not create and enforce buffer zones at
every location where authorized to do so. Id. They
reason that “Defendants are impermissibly and
arbitrarily targeting Plaintiffs because of their speech
related to abortion, and their pro-life speech in
particular.” Id.
The First Amendment is the proper constitutional
home for Plaintiffs’ freedom of speech and press
claims; “substantive due process, with its scarce and
open-ended guideposts, can afford [them] no relief.”
Albright, 510 U.S. at 274. Plaintiffs have alleged no
facts to support an allegation that Defendants enforce
the Ordinance in an “arbitrary or capricious” manner.
Rather, they allege that Defendants enforce the
Ordinance in a manner that specifically aims to
burden speech on abortion generally, and antiabortion speech in particular. These allegations are
better suited for challenge under the First
Amendment, which provides an “explicit textual

184a
source of constitutional protection” for impermissible
abridgments of freedom of speech and the press.
Plaintiffs have properly alleged that the Ordinance
targets abortion-related, or anti-abortion, speech in
their content-based First Amendment challenge,
further demonstrating that the First Amendment is
the source of their rights, and the more appropriate
authority for their claim for relief.
To the extent that Plaintiffs allege a substantive
due process challenge based on the City’s
impermissible “unfettered discretion” to demarcate
and enforce additional buffer zones, they have also
not stated a claim for relief. See Pl.’s Resp. at 11-13.
Plaintiffs cite a number of cases for the proposition
that such broad discretion would violate their
substantive due process rights. Id. Problematically,
none of those citations relate to an analysis under the
substantive due process doctrine of the Fourteenth
Amendment. Cox v. Lousiana, 379 U.S. 536, 558
(1965) (“But here it is clear that the practice in Baton
Rouge allowing unfettered discretion in local officials
in the regulation of the use of the streets for peaceful
parades and meetings is an unwarranted abridgment
of appellant’s freedom of speech and assembly secured
to him by the First Amendment. . . “) (emphasis
added); Se. Promotions, Ltd. v. Conrad, 420 U.S. 546,
553 (1975) (noting that “the danger of censorship and
of abridgment of our precious First Amendment
freedoms is too great where officials have unbridled
discretion over a forum’s use”) (emphasis added); City
of Lakewood v. Plain Dealer Pub. Co., 486 U.S. 750
(1988) (analyzing the constitutional limits on
discretion required by the First Amendment); Forsyth
County v. Nationalist Movement, 505 U.S. 123
(discussing impermissibly arbitrary application of

185a
prior restraints on speech pursuant to the First
Amendment).
As Plaintiffs’ substantive due process claims are
more appropriately characterized as violations under
the First Amendment, they fail to state a claim upon
which relief may be granted under the Fourteenth
Amendment.
Defendants argue that Plaintiffs’ procedural due
process claims “should be dismissed because the
protections of procedural due process do not extend to
generally applicable legislative actions.” Def.’s Br. in
Supp. at 3. Plaintiffs cite only one case, Winters v.
New York, 333 U.S. 507 (1948), for the proposition
that procedural due process is implicated when a
statute limits the freedom of expression “yet fails ‘to
give fair notice of what acts will be punished and such
a statute’s inclusion of prohibition against
expressions, protected by the First Amendment.’” 333
U.S. at 509-10. Winters was an appeal of a criminal
conviction under a New York statute. Id. The due
process clause of the Fourteenth Amendment was
implicated because of the procedural posture of a
criminal appeal — appellant was deprived of due
process and freedoms of speech or press via his
prosecution for violating the statute. The instant
matter is not a criminal prosecution. There are no
allegations that Plaintiffs have been subjected to any
state proceedings in which any process would come
due to them. The crux of their argument is, rather,
that the Ordinance is unconstitutionally vague,
failing to give them fair notice of what First
Amendment expressions, if any, it covers. This
argument is better suited to a First Amendment
analysis. Albright, 510 U.S. at 273; see analysis
supra. Defendants’ motion to dismiss Plaintiffs

186a
procedural due process claim will be granted.
c) Claims as against Mayor William Peduto and
Pittsburgh City Council
Defendants request that the Court dismiss Mayor
William Peduto (“Mayor Peduto”) from this action, as
“official capacity suits are the equivalent of suing the
government entity itself.” Def.’s Br. in Supp. at 3
(citing Kentucky v. Graham, 473 U.S. 159 (1985)).
They further argue that the Pittsburgh City Council
should be terminated as a defendant as well, as the
City of Pittsburgh is the “real party in interest and
. . . also a named defendant.” Id. at 4.
Plaintiffs charge Mayor Peduto with “executing
and enforcing” the Ordinance, allegedly in a contentdiscriminatory manner; the Pittsburgh City Council
is charged with enacting the Ordinance. Compl. at ¶¶
16-19. It would be premature to dismiss Mayor
Peduto at this early stage, prior to discovery with
respect to Plaintiffs’ selective enforcement claim and
Mayor Peduto’s role, if any, in such enforcement. It is
commonplace to name multiple defendants, “whether
corporate, municipal, or individual” in Section 1983
claims such as this one. Compl. at ¶ 6; Coffman v
Wilson Police Dep.’t, 739 F.Supp. 257, 262 (E.D. Pa
1990) (citing Pembaur v. City of Cincinnati, 475 U.S.
469, 473-74 (1986) (city, county, police chief, county
sheriff, Board of County Commissioners, prosecutor,
and police officers all named as defendants); Graham,
473 U.S. at 161-62 (local law enforcement and city
named as defendants)). In contrast, Plaintiffs make
no meaningful allegations regarding the role of
Pittsburgh City Council in the enforcement of the
Ordinance. Defendants’ motion to dismiss Mayor
Peduto from this case will be denied. Their motion to

187a
dismiss all claims as against the Pittsburgh City
Council will be granted.
d) Conclusion
For the reasons stated, Defendants’ Motion to
Dismiss Plaintiffs’ First Amendment claims will be
granted in part and denied in part. To the extent that
Plaintiffs allege a selective enforcement, or contentdiscriminatory as-applied, First Amendment claim,
Defendants’ motion will be denied. In all other
respects, Defendants’ Motion to Dismiss Plaintiffs’
First Amendment claims is granted. Defendants’
Motion to Dismiss Plaintiffs’ substantive and
procedural due process claims is granted. Defendants’
motion to dismiss all claims as against Mayor Peduto
will be denied. Their motion to dismiss all claims as
against the Pittsburgh City Council will be granted.
The Court notes that in Defendants’ “wherefore
clause,” they additionally seek dismissal of Plaintiffs’
“Third” claim as it relates to the Fourteenth
Amendment. Plaintiffs’ Third Claim is rooted in the
Fourteenth Amendment’s equal protection clause.
Defendants, however, present no arguments on
Plaintiffs’ equal protection theory. Indeed, there is no
other reference to the equal protection claim in
Defendants’ Motion to Dismiss or Brief in Support. As
such, the Court will not sua sponte dismiss this claim.
ORDER
For the reasons stated above, Plaintiffs’ Motion
for Preliminary Injunction (Doc. 3) is DENIED.
Defendants’ Motion to Dismiss (Doc. 15) is DENIED
insofar as it seeks to dismiss: 1) Plaintiffs’ First
Amendment freedom of speech and press selective
enforcement claim, and 2) all claims as against Mayor

188a
William Peduto. Defendants’ Motion to Dismiss is
GRANTED in all other respects.
Defendants shall file their Answer on or before
March 20, 2015.
IT IS SO ORDERED.
March 6, 2015

s\Cathy Bissoon
Cathy Bissoon
United States District Judge

cc (via ECF email notification):
All Counsel of Record

189a
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1084
NIKKI BRUNI; JULIE COSENTINO; CYNTHIA
RINALDI; KATHLEEN LASLOW; PATRICK
MALLEY,
Appellants
v.
CITY OF PITTSBURGH; PITTSBURGH CITY
COUNCIL; MAYOR PITTSBURGH
On Appeal from the United States District Court for
the Western District of Pennsylvania
(W.D. Pa. No. 2-14-cv-01197)
District Judge: Cathy Bissoon
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, Jr., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
and GREENBERG,1 Circuit Judges.
The petition for rehearing filed by appellants in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
1

Judge Greenberg’s vote is limited to Panel rehearing only.

190a
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge
Dated: November 27, 2019
Lmr/cc: All Counsel of Record

191a
Excerpts from United States Constitution
Article III, § 2
The judicial Power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, and Treaties made, or which
shall be made, under their Authority;—to all Cases
affecting Ambassadors, other public Ministers and
Consuls;—to all Cases of admiralty and maritime
Jurisdiction;—to Controversies to which the United
States shall be a Party;—to Controversies between
two or more States;— between a State and Citizens of
another State;—between Citizens of different
States;—between Citizens of the same State claiming
Lands under Grants of different States, and between
a State, or the Citizens thereof, and foreign States,
Citizens or Subjects.
Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; . . . .
Amendment XIV, § 1
. . . [N]or shall any State deprive any person of life,
liberty, or property, without due process of law . . . .


192a
Pittsburgh Code of Ordinances
CHAPTER 623:
PUBLIC SAFETY AT HEALTH CARE FACILITIES
§ 623.01 - INTENT OF COUNCIL.
The City Council recognizes that access to Health
Care Facilities for the purpose of obtaining medical
counseling and treatment is important for residents
and visitors to the City. The exercise of a person’s
right to protest or counsel against certain medical
procedures is a First Amendment activity that must
be balanced against another person’s right to obtain
medical counseling and treatment in an unobstructed
manner; and
The City of Pittsburgh Bureau of Police has been
consistently called upon in at least two (2) locations
within the City to mediate the disputes between those
seeking medical counseling and treatment and those
who would counsel against their actions so as to (i)
avoid violent confrontations which would lead to
criminal charges and (ii) enforce existing City
Ordinances which regulate use of public sidewalks
and other conduct;
Such services require a dedicated and indefinite
appropriation of policing services, which is being
provided to the neglect of the law enforcement needs
of the Zones in which these facilities exist.
The City seeks a more efficient and wider
deployment of its services which will help also reduce
the risk of violence and provide unobstructed access
to health care facilities by setting clear guidelines for
activity in the immediate vicinity of the entrances to
health care facilities;

193a
The Council finds that the limited buffer and
bubble zones outside of health care facilities
established by this chapter will ensure that patients
have unimpeded access to medical services while
ensuring that the First Amendment rights of
demonstrators to communicate their message to their
intended audience is not impaired.
(Am. Ord. 49-2005, § 1, eff. 12-30-2005)
§ 623.02 - DEFINITIONS.
Hospital means an institution that:
(1) Offers services beyond those required for
room, board, personal services and general
nursing care; and,
(2) Offers facilities and beds for use beyond
twenty-four (24) hours by individuals
requiring diagnosis, treatment, or care for
illness,
injury,
deformity,
infirmity,
abnormality, disease, or pregnancy; and,
(3) Regularly makes available clinical laboratory
services, diagnostic X-ray services, and
treatment facilities for surgery or obstetrical
treatment of similar extent.
Hospitals may include offices for medical and
dental personnel, central facilities such as
pharmacies, medical laboratories and other related
uses.
Medical office/clinic means an establishment
providing therapeutic, preventative, corrective,
healing and health-building treatment services on an
out-patient basis by physicians, dentists and other
practitioners. Typical uses include medical and dental
offices and clinics and out-patient medical

194a
laboratories.
(Am. Ord. 49-2005, § 1, eff. 12-30-2005)
§ 623.03 - EIGHT-FOOT PERSONAL BUBBLE
ZONE.
No person shall knowingly approach another
person within eight (8) feet of such person, unless
such other person consents, for the purpose of passing
a leaflet or handbill to, displaying a sign to, or
engaging in oral protest, education or counseling with
such other person in the public way or sidewalk area
within a radius of one hundred (100) feet from any
entrance door to a hospital and/or medical
office/clinic.
(Am. Ord. 49-2005, § 1, eff. 12-30-2005)
§ 623.04 - FIFTEEN-FOOT BUFFER ZONE.
No person or persons shall knowingly congregate,
patrol, picket or demonstrate in a zone extending
fifteen (15) feet from any entrance to the hospital and
or health care facility. This section shall not apply to
police and public safety officers, fire and rescue
personnel, or other emergency workers in the course
of their official business, or to authorized security
personnel employees or agents of the hospital,
medical office or clinic engaged in assisting patients
and other persons to enter or exit the hospital,
medical office, or clinic.
(Am. Ord. 49-2005, § 1, eff. 12-30-2005)
§ 623.05 - PENALTY.
Any person, firm, or corporation who pleads guilty
or nolo contendere, or is convicted of violating of this
section shall be guilty of a summary offense and
punished by a fine of at least fifty dollars ($50.00) for

195a
the first offense; a fine of at least one hundred fifty
dollars ($150.00) for a second offense within five (5)
years; and a fine of three hundred dollars ($300.00)
for a third offense within five (5) years.
For fourth and subsequent offenses within five (5)
years the fine shall not be less than three hundred
dollars ($300.00) and/or imprisonment for not less
than three (3) days but not more than thirty (30) days.
No part of the minimum fine may be suspended
or discharged, except upon proof and a finding of
indigence by the court. Indigent defendants may pay
fines imposed under this section by participation in a
court designated community service program,
crediting the commensurate dollar amount of each
hour of community service toward payment of the
minimum fine owed.
(Am. Ord. 49-2005, § 1, eff. 12-30-2005)
§ 623.06 - SEVERABILITY.
The provisions of this Chapter are severable. If
any portion of this Chapter is held invalid,
unenforceable, or unconstitutional by any court of
competent jurisdiction, it shall not affect the validity
of the remaining portions of this Chapter, which shall
be given full force and effect.
(Am. Ord. 49-2005, § 1, eff. 12-30-2005)
§ 623.07 - EFFECTIVE DATE.
This Chapter shall become effective immediately
upon the signature of the Mayor, or ten (10) days after
the City Clerk provides this ordinance to the mayor
for signature.
(Am. Ord. 49-2005, § 1, eff. 12-30-2005)

196a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA

MARY KATHRYN BROWN,
Plaintiff,
vs.
CITY OF PITTSBURGH, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No.
06-393
Judge Nora
Barry Fischer

ORDER GRANTING PERMANENT
INJUNCTION
1.) Section 623.03 of the Ordinance No. 49,
Pittsburgh Code title 6, enacted in December, 2005, is
hereby permanently enjoined in toto.
2.) Defendants shall construe and enforce Section
623.04 of the Ordinance in a manner that does not
permit any person to picket or demonstrate within the
boundaries of the 15 foot buffer zone. Accordingly,
assisting patients and other persons to enter or exit a
hospital, medical office or clinic is permissible if it
does not include any action, activity or signage in the
form of picketing or demonstrating.
3.) Defendants shall provide training to
Pittsburgh City Police concerning proper enforcement
of the Ordinance, in both written and oral form.
4.) Defendants shall provide a copy of such
written training materials to Plaintiff.

197a
5.) Defendants shall clearly mark the boundaries
of any 15 foot buffer zone in front of any hospital,
medical office or clinic prior to the enforcement of the
Ordinance.
6.) Defendants shall remove any and all current
markings that delineate the now-stricken 100 foot
zone.
7.) The submission of this Order resolves all
outstanding matters of dispute between the parties,
except for the parties’ remaining dispute concerning
attorney fees, costs and/or prevailing party status.
This Order shall constitute the final judgment of
the Court in this matter.
The
foregoing
is HEREBY
ADJUDGED, and DECREED.

ORDERED,

s/Nora Barry Fischer
Nora Barry Fischer
Dated:
CC/ECF:

December 17, 2009.
All counsel of record.

